<html>
<title> - A REVIEW OF THE FISCAL YEAR 2021 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
 A REVIEW OF THE FISCAL YEAR 2021 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

=======================================================================


                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 3, 2020

                               __________

                           Serial No. 116-64

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________                               
                               
                               
                U.S. GOVERNMENT PUBLISHING OFFICE 
41-954 PDF               WASHINGTON : 2021                                
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                                Witness

Honorable Chad Wolf, U.S. Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     9

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Statement of Anthony M. Reardon, National President, National 
    Treasury Employees Union.....................................    66

                                Appendix

Questions From Honorable Torres Small for Honorable Chad Wolf....    73
Questions From Honorable Michael Guest for Honorable Chad Wolf...    74


 A REVIEW OF THE FISCAL YEAR 2021 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

                              ----------                              


                         Tuesday, March 3, 2020

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m., in 
room 310, Cannon House Office Building, Hon. Bennie G. Thompson 
(Chairman of the committee) presiding.
    Present: Representatives Thompson, Langevin, Richmond, 
Rice, Correa, Torres Small, Rose, Underwood, Cleaver, Green of 
Texas, Clarke, Titus, Coleman, Demings; Rogers, King, McCaul, 
Katko, Walker, Higgins, Lesko, Green of Tennessee, Joyce, 
Crenshaw, Guest, Bishop, and Van Drew.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony on the 
administration's budget request for the Department of Homeland 
Security.
    Without objection, the Chair is authorized to declare the 
committee in recess at any point.
    Acting Secretary Wolf, you are here today under 
extraordinarily troubling circumstances. Americans are 
rightfully concerned about the coronavirus that spreads across 
the globe and claimed the lives of thousands, including at 
least 6 here at home. They are looking to their Government for 
leadership and guidance.
    Unfortunately, the Trump administration has not been equal 
to the task so far. In the face of this potential pandemic, the 
President has downplayed this threat, overstated how close 
scientists are to developing a vaccine, and muzzled experts in 
his own administration who disagree with him. As the crisis 
unfolds, the President has continued to hold political rallies, 
including a recent one where he called the coronavirus a hoax 
perpetrated by Democrats. Even for a President who has a casual 
relationship with the truth, this is not only an outrageous 
lie, but also incredibly dangerous.
    The President must not shirk his responsibility. The 
country needs him to step up in a time of crisis, like 
Presidents of both parties have done throughout our Nation's 
history. That means acknowledging the threat, prioritizing the 
health and security of the American people above political 
consideration or the stock market, and allowing doctors, 
scientists, and other qualified experts to offer candid 
assessments of the situation and direct the Federal response.
    As for the Department of Homeland Security, I remain 
concerned about the lack of steady leadership and persistent 
vacancies, especially during this critical time. Mr. Wolf is 
the fifth person to sit--serve as Secretary during 3 years of 
Trump administration. It has been 328 days since the Department 
of Homeland Security has had a Senate-confirmed Secretary. It 
is not even certain that Mr. Wolf's appointment is valid.
    Moreover, a Federal court ruled in recent days that the 
acting deputy secretary's appointment as USCIS director was 
unlawful, calling into question his position at the Department. 
Unfortunately, the President appears to prefer chaos to order, 
and political expediency to good government.
    Make no mistake, the on-going vacancies and lack of steady 
leadership have consequences, especially at a time like this. 
For example, since 9/11 the Federal Government has invested 
heavily in developing doctrine to define roles and 
responsibility for incident response. But no one in the 
administration seems to be familiar with them. As Americans 
face a potential coronavirus pandemic, the administration 
appears to be caught flat-footed, scrambling to figure out who 
is in charge.
    Meanwhile, the President's proposed budget prioritizes his 
draconian immigration campaign promises at the expense of our 
core homeland security activities and responsibilities, 
including agencies and programs that are integral to the 
coronavirus response. I remain committed to ensuring the 
Department receives the funding it needs to carry out its 
mission on behalf of the American people.
    Similarly, Members of both parties rejected the President's 
recent lowball coronavirus emergency supplemental request. 
Apparently, the President is happy to spend an unlimited amount 
of U.S. taxpayers' money on a useless border wall. But faced 
with the prospect of a global pandemic, he would have nickel-
and-dimed our response. This is unacceptable. Now is certainly 
not the time to leave Federal agencies engaged in the response 
short of resources. In the coming days we will send the 
President a bill providing the funding necessary to fight the 
coronavirus.
    Before I close, I want to address the challenges associated 
with the Department's refusal to cooperate with the committee's 
oversight efforts. Under the Trump administration the 
Department has failed to provide the documents requested by 
this committee as part of its Constitutionally-mandated 
oversight efforts. Even under subpoena, when the committee does 
receive documents, they are incomplete or heavily redacted so 
as to render them useless.
    The behavior of the Department gives the impression that it 
is seeking to evade oversight, or has something to hide. I hope 
that is not true. If we can't trust the Trump administration to 
be transparent with regular Congressional oversight, how can we 
trust it to be honest with the American people in a time of 
crisis?
    In the past time for the President and his administration 
to be the leaders the American people need and deserve. They 
are counting on the administration to secure the Nation, and on 
Congress to hold you accountable. Please know that we will 
uphold our responsibility, Mr. Acting Secretary. I sincerely 
hope the President and his administration uphold theirs.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             March 3, 2020
    Acting Secretary Wolf, you are here today under extraordinarily 
troubling circumstances. Americans are rightfully concerned about the 
coronavirus that has spread across the globe and claimed the lives of 
thousands, including at least 6 here at home. They are looking to their 
Government for leadership and guidance. Unfortunately, the Trump 
administration has not been equal to the task so far.
    In the face of this potential pandemic, the President has 
downplayed its threat, overstated how close scientists are to 
developing a vaccine, and muzzled experts in his own administration who 
disagree with him. As the crisis unfolds, the President has continued 
to hold political rallies, including a recent one where he called the 
coronavirus a ``hoax'' perpetrated by Democrats. Even for a President 
who has a casual relationship with the truth, this is not only an 
outrageous lie but also incredibly dangerous.
    The President must not shirk his responsibility. The country needs 
him to step up in a time of crisis, like Presidents of both parties 
have done throughout our Nation's history. That means acknowledging the 
threat; prioritizing the health and security of the American people 
above political considerations or the stock market; and allowing 
doctors, scientists, and other qualified experts to offer candid 
assessments of the situation and direct the Federal response.
    As for the Department of Homeland Security, I remain concerned 
about the lack of steady leadership and persistent vacancies, 
especially during this crucial time. Mr. Wolf is the fifth person to 
serve as Secretary during 3 years of Trump administration. It has been 
328 days since the Department of Homeland Security has had a Senate-
confirmed Secretary.
    It is not even certain that Mr. Wolf's appointment is valid. 
Moreover, a Federal court ruled in recent days that the Acting Deputy 
Secretary's appointment as USCIS director was unlawful, calling into 
question his position at the Department.
    Unfortunately, the President appears to prefer chaos to order and 
political expediency to good government. Make no mistake--the on-going 
vacancies and lack of steady leadership have consequences, especially 
at a time like this.
    For example, since 9/11, the Federal Government has invested 
heavily in developing doctrine to define roles and responsibilities for 
incident response. But no one in the administration seems to be 
familiar with them. As Americans face a potential coronavirus pandemic, 
the administration appears to be caught flatfooted, scrambling to 
figure out who is in charge.
    Meanwhile, the President's proposed budget prioritizes his 
draconian immigration campaign promises at the expense of our core 
homeland security activities and responsibilities, including agencies 
and programs that are integral to the coronavirus response.
    I remain committed to ensuring the Department receives the funding 
it needs to carry out its mission on behalf of the American people. 
Similarly, Members of both parties rejected the President's recent low-
ball coronavirus emergency supplemental request.
    Apparently the President is happy to spend an unlimited amount of 
U.S. taxpayer money on a useless border wall, but faced with the 
prospect of global pandemic he would have nickeled-and-dimed our 
response. This is unacceptable.
    Now is certainly not the time to leave Federal agencies engaged in 
the response short of resources. In the coming days, we will send to 
the President a bill providing the funding necessary to fight the 
coronavirus.
    Before I close, I want to address the challenges associated with 
the Department's refusal to cooperate with the committee's oversight 
efforts. Under the Trump administration, the Department has failed to 
provide the documents requested by this committee as part of its 
Constitutionally-mandated oversight efforts, even under subpoena.
    When the committee does receive documents, they are incomplete or 
heavily redacted so as to render them useless. The behavior of the 
Department gives the impression that it is seeking to evade oversight 
and has something to hide. I hope that is not true.
    If we can't trust the Trump administration to be transparent with 
regular Congressional oversight, how can we trust it to be honest with 
the American people in a time of crisis? It is past time for the 
President and his administration to be the leaders the American people 
need and deserve. They are counting on the administration to secure the 
Nation and on Congress to hold you accountable.
    Please know that we will uphold our responsibility, Mr. Acting 
Secretary, and I sincerely hope the President and his administration 
uphold theirs.

    Chairman Thompson. The Chair now recognizes the Ranking 
Member of the full committee, the gentleman from Alabama, Mr. 
Rogers, for an opening statement.
    Mr. Rogers. Thank you, Mr. Chairman, for holding this 
hearing today. Thank you, Mr. Acting Secretary, for being here. 
We look forward to hearing from you.
    This past year has been a challenging one for DHS. Last 
year this country saw a record number of migrants crossing our 
Southern Border, over a million men, women, and children 
swamped our immigration system in a matter of months. It 
strained the resources of the Department. But the men and women 
of DHS responded to the crisis with dedication and 
professionalism.
    Congress was slow to act, but we finally provided 
supplemental resources to address the crisis, and it was a 
crisis. Yet 1 year ago last week, my Democrat colleagues 
tweeted, ``There is no National emergency at the border, plain 
and simple.''
    Because of this administration's bold actions, we are no 
longer seeing the record-breaking levels of migration at our 
Southern Border so far this year. I am deeply disappointed 
that, for political reasons, folks can't and won't acknowledge 
this simple fact: President Trump's policies are succeeding, 
where other administrations have failed.
    The President's budget fully funds his successful border 
strategy, and rightly doubles down on the wall. However, the 
Department faces more challenges in the year ahead. Election 
security, cybersecurity, and the coronavirus response will test 
DHS's resources and management.
    I am concerned about cuts to CISA, slashing critical FEMA 
grant programs, and the termination of the CFATS program, and 
removal of the Secret Service from DHS. I know the Chairman and 
I agree on this. Those cuts directly impede important efforts 
to secure our country.
    While I disagree with parts of the 2021 budget request, I 
believe Congress also has failed DHS. We owe it to Department 
to provide direction in a regular, comprehensive 
reauthorization. We cannot expect the Department to function 
with haphazard direction and funding authorizations from 2002.
    I understand that the Majority intends to mark up a bill to 
reform part of DHS headquarters next month. Mr. Chairman, you 
and I have both called for a full, robust DHS authorization. I 
hope that is what this committee considers in April. We may 
have different approaches and proposals, but we want the same 
thing. We want this Department to function correctly. I look 
forward to discussing this legislation, Mr. Chairman.
    I also wanted to address the evolving coronavirus outbreak. 
Our hearts go out to those who have lost their loved ones, and 
those who are currently undergoing treatment. This pandemic is 
a global event, and I am concerned not only with our 
preparedness, but the global response.
    I remain concerned that the Chinese officials knowingly 
withheld essential information from both public and 
international health communities in the most critical stages of 
this outbreak. I am sure that the early days of this outbreak 
will be under intense scrutiny once the crisis is over.
    My deepest concern for the moment is the level of 
preparedness at the State and local level. I hope to hear from 
the Secretary today, and from witnesses over the next week, 
about our efforts to prepare communities.
    Last week I urged the House to act in a swift and 
nonpartisan fashion to approve an emergency supplemental for 
this public health emergency. Hopefully, the House can live up 
to this moment and act quickly.
    Thank you again, Mr. Secretary, for joining us.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
                              Mar. 3, 2020
    Thank you, Mr. Chairman, for holding this hearing today. Thank you, 
Mr. Acting Secretary for being here today with us. We look forward to 
hearing for you
    The past year has been a challenging one for DHS. Last year, this 
country saw record migrants crossing our Southern Border.
    Over a million men, women, and children swamped our immigration 
system in a matter of months.
    It strained the resources of the Department. But, the men and women 
of DHS responded to this crisis with dedication and professionalism.
    Congress was slow to act but we finally provided supplemental 
resources to address the crisis. It was a crisis.
    Yet, 1 year ago last week, my Democrat colleagues tweeted: 
``There's no national emergency at the border, plain and simple.''
    Because of this administration`s bold actions, we are no longer 
seeing the record-breaking levels of migration at our Southern Border 
so far this year.
    I'm deeply disappointed that, for political reasons, folks can't 
and won't acknowledge this simple fact: President Trump's policies are 
succeeding where other administrations have failed.
    The President's budget fully funds his successful border strategy 
and rightly doubles down on the wall.
    However, the Department faces more challenges in the year ahead.
    Election security, cybersecurity, and the coronavirus response will 
test DHS resources and management.
    I'm concerned about cuts to CISA, slashing critical FEMA grant 
programs, the termination of the CFATS program, and removal of the 
Secret Service from DHS.
    I know the Chairman and I agree on these points. Those cuts 
directly impede important efforts to secure our country.
    While I disagree with parts of the 2021 budget request, I believe 
that Congress has also failed DHS.
    We owe it to this Department to provide direction in a regular, 
comprehensive reauthorization.
    We cannot expect the Department to function with haphazard 
direction and funding authorizations from 2002.
    I understand that the Majority intendeds to mark-up a bill to 
reform part of DHS headquarters next month.
    Mr. Chairman, you and I have both called for a full and robust DHS 
authorization. I hope that is what this committee considers in April.
    We may have different approaches and proposals, but we want the 
same thing. We want this Department to function.
    I look forward to discussing this legislation with you Mr. 
Chairman. I also wanted to address the evolving coronavirus outbreak.
    Our hearts go out to those who have lost their loved ones and those 
who are currently undergoing treatment. This pandemic is a global event 
and I'm concerned not only with our preparedness but the global 
response.
    I remain concerned that Chinese officials knowingly withheld 
essential information from both the public and the international health 
community in the most critical stages of this outbreak.
    I'm sure that the early days of this outbreak will be under intense 
scrutiny once the crisis is over. My deepest concern for the moment is 
the level of preparedness at the State and local level.
    I hope to hear from the Secretary today and from other witnesses 
over the next week about our efforts to prepare communities.
    Last week, I urged the House to act in a swift and non-partisan 
fashion to approve an emergency supplemental for this public health 
emergency.
    Hopefully the House can live up to this moment and act quickly. 
Thank you again Mr. Secretary for joining us.

    Mr. Rogers. I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much. Other Members of 
the committee are reminded that, under the committee rules, 
opening statements may be submitted for the record.
    I want to welcome our witness, Acting Secretary of Homeland 
Security Chad Wolf. Mr. Wolf has been acting secretary since 
November 2019. He is the confirmed under secretary of the 
department of--Office of Strategy, Policy, and Plans. 
Previously, he served as the acting under secretary and chief 
of staff to Secretary of Homeland Security Kirstjen Nielsen.
    Without objection, the witness's full statement will be 
inserted in the record.
    I now recognize Acting Secretary Wolf to summarize his 
statement.

 STATEMENT OF HONORABLE CHAD WOLF, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Wolf. Thank you, Chairman and Members of the committee.
    Before I share with you my oral testimony, I wanted to 
address an issue this morning and share some additional 
information regarding the evolving situation in Washington 
State.
    Late last night, the Department was made aware of a 
situation involving a DHS employee. Out of an abundance of 
caution, and following recommended procedure, I ordered a DHS 
facility in King County, Washington State, to close beginning 
today, and directed those employees to telework, if possible, 
in order to reduce the threat of community spread of the 
coronavirus. At this time, the affected offices will remain 
closed for 14 days, and all employees have been directed to 
self-quarantine for 14 days.
    We made this decision to close the offices because an 
employee had visited a family member at the Life Care facility 
in Kirkland, Washington, before it was known that that facility 
was impacted by the coronavirus outbreak. Though the employee 
did not report to work when they felt ill, we are taking these 
steps, again, out of an abundance of caution.
    I am pleased to report that this employee embodied what it 
means to lead by example. The employee and their family took 
every precaution, and followed the guidance of public health 
officials. They stayed home from work when they felt ill, and 
the family self-quarantined and reported the exposure and their 
condition to their employers and other officials.
    As this unfolds, I know many at the Department of Homeland 
Security--myself included--will be thinking about and praying 
for our employees, their families, and all Americans affected 
by the coronavirus. Again, I think I speak for everyone when I 
thank the employee and their family for taking the advice and 
direction of health care professionals.
    As an employer, it is our utmost responsibility to protect 
our work force. In addition to the travel restrictions and 
enhanced medical screens that we put in place, which I will 
talk about a little bit later, DHS continually engages our work 
force with guidance on protective and preventative measures.
    Again, from the headquarters level, we will begin--we began 
sending all employee messages on January 22 regarding 
coronavirus, regarding procedures they need to take as this 
continues to unfold. We will continue to do so.
    At this time a rapid response team back at DHS headquarters 
is working with the CDC and State and local officials on 
further guidance regarding this particular incident, and I will 
be sure to keep the committee updated as this unfolds.
    So thank you for allowing me to do that. Let me jump into 
my prepared oral testimony.
    Chairman Thompson, Ranking Member Rogers, and distinguished 
Members of the committee, it is certainly a privilege to appear 
before you today to discuss the Department of Homeland 
Security's mission to keep the Nation safe, and to present the 
President's fiscal year 2021 budget for the Department.
    As Acting Secretary, my priorities are guided by 
determination to assure that the Department is robust, 
resilient, and forward-leaning, prepared to address today's 
threats, as well as those of tomorrow.
    The fiscal year 2021 President's budget is not only a 
reflection of those priorities, but a path to achieving them. 
As this subcommittee knows, the Department of Homeland 
Security's missions span air, land, sea, and cyber domains, and 
our work force, 240,000 strong, stands watch for the Nation 24 
hours a day, 365 days a year. They serve a unique dual 
imperative: Keeping our Nation safe and secure, while keeping 
it prosperous, and by facilitating lawful trade and travel. As 
I often say, economic security is homeland security, and the 
Department plays a critical role in this mission.
    The President's budget ensures that our work force has the 
resources needed to execute these critical responsibilities. It 
includes $49.8 billion in net discretionary funding, and $5.1 
billion for the disaster relief fund.
    Consistent with years past, our budget priorities remain 
securing our borders, enforcing our immigration laws, securing 
cyber space and critical infrastructure, transportation 
security, and American preparedness.
    Recognizing that threats to the homeland are more dynamic 
than ever before, the budget positions us to respond to 
emerging threats, including those emanating from nation-states.
    The Department also continues to help manage the U.S. 
Government's response to the coronavirus. To be clear, the lead 
Federal agency of this response is and remains the Department 
of Health and Human Services. DHS remains focused on assisting 
travelers arriving at our land--at our air, land, and maritime 
ports of entry. The administration took early action to 
prohibit foreign nationals with travel to China from entering 
the United States. That--those same restrictions now apply to 
foreign nationals traveling from Iran.
    Every day the men and women of DHS are making sure that 
these travel restrictions are properly enforced. They are also 
ensuring all American citizens with recent travel to China or 
Iran are funneled through 11 airports, where the Department has 
stood up and continues to do enhanced medical screening on 
behalf of the CDC and others.
    The Department is also closely monitoring cases of the 
virus that have appeared here in our hemisphere. On Friday, the 
first--last Friday the first case of coronavirus was confirmed 
in Mexico, with 5 additional cases reported since. That same 
day, unfortunately, a misguided court in California suspended 
the migrant protection protocols. Hours later, private 
attorneys and NGO's demanded entrance of over 2,000 illegal 
aliens, causing CBP and Mexican officials to temporarily close 
a handful of ports of entry for several hours.
    Thankfully, the court entered a temporary stay. But I will 
say that MPP has an uncertain future. We know from experience 
that the journey to the U.S. border puts migrants in very poor 
conditions, and they often arrive with no passports, no medical 
histories, and no travel manifest. This administration will 
continue to closely monitor the virus globally, as well as in 
our hemisphere, and we will adjust our proactive measures as 
necessary.
    Let me highlight a few specific priorities also included in 
the budget.
    The Department must continue to grow our digital--defense 
cyber threats grow in scope and severity. Election security 
remains a top priority to preserve our electoral process, and 
to secure our systems against interference. The President's 
budget invests $1.7 billion in the Cybersecurity and 
Infrastructure Security Agency to strengthen our cyber and 
infrastructure security mission.
    Security of our Nation's border also remains a primary 
focus for the Department. Most notably, the budget includes $2 
billion for the construction of approximately 82 miles of new 
border wall system, as well as funding for advanced technology 
and staffing. While securing our borders is vital, the 
integrity of our immigration system requires that we enforce 
the law, as written. It remains the priority of the Department 
to protect our citizens by identifying, detaining, and removing 
criminal aliens from our country. The budget includes over $3 
billion to ensure that our law enforcement officers have the 
resources they need to faithfully execute the law.
    As true today as it was in the wake of 9/11, 
counterterrorism is our Department's core mission. Importantly, 
the President has increased funding for targeted violence and 
terrorism prevention programs by 500 percent, for a total of 
$96 million in the fiscal year 2021 budget. This funding is 
critical to identifying at-risk individuals and preventing 
their radicalization to violence.
    The budget also invests in modernizing the fleet for the 
United States Coast Guard. It provides $555 million to fund the 
construction of the second polar security cutter, which 
supports our National interest in the polar region.
    While physical capabilities and technologies are important, 
the Department's greatest asset remains our work force. In the 
budget--the President's budget provides funding for 500 new 
cybersecurity employees across the Department--at CBP, 750 new 
Border Patrol agents and 126 new support staff, as well as 
funding to sustain the 300 Border Patrol processing 
coordinators that Congress provided in fiscal year 2020. At ICE 
the budget calls for 2,800 new law enforcement officers, 
approximately 420 new ICE attorneys, and nearly 1,400 support 
staff. At TSA the funding sustains over 47,000 transportation 
security officers, ensuring that we continue to match pace with 
the passenger volume growth.
    These priorities are only a few included in the budget. I 
would say that DHS, as the committee knows, has one of the most 
diverse and complex mission sets in all of Government. I am 
constantly amazed by the dedication of our professionals. 
Therefore, I ask your support in providing them the resources 
they need to keep this--Homeland Security--the President's 
fiscal year 2021 budget request.
    Again, I thank you for the opportunity to address you 
today.
    [The prepared statement of Hon. Wolf follows:]
               Prepared Statement of Honorable Chad Wolf
                             March 3, 2020
    Chairman Thompson, Ranking Member Rogers, and distinguished Members 
of the committee: It is a privilege to appear before you today to 
discuss the Department of Homeland Security's (DHS) critical mission 
functions that keep this Nation safe and to present the President's 
fiscal year 2021 budget for the Department. This budget will serve as a 
catalyst to assist DHS in maintaining pace with adversaries attempting 
to circumvent our laws and threaten our citizens and our way life.
    My priorities are guided by a determination to ensure the 
Department is 3 things: Robust, resilient, and forward-leaning. The 
fiscal year 2021 President's budget is not only a reflection of those 
priorities but a path to achieving them.
    DHS is comprised of 8 major components and many support components 
and employs more than 240,000 men and women who stand ready to respond 
to a wide variety of threats in some of the most extreme and austere 
environments. These harsh conditions include Border Patrol agents 
patrolling the U.S. border in southern Arizona where temperatures reach 
upwards of 120 degrees, to the crew of the United States Coast Guard 
Cutter POLAR STAR, breaking ice as thick as 21 feet in the Antarctic 
Region where temperatures fluctuate between 40 to 90 degrees to conduct 
National security missions.
    These men and women continue to make significant contributions to 
the larger homeland security apparatus as they stand watch 24 hours a 
day, 7 days a week, 365 days a year, (or 366 days this year given it is 
a leap year). Our mission is to protect Americans and the homeland from 
threats by land, air, sea, and cyber space while promoting the Nation's 
economic prosperity through the facilitation of legitimate travel and 
commerce. This balance to ensure security without impeding the freedom 
of movement is a very delicate one and the men and women of the 
Department of Homeland Security continue to execute it with tenacity 
and compassion.
    The Department's key budget priorities remain consistent with 
recent years; Securing Our Borders, Enforcing Our Immigration Laws, 
Securing Cyber Space and Critical Infrastructure, Transportation 
Security and American Preparedness. However, there are emerging threats 
that underscore the importance of the Department's global reach. This 
budget recognizes that fact and positions the Department to respond.
    Though the United States has long faced isolated threats from 
China, Iran, and Russia, we are at a critical time in our Nation's 
history as it relates to threats emanating from these nation-states. 
While the administration works trade negotiations with China toward the 
goal of achieving a fair and balanced trade deal that both countries 
can call successful, we must increase pressure on the Chinese 
government for the on-going violations of Intellectual Property Rights 
(IPR) laws. These violations continue to reduce market opportunities 
and undermine the profitability of United States businesses as sales of 
products and technologies are undercut by competition from illegal 
lower-cost imitations. Additionally, there are increasing concerns with 
the Chinese government's continued investment into U.S. interests and 
their impact to National and economic security. Specifically, as the 
United States builds out capacity within the 5G network, we must 
maintain a proactive posture in addressing a multitude of cybersecurity 
threats and vulnerabilities.
    The increased tension with Iran forced the Department to assume an 
enhanced security posture, particularly in the cybersecurity domain to 
prevent threats aimed at revenge for the recent death of Iranian 
General Qasem Soleimani. The Department's Cybersecurity and 
Infrastructure Security Agency (CISA) continues to monitor an uptick in 
malicious activity by pro-Iranian hackers and social media users as 
Iran possesses the capability and tendency to launch destructive cyber 
attacks. The 2016 election is a stark reminder that Russia remains a 
significant threat to our democratic process. And with a Presidential 
Election this November, it has never been more important to increase 
our digital defense to prevent cybersecurity threats from influencing 
electoral outcomes.
    To emphasize the variation in threats facing the Department, the 
Coronavirus (COVID-19) which originated in Wuhan, Hubei Province, 
China, continues to spread to other parts of the world at a pace that 
has the Center for Disease Control and Prevention (CDC) and DHS at the 
ready. On January 31, 2020, the Secretary of Health and Human Services 
declared COVID-19 a public health emergency in the United States, and 
the President signed a Presidential Proclamation (Proclamation 9984) 
using his authority pursuant to Section 212(f) of the Immigration and 
Nationality Act to suspend the entry into the United States of foreign 
nationals who pose a risk of transmitting COVID-19. As of 5 p.m. 
Eastern Standard Time on February 2, 2020, foreign nationals, other 
than immediate family members of U.S. citizens and legal permanent 
residents and other individuals falling within narrow exceptions to the 
Proclamation, who were physically present in the People's Republic of 
China, excluding Hong Kong and Macau, within the last 14 days will be 
denied entry into the United States. On February 29, 2020, President 
Trump expanded Proclamation 9984 to also include most foreign nationals 
who have been to Iran within the last 14 days.
    DHS, including U.S. Customs and Border Protection (CBP) and the 
Transportation Security Administration (TSA), continues to work very 
closely with our CDC partners to route all admissible persons who have 
been in mainland China or Iran in the last 14 days to one of 11 
designated ports of entry where the Federal Government has focused 
public health resources. As the DHS lead for coordinating with 
interagency partners, the Countering Weapons of Mass Destruction Office 
(CWMD) is currently supporting these enhanced health screenings through 
contracts with local EMS, public health, and/or first responders. Based 
on current information, the risk from COVID-19 to the American public 
remains low and we are taking measures to keep the threat low and 
prevent the virus from spreading. Sadly, 6 deaths in the United States 
from COVID-19 were reported over the past several days. As we have said 
from the beginning, we expect to see additional cases in the United 
States and as such DHS is responding with proactive safeguards and is 
prepared to increase these measures should it become necessary.
    The fiscal year 2021 President's budget for DHS includes $49.8 
billion in net discretionary funding and an additional $5.1 billion for 
the disaster relief fund (DRF) to support response to and recovery from 
major disasters in the homeland. By providing the men and women of DHS 
the necessary resources to execute their important and extremely 
complex missions, the President's budget ensures we continue our 
current trajectory of reinforcing the security of our Nation through 
enhanced border security, immigration enforcement, transportation 
security, resilience to disasters, and cybersecurity.
    To help frame the rising threat, I would like to highlight some of 
last year's operational achievements. U.S. Customs and Border 
Protection (CBP) processed and cared for an unprecedented number of 
migrant families and children. Encounters and apprehensions totaled 
more than 851,000 along the U.S. Southwest Border (SWB) alone. This 
total included more than 76,000 unaccompanied children and 
approximately 474,000 family units. This was a 110 percent increase 
over fiscal year 2019 apprehension totals (404,142). They inspected 
over 410 million travelers, arrested almost 13,000 wanted individuals 
and prevented nearly 299,000 inadmissible travelers from entering the 
United States. Additionally, their combined efforts with CBP's National 
Targeting Center (NTC), the Immigration Advisory Program and the 
Regional Carrier Liaison Group prevented the boarding of almost 19,000 
high-risk travelers from boarding flights inbound to the United States. 
AMO executed nearly 93,000 flight hours and more than 33,000 float 
hours in balancing law enforcement and humanitarian operations. This 
effort included 300 flight hours during a 2-week period to provide 
relief to Bahamian citizens in the aftermath of Hurricane Dorian and 
3,600 flight hours dedicated to the migrant caravan surge along the 
SWB.
    The Cybersecurity and Infrastructure Security Agency (CISA) worked 
tirelessly alongside Federal, State, and local election officials 
leading up to the 2018 mid-term elections and in preparation for the 
upcoming 2020 Presidential Election. Over 500 CISA employees supported 
election security preparedness Nation-wide, including providing 
technical cybersecurity assistance, information sharing and expertise 
to election offices, campaigns and technology vendors, this included 
staffing a Nation-wide virtual watch floor. As part of Active Shooter 
Preparedness, CISA also provided information to the critical 
infrastructure community and general public to help prepare emergency 
action plans and education on steps to increase incident survivability. 
Specifically, 39 in-person workshops with over 3,600 participants were 
conducted; nearly 87,000 people successfully completed an on-line 
course and a website focusing on active-shooter training was viewed 
more than 937,000 times by the public.
    United States Citizenship and Immigration Services (USCIS) 
naturalized 833,000 new citizens, an 11-year high in new oaths of 
citizenship. The number of refugee applicants interviewed nearly 
doubled from fiscal year 2018 to 44,300 (from 26,000). These interviews 
supported the admission of 33,000 refugees to the United States which 
was a 32 percent increase over last year. USCIS also completed 78,580 
affirmative asylum applications, and experienced a 6 percent rise in 
credible fear cases processed to 103,235.
    The Federal Emergency Management Agency (FEMA) deployed over 12,300 
FEMA personnel and 519 FEMA Corps personnel in support of 99 major 
disaster declarations including Hurricane Dorian, 22 emergency 
declarations and one Fire Management Assistance Grant declaration 
across 45 States, Tribes, and territories.
    United States Immigration and Customs Enforcement (ICE) removed 
nearly 268,000 individuals from the United States and arrested over 
143,000 individuals. Homeland Security Investigations made nearly 
50,000 arrests, approximately 80 percent of which were criminal 
arrests, including over 4,300 gang leaders, members, and associates. 
These gang arrests included 452 Mara Salvatrucha (MS-13) gang members.
    The Transportation Security Administration (TSA) screened 
approximately 839 million passengers, 1.9 billion carry-on items and 
510 million checked bags in fiscal year 2019. This was a 4.3 percent 
increase in checkpoint volume which equates to an average increase of 
over 95,000 passengers per day. They enrolled over 2.1 million new 
individuals in TSA's PreCheck Application Program which is designed to 
increase security throughput by expediting trusted travelers and 
reducing security screening times.
    The United States Coast Guard (USCG), through their search-and-
rescue efforts, saved 4,335 lives and prevented over $41 million in 
property loss. Over 400 of those lives saved were during Hurricane 
Dorian response efforts. Simultaneously, while executing their law 
enforcement responsibility, they removed over 458,000 pounds of cocaine 
and 63,000 pounds of marijuana with estimated wholesale value of $6.2 
billion.
    The Countering Weapons of Mass Destruction (CWMD) Office completed 
155 surge deployments of the Mobile Detection Deployment (MDD) Program, 
enhancing interdiction efforts and expanding law enforcement partners' 
ability to protect the Nation from a Weapon of Mass Destruction threat. 
This was an increase of over 115 percent from fiscal year 2018 (72 
deployments). Additionally, CWMD conducted more than 100 training 
exercises, training events, and informational briefings with partners 
and stakeholders to develop doctrine, create training curriculum, and 
validate readiness.
    The United States Secret Service conducted protective advances for 
nearly 6,500 visits and traveled overseas with protection details on 
395 foreign visits. The Secret Service seized $369 million in 
counterfeit U.S. currency, an 81 percent increase over the previous 
year. Finally, the Secret Service closed 1,718 Cyber Financial Crime 
cases, an increase of 160 percent over fiscal year 2018 and experienced 
an 18 percent rise in Cyber Financial Crime cases opened, while the 
Cyber Financial Potential Losses Prevented increased by 36 percent 
($5.2 billion to $7.1 billion) during the same year.
    Last year's operational achievements serve as a baseline from which 
to determine the incremental growth of threats to the homeland in the 
coming years. Analyzing the previous year's statistical achievements 
also allows DHS to plan for future threats accordingly. The fiscal year 
2021 President's budget for DHS is an opportunity for Congress to 
provide the men and women charged with executing complex missions with 
the necessary prevention, response, and recovery resources.
    The security of our Nation's borders remains a primary focus area 
for the administration and this Department. Border security is National 
security as any nation's sovereignty begins with its ability to secure 
its physical borders. Securing the border is extremely complex and 
requires a multifaceted approach. The Department has long executed a 
defense-in-depth model when it comes to border security. There are 
5,000 miles of border between the United States and Canada and over 
1,900 miles shared with Mexico. The President's budget is a step toward 
enhancing border security through investments in staffing, 
infrastructure, and technology. Without a strategy that involves these 
key investments, border security would be unattainable.
    The President's budget includes $2.0 billion for the construction 
of approximately 82 miles of new border wall system. This funding 
supports real estate and environmental planning, land acquisition, wall 
system design, construction, and oversight. While a physical barrier 
alone does not solve all border security concerns, it remains 
foundational to a strategy for achieving operational control of the 
SWB. A physical barrier is a proven deterrent as well as a mechanism 
for channeling activity to predetermined points along the border which 
allows DHS to allocate response resources with much more precision.
    Domain awareness is a vital component to border security and 
complements a physical barrier by providing increased opportunities for 
actionable intelligence, especially in remote areas with little 
infrastructure. To complement the physical barrier, the budget includes 
$28 million to increase domain awareness through the deployment of 30 
Autonomous Surveillance Towers (formerly Innovative Towers) across the 
Southwest Border. The towers are designed to provide persistent 
electronic surveillance in remote areas of the border without the need 
for a permanent Border Patrol agent presence. The data derived from 
these sensors will be relayed in real-time to the Air and Marine 
Operations Center and local Border Patrol Stations and/or Sectors for 
processing, threat determination, and response execution.
    The President's budget seeks funding for a number of CBP's airframe 
and sensor modifications, conversions, and/or upgrades. These platform 
improvements are multi-purposed as they provide increased levels of 
domain awareness and are instrumental in interdiction and humanitarian 
operations. They include $15.5 million to convert an Army HH-60L to 
CBP's versatile UH-60 Medium-Lift Helicopter configuration. UH-60's are 
the only assets in CBP's fleet that have medium-lift capability and are 
rugged enough to support interdiction and life-saving operations in 
extreme or hostile environments (desert, extreme cold, or open water). 
The budget includes $14.3 million to upgrade a DHC-8 Maritime Patrol 
Aircraft. These aircraft operate under broad operational spectrums, 
including coastal/maritime boundaries in the Caribbean and Latin 
America. The budget also requests $13.0 million for the replacement of 
obsolete, out-of-production aircraft sensor integrated mission systems. 
Systems requiring replacement include non-High Definition (HD) Electro 
Optic/Infrared (EO/IR) sensors, outdated mapping systems, video 
displays, recorders, and data links that facilitate real-time data 
exploitation.
    While technology plays an important role in the Department's day-
to-day missions, our most critical resource remains our personnel. As 
the Department remains focused on threats from those attempting to 
circumvent existing laws, we cannot lose sight of the year-over-year 
increase in the volume of legitimate trade and travel. This volume 
increase, can limit the time CBP has to conduct necessary threat 
analysis down to minutes or seconds without impacting the legitimate 
movement of people and goods.
    The President's budget seeks funding for additional personnel 
within several Departmental components including; $161 million for 750 
Border Patrol agents and 126 support personnel, with an additional $54 
million to sustain 250 agents hired in fiscal year 2019 and fiscal year 
2020; $544 million for ICE to add an additional 2,844 law enforcement 
officers and 1,792 support personnel; and, $3.5 billion to fund 47,596 
Transportation Security Officers, which supports the projected 4 
percent increase in volume. The fiscal year 2021 budget also accounts 
for a 3 percent pay increase for the uniformed men and women of the 
Coast Guard, a 1 percent civilian pay increase, and an additional 1 
percent increase in award spending, along with annualizing the 3.1 
percent civilian pay raise in 2020.
    The majority of these personnel increases are targeted for front-
line agents and officers. However, across the Department there will be 
staffing increases in various support positions. U.S. Border Patrol, 
for example, will use Processing Coordinators to perform non-border 
security, non-law enforcement officer activities such as support 
activities related to processing or providing humanitarian support. 
This additional increase will allow front-line agents and officers 
currently assigned to perform administrative duties out of necessity, 
to focus more time on operational responsibilities.
    DHS is committed to enforcing immigration laws across the Nation, 
including the interior of the United States. Our priority is to 
identify, detain, and remove criminals from the United States that are 
here illegally with particular attention focused on those individuals 
posing a threat to public safety. The Department does not intend on 
stopping there; those employers who knowingly break the law for the 
self-serving purpose of cheap labor will be identified and brought to 
justice.
    Fiscal year 2019 apprehensions between the ports of entry along the 
Southwest Border increased 115 percent when compared to fiscal year 
2018. This unprecedented spike in illegal crossings drove a 
corresponding increase in the ICE average daily population (ADP). The 
resulting effect was an increase in historical occupancy levels within 
DHS detention facilities. Forecasting models reinforce the need for an 
increase in ICE's detention beds to 60,000 (55,000 adult and 5,000 
family). The budget includes $3.1 billion for this capacity increase 
and ensures ICE is able to maintain pace with projected migration flows 
and enhance enforcement activity within the interior of the United 
States.
    We must continue to increase our digital defense as cybersecurity 
threats grow in scope and severity. The fiscal year 2021 President's 
budget is poised to continue investments in the Cybersecurity and 
Infrastructure Security Agency (CISA) to assess evolving cybersecurity 
risks and protect Federal Government information systems and critical 
infrastructure. CISA continues to work tirelessly to ensure cyber 
attacks are unable to compromise or disrupt Federal networks. With the 
November Presidential Election fast approaching, CISA is also working 
with State and local organizations in all 50 States to ensure American 
elections are decided by Americans without outside interference. 
Accordingly, the President's budget seeks $1.1 billion in CISA 
cybersecurity operational costs and investments for programs to include 
the Continuous Diagnostics and Mitigation (CDM) program and the 
National Cybersecurity Protection System in order to strengthen the 
security posture for government networks and systems. The budget also 
includes $157.6 million for the Emergency Communications program which 
enables improved public safety communications services throughout the 
Nation. This program also manages funding, sustainment, and grant 
programs to support communications interoperability and builds capacity 
with Federal, State, local, Tribal, and territorial stakeholders.
    The Coast Guard is a unique component given it is the only branch 
of the U.S. Armed Forces within DHS. As a military service and a law 
enforcement organization with a regulatory responsibility, they possess 
broad jurisdictional authorities and flexible operational capabilities. 
This combination necessitates an inherent need to ensure they are 
postured for rapid response to a variety of missions with a modernized 
fleet that supports these requirements.
    The President's budget includes $555 million to support the Polar 
Security Cutter (PSC) program management and to fund the construction 
of PSC 2. This acquisition recapitalizes the Coast Guard's heavy polar 
icebreaker fleet to support national interest in the Polar Regions and 
provide assured surface presence in ice-impacted waters. The budget 
also includes an additional $153 million for existing airframe 
modernization (combines $88 million for Fixed-Wing Aircraft and $65 
million for Rotary-Wing Aircraft). These improvements will help ensure 
the Coast Guard fleet is appropriately equipped for the complex 
missions they are charged with executing. This modernization effort 
aligns the Coast Guard's recapitalization of airframes with the 
Department of Defense Future Vertical Lift acquisitions to create 
additional acquisition efficiencies. Finally, $564 million is included 
for the Offshore Patrol Cutter (OPC). This funding supports the 
production of OPC No. 3 and Long Lead Time Materials for OPC No. 4 
along with technical and program management costs.
    The fiscal year 2021 President's budget includes $96 million in 
additional resources, distributed across several components to fund the 
Targeting Violence and Terrorism Prevention (TVTP) program. This 
program is designed to support early detection and prevention of 
radicalization of individuals prone to violence by interrupting those 
efforts with appropriate action by leveraging civic organizations, law 
enforcement and community organizations. The Department's investment 
includes components vested in research and development, early 
detection, and response.
    What makes the United States great is its resiliency in the face of 
adversity and hardship. Throughout our storied history, there are 
dozens if not hundreds of examples of that resiliency displayed. And 
though the people of this country are resilient by nature, it is 
important that we as a Department appropriately plan ahead for things 
we know are coming including hurricanes, earthquakes, and fires. One of 
FEMA's strategic goals is to Ready the Nation for Catastrophic 
Disasters. The fiscal year 2021 President's budget helps FEMA achieve 
this goal by funding numerous initiatives aimed at preparedness and 
disaster recovery. FEMA continues to invest in State and local 
governments to increase preparedness and resiliency. The budget 
includes $2.5 billion to support State, local, Tribal, and territorial 
governments in the form of non-disaster grants and training. These 
funds are key in sustaining and building new capabilities to prevent, 
protect against, respond to, recover from, and mitigate high-
consequence disasters and emergencies in our Nation's high-risk transit 
systems, ports, and along our borders.
    In addition, the Nation's transportation systems are inherently 
open environments. Part of TSA's mission is to protect these systems to 
ensure the free and secure movement of people and commerce. U.S. 
transportation systems accommodate approximately 965 million domestic 
and international aviation passengers annually, that number is in the 
billions when you factor in, over-the-road buses and mass transit 
systems.
    Ensuring effective screening of air passengers remains a top 
priority for TSA. In an effort to balance the need for increased 
security without impeding freedom of movement for legitimate travelers, 
the President's budget includes $28.9 million to expand TSA's Computed 
Tomography (CT) Screening capability. CT Screening is the most 
impactful property screening tool available today. Not only is it more 
effective against non-conventional concealment methods but it 
eliminates the need for passenger to remove electronic items from 
carry-on bags. This combination improves security and expedites the 
screening process to increase passenger throughput efficiency. To 
offset TSA operations, a $1.00 increase is proposed in the Aviation 
Passenger Security Fee. This minimal increase would generate 
approximately $618 million in additional revenue and help defray the 
increasing cost of aviation security.
    Finally, the fiscal year 2021 President's budget proposes to 
transfer the U.S. Secret Service (USSS) functions, personnel, assets, 
and obligations along with the functions and responsibilities of the 
Secretary of Homeland Security related to the Secret Service over to 
the Department of the Treasury.
    I have only touched on a handful of priorities included in the 
fiscal year 2021 President's budget for DHS. This is not intended to 
convey a message of less importance for those components, resources, or 
initiatives not highlighted. DHS executes its vast mission 
responsibility using a defense-in-depth strategy and much of DHS's 
success is predicated on this approach to execution. Components within 
the Department have individual mission responsibilities however, they 
cannot disassociate themselves from one another as their daily 
activities are intertwined to close gaps in security, resiliency, and 
economic prosperity. Accordingly, those components, resources, or 
initiatives not listed remain just as important.
    I continue to be amazed by the professionalism, dedication, and 
tenacity displayed daily by the men and women of this Department. Their 
resolve and genuine commitment to the complex homeland security mission 
is above reproach and we should all sleep better at night knowing they 
are on duty. Despite their continued commitment, they cannot safely nor 
effectively execute their mission without the proper resources. 
Therefore, I ask for your support in providing them the resources 
needed to keep our families safe through the fiscal year 2021 
President's budget.
    Thank you for the opportunity to appear before you and discuss the 
Department's fiscal year 2021 budget submission and I look forward to 
taking your questions.

    Chairman Thompson. I thank the Acting Secretary for his 
testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel. I will now recognize myself for 
questions.
    One of the responsibilities, Mr. Secretary, we have is the 
oversight of the Department. For the 14 months the committee 
has been trying to get information from the Department about 
the death of 2 children in CBP custody, as well as the 
separation of children from their parents, among other topics.
    On January 4, 2019 I sent a letter to the Department 
requesting, ``any document related to the care of children in 
CBP custody,'' including documents relating to the death of 
Jakelin Caal Maquin and Felipe Gomez. The Department produced 
some documents, including lots of publicly-available documents, 
but clearly did not comply with the request. On November 20 the 
committee issued a narrowly-tailored subpoena by voice vote for 
documents relating to the kids who died, and the kids who were 
separated from their parents, among other topics.
    Last week, more than a year after the first requests, the 
Department produced Felipe's medical records. Clearly, Felipe's 
medical records were responsive to my first letter, as well as 
the committee's subpoena. Why were there--why were Felipe's 
medical records produced to the committee just last week, 1 
year after the request?
    Mr. Wolf. So thank you, Chairman. I would say that I fully 
respect Congress's role in oversight. I think we talked about 
this when we first met in November, and you have my commitment, 
you continue to have my commitment in providing the committee 
any and all documents.
    I will say, regarding those 2 children, obviously, our 
inspector general has had an open investigation, which has 
concluded recently, regarding those deaths, as well as others. 
So we wanted to make sure that that independent investigation 
had all the information that they have.
    I will say that we have responded a number of times, not 
only to the original January request, but also, as you 
mentioned, the subpoena. So we have produced over 11 document 
productions, thousands of pages. I believe it is over 6,000. 
Specifically, I think we have addressed 3 out of the 4 major 
concerns of the subpoena. We are working on the fourth issue, 
which is an additional production.
    As we continue, we will continue to produce that, continue 
to provide the committee documents. I believe we have also 
provided in-camera review of over 70 hours of tape, which the 
committee requested, and continue to make ourselves available 
to provide that information.
    Chairman Thompson. Well, I thank you. But the point is, 
after a year, when we get them, I want to put on the screen 2 
pages of information that we got.*
---------------------------------------------------------------------------
    * Information has been retained in committee files.
---------------------------------------------------------------------------
    Chairman Thompson. I think, just from the redaction, that 
is--there is--of no use to us, even when we get it. Can you 
explain why those 2 pages are redacted like that?
    Mr. Wolf. Well, I don't have the--I don't know the exact 2 
pages that you are referring to, although I see them on the 
screen.
    I will say that, obviously, we go through a review process 
of all the information that we turn over, because there are 
certain Executive branch's interests that not only this 
administration, but previous administrations adhere to, so we 
do redact certain information.
    But again, we provide any and all information to the 
Congress that we can. Again, we will continue to do that, 
continue to provide the video, which I know the committee is 
very interested in, as well. We have done that, and we will 
continue to provide that.
    Chairman Thompson. So who would know what privilege is 
being claimed with redactions like this?
    Mr. Wolf. I am sorry, what was the question?
    Chairman Thompson. Yes, you provided us these redacted 
documents. Who is responsible----
    Mr. Wolf. So that goes through a lengthy review process at 
the Department--obviously, through our general counsel's 
office, but there are several other offices within the 
Department that looks at it. Depending on the subject matter--
again, I am not sure what that document is. If it comes from 
CBP, obviously, CBP attorneys----
    Chairman Thompson. That is just a sample. But I think my 
point is we need to know what privilege is being claimed when 
we ask for the documents. They are just redacted, so we don't 
know.
    Mr. Wolf. OK, I am happy to--we can take that back, and 
share that information.
    Chairman Thompson. So you don't know what person is 
responsible for the final push-out on this?
    Mr. Wolf. That would be responsible--again, it probably--it 
would go through our OGC, our Office of General Counsel. So our 
acting general counsel would be the individual ultimately 
responsible. Obviously, they coordinate with the administration 
on Executive branch interests there. So it is a coordinated 
effort. But, yes, our general counsel at the Department would 
ultimately approve those redactions.
    Chairman Thompson. Thank you. We will follow up with it.
    We will probably have a second round of questions. I want 
to talk to you a little bit about the committee's interests in 
this potential pandemic we are addressing. You addressed some 
of it in your opening statement. But in order for us to do our 
job, we will have to have access to certain information. So are 
you prepared to provide the committee that information that is 
in your jurisdiction?
    Mr. Wolf. Yes.
    Chairman Thompson. Thank you.
    I yield to the Ranking Member.
    Mr. Rogers. Thank you, Mr. Chairman, and I share your 
concerns. I think those examples were unacceptable, and we 
can't do oversight unless we have more cooperation. This is not 
something that is limited just to the DHS. As you know, I serve 
on Armed Services Committee. We have the same broad with DOD. 
This just broad over-classification is just unacceptable.
    Secretary Wolf, talk to me about how you arrived at these 
budget priorities, and what drove your priorities.
    Mr. Wolf. So Ranking Member, I would say that the budget 
process is in--a laborious process. It gets built many, many 
months in advance. I was actually in a different position at 
the Department when some of the 2021 budget priorities were 
being formulated, and then transitioned over, and then 
transitioned back.
    So I would say, again, our priorities remain. I outlined 
them at the beginning of the oral--continue to be border 
security, enforcing our immigration laws, cybersecurity, 
American preparedness, transportation security. So we have some 
high-level priorities. Then, obviously, we had to look at the 
resources that we have, and prioritize specific programs under 
each of the--our overall strategic goals, and our funding 
goals, as well.
    So it is a give-and-take. We have to look at programs that 
perhaps have been funded in the past to see if they continue to 
be useful, and we base that against the threat. We will 
continue to evaluate that, and work with Congress to set those 
priorities.
    Mr. Rogers. Well, you rightly cited cybersecurity in that 
list of priorities. I don't understand, then, why you would cut 
CISA's budget. That is something the Chairman and I have both 
expressed dismay about.
    Mr. Wolf. So I will say that, when you compare it to the 
President's fiscal year 2020 budget request, the funding in the 
fiscal year 2021 budget request is an increase. I do understand 
that it is a decrease from what was enacted last year by 
Congress.
    I will say that it fully funds all of DHS mission sets, 
including election security as we look to fiscal year 2021. 
Obviously, we are in the middle of a Presidential election year 
in fiscal year 2020, and I thank Congress for the funding that 
it provided. Obviously, CISA is doing a lot of important work 
now on the election security front, but it does fully fund 
their mission and their requirements as we look at 2021. Some 
of the funding that they have received over the past fiscal 
years will continue to be made available to them as they look 
at 2021, as well.
    Mr. Rogers. As you know, today is Super Tuesday in Alabama, 
like about 12 other States that are having a big election. Tell 
me about the state of our election security today, and as we go 
toward November.
    Mr. Wolf. Sure. I would say that what we saw in 2018 was 
one of the most secure elections, I believe, that we have had, 
and we are continuing to build on that progress as we go into 
2020.
    I will say that CISA, under the leadership of Director 
Krebs, has been very forward-leaning. I would say that the 
relationships that we have now in all 50 States, over 2,300 
jurisdictions, it is really night and day to what we saw in 
2016, where we had very few relationships, very few contact 
information, and weren't talking to them. So we share a number 
of information. We push intelligence as we can to these State 
and local election officials. We also provide them any number 
of no-cost tools that they can utilize: Penetration testing, 
vulnerability assessments, and a variety of others.
    So we continue to work with the State and local election 
officials. Those are the individuals that run elections. The 
Federal Government does not. So we want to make sure that they 
have all the resources and tools that they need to do that.
    Of course, I would say a vital component of this is also 
the voter, so making sure that the voter has information, 
continuing to push information to the voter to recognize what 
perhaps might be disinformation, or not reliable information, 
continuing to educate the voter that, if you have questions 
about your particular election, go to a trusted source, go to 
your State or local election officials and get information 
directly from there. Don't rely on information that you are 
seeing on social media, on your Facebook or your Twitter 
account. So making sure that they continue to go to the trusted 
source is also very important.
    So there is a number of things that we are doing, and I 
think we are better-positioned today than, like I said, where 
we were 4 years ago.
    Mr. Rogers. Great. I recognize that Health and Human 
Services, as well as the Center for Disease Control, are the 
lead agencies when it comes to dealing with the coronavirus. 
But what role, if any, does DHS have?
    Mr. Wolf. So, obviously, we are a partner. So we take our 
lead from the medical professionals at both HHS and CDC. Again, 
primarily responsible for screening passengers as they come 
into our airports of entry, our land ports of entry, and our 
maritime ports of entry.
    So, as of today, at airports of entry, CBP and our medical 
staff that we have set up have screened over 50,000 passengers. 
TSA also works with the CDC to make sure that the individuals 
on the ``do not board list'' run by CDC are appropriately not 
allowed to travel. We have seen a number of folks from the 
cruise line that was quarantined outside of Japan perhaps not 
be repatriated back into the United States, wanted to stay 
there or go elsewhere, and then try to travel to the United 
States.
    So again, our primary mission is making sure that sick 
individuals are not traveling to the United States that we have 
identified in certain areas of the country--of the world. So we 
will continue to do that, again, not only at airports of entry, 
but also land ports of entry on our Northern Border and our 
Southern Border.
    Then the Coast Guard has a very prominent role in our 
maritime ports of entry.
    I will also say that S&T, our science and technology 
directorate, in their NBACC facility, is also working to 
characterize the virus, and they are doing that at the 
direction of CDC.
    Mr. Rogers. Thank you for your service, and I yield back.
    Chairman Thompson. The Chair recognizes the gentleman from 
Rhode Island, Mr. Langevin, for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman. Acting Secretary 
Wolf, I want to welcome you before the committee today. Thank 
you for your testimony and the job you are doing at Homeland.
    Acting Secretary, I understand that you served as chief of 
staff under former Secretary Kirstjen Nielsen. Is that correct?
    Mr. Wolf. That is.
    Mr. Langevin. So, as Secretary, she warned about the threat 
of cyber attacks exceeding the risk of physical attacks. In 
fact, in March 2019 she described the cyber domain as, ``a 
target, a weapon, a threat vector all at the same time.'' She 
warned that, ``the nation''--that nation states, criminal 
syndicates, hacktivists, and terrorists were preparing to, 
``weaponize the Web.''
    So do you agree with your former boss's assessment 
regarding the nature of the cyber threats to the United States?
    Mr. Wolf. I do.
    Mr. Langevin. So the DNI's January 2019 world-wide threat 
assessment identified cyber threats among the top threats 
facing the United States. Yet, as I understand it, the 
President's fiscal year 2021 budget request would cut the 
Cybersecurity and Infrastructure Security Agency, which is the 
Nation's premier cybersecurity agency, by nearly $250 million, 
including a $150 billion cut to its cybersecurity division. 
Additionally, the budget would cut funding for the Science and 
Technology Directorate, CyberSecurity and Information Analysis 
Network. Is that correct?
    Mr. Wolf. Yes, sir. Those are the reductions, I believe, 
that----
    Mr. Langevin. OK.
    Mr. Wolf. Are in the budget.
    Mr. Langevin. So, obviously, over the past year it has 
become clear that the Russian Government is going to continue 
its election-meddling efforts, as well as its efforts to gain 
access to critical infrastructure networks. In addition, the 
Chinese government has continued to push for the integration of 
Huawei technology and 5G networks. China continues to engage in 
cyber espionage and intellectual property theft enabled by 
cyber intrusions.
    Under these circumstances, how would the cuts that you 
proposed to DHS cybersecurities activities make Americans 
safer?
    Mr. Wolf. Again, as I indicated, as you look at the 
President's fiscal year 2020 budget request, what we see in the 
fiscal year 2021 budget request is an increase for CISA's 
overall budget. Again, as I mentioned earlier, I do recognize 
it is a decrease, or a reduction in funding, from what was 
enacted in fiscal year 2020.
    What I can tell you is that I have talked to Director Krebs 
very specifically about the budget, and he is fully confident, 
I am confident to--that for CISA to do their full mission in 
fiscal year 2020, that the 2021 budget requests fully funds all 
of their mission sets where they need it to be.
    Mr. Langevin. But the cuts that are being proposed here 
clearly, even on its face, don't meet the threats that the 
country is facing. I am deeply troubled knowing that, not only 
is the--is there greater demands for protecting the country 
with respect to election security, but it is--CISA is not just 
the election security agency, which is a important part of its 
mission, but it is a--it is the cybersecurity agency, and also 
responsible for protecting and working with private sector on 
protecting critical infrastructure.
    So you are asked--being asked to do much more. The threats 
to the country have gone up proportionately and exponentially. 
Yet this--these types of deep cuts are not helping your--that 
agency do its job for the country. I don't understand the deep 
threat--the deep cuts that are being proposed. Just shuffling 
the deck chairs around doesn't make the agency have the 
resources that it needs to do its job.
    Mr. Wolf. Again, I would--what I would say--and thank you 
for highlighting, yes, obviously, CISA does much more than 
election security: Soft target supply chain security, looking 
at 5G in a number of areas that they are focused on.
    Again, I will say some of the funding that CISA has gotten 
over the last several years--again, thank you for Congress for 
providing that--is carrying over, and they are able to fund 
some of their mission sets as we look at 2021, as well. So we 
continue to look at the totality of what CISA is funding at.
    Again, as we look at 2021--2020 is, obviously, a 
Presidential election year. There is a lot of election security 
focus. The election security funding in the fiscal year 2021 
budget sustains that work, continues that work, as well as in 
their other mission sets.
    Mr. Langevin. Well, I--Mr. Chairman, I know my time is 
expiring, but I just want to make it clear that I--for the 
record, I firmly disagree with the Acting Secretary's 
assessment.
    For the past year I have served on the Cyberspace Solarium 
Commission, alongside members of--from DHS, including 
Administrator Pekoske, Director Krebs. They have made it clear 
to me that we need to strengthen CISA, and our report would 
clearly call for that. I, for the record, I am just deeply 
disappointed that administrator's budget--the administration's 
budget continues to de-prioritize these desperately needed 
investments, as I see it.
    I yield back.
    Chairman Thompson. Thank you very much. I think there is 
very little disagreement that cyber--CISA's budget should not 
have been cut. As you know, we just approved a bill authored by 
Mr. Richmond that provides additional monies just for that 
purpose because of some shortcomings.
    The Chair now recognizes the gentleman from New York, Mr. 
King.
    Mr. King. Thank you, Mr. Chairman.
    Secretary, I want to thank you for your appearance here 
today, and thank you for doing a good job under very tough 
circumstances.
    Listen, I am the first to acknowledge that coronavirus, 
immigration, cybersecurity are major issues, major problems, 
crises facing the Department. But I also go back to the reason 
this committee was formed in the first place. Without taking 
anything away from the other issues, the fact is terrorism is 
still a major issue, and I--when I see the cuts that are in 
this budget, 25 percent, I guess, of almost $240 million from--
the fact that local governments are being asked to kick in 25 
percent of the cost, I mean, I can tell you in New York and 
others--I am sure other cities and regions have their own 
expenses, their own programs they have to fund.
    We have more than 1,000 police officers working entirely on 
counterterrorism in New York City. In addition to that, we have 
police officers in Nassau, Suffolk, State police all working on 
counterterrorism. This is extremely expensive.
    We also--again, just in where--the areas I represent, Ms. 
Clarke, Ms. Rice, Mr. Payne, we have millions of people every 
day on the trains, subway system, commuter lines. We have the 
New York City subway system. We have Amtrak. We have Long 
Island Rail Road. We have Metro North. Then we have the Ports 
of New York in New Jersey. We are the major terrorist target in 
the country.
    I am not trying to diminish anyone else's concerns, but I 
have to be very concerned this--you know, this is where the 
major attack was. When I see these types of major cuts, I don't 
see how the law enforcement and fire department personnel can 
handle them. It is me--again, we always focus on the issue of 
the day, and I understand that.
    But the underlying issue is still there, and we can be 
doing everything we can on coronavirus, and we have to, 
everything in immigration we have to, everything in 
cybersecurity that we have to. But if we lose 3,000 or 4,000 
people on an attack in New York or Chicago or Boston or Los 
Angeles, that will be the front page. It will be, again, 
tremendous casualties and losses, both human loss, economic 
loss.
    So, again, I know every year--and both administrations have 
done this, they submit a budget with drastic cuts to homeland 
security, and then Congress puts it back in. But I am afraid, 
with all these other things going on, that somehow maybe this 
year--I hope not this year--but that game is not going to work, 
and we are going to end up short-changed. Then the attack will 
come, and people say, ``Why did it happen?''
    Even when we see coronavirus, it brings back the issue of 
germ warfare, chemical warfare, and how easy it would be to 
have terrorists in a major metropolitan area cause enormous 
casualties by that. The only way that can be done--stopped, is 
really through detection.
    We are not talking--listen, we are not talking about rapes 
or robberies or kidnappings, which are local issues. We are 
talking about an attack, which, if it comes, is going to be a 
responsibility of the Federal Government. But the local 
governments are being asked to pay for it to defend themselves. 
Now we are being cut back. And to me, I can't accept that.
    I would ask what the rationale and justification for that 
is.
    Mr. Wolf. So, Congressman, what I would say is, over the 
life of the Department, I believe we have provided over $53 
billion in grant funding. As you know, the New York City 
Metropolitan Area is our top recipient year over year. So we 
continue to provide the capabilities.
    I think, over time, what we try to do is build up 
capabilities of certain jurisdictions, and not have that be a 
sustaining part of their budget. So, again, building up 
capabilities across the country, across the Nation, making sure 
that those communities are more resilient. But we need to make 
sure that we have the right cost share, and we have the right 
share responsibility between the Federal Government and the 
State and locals, and making sure that that grant funding, 
again, doesn't become baseline in their budget. It is there to 
build up their capabilities, build up their capacity. That is 
what you see reflected in the 2021 budget request.
    Mr. King. Yes, but again, when you talk about building up 
defenses, we are not just talking about building a wall, or 
building a structure. The fact--this is on-going, it requires 
on-going surveillance, on-going monitoring, on-going 
cooperation, dealing with other States and cities--in some 
cases, deal with other countries. The expenses remain. It is 
not like you could just build something and it is over. The 
threat goes on. The threats change.
    In many ways, I would say the terror threat--I know it is 
not on the front pages, and I understand that. But the terror 
threat is as serious today as it was on September 10, 2001. The 
enemy has adapted, and we have to continue adapting with them.
    If we say that--again, there has to be cost sharing. In 
effect, you are asking the local governments to pay for what 
the Federal Government should be doing.
    Second, as far as the cost share, it is not as if the 
threat has ended, or it is not as if they have stopped. The 
fact is they are changing their tactics and methods every day 
and every month and every year. We have to stay up with it.
    So I understand the position you are in. I am just saying I 
think this is very dangerous. It could involve the loss of 
life. Again, major metropolitan areas--and it is--a Democrat or 
Republican, a blue or red--the fact is these are Americans 
whose lives are going to be at risk.
    I yield back.
    Chairman Thompson. Thank you. The gentleman yields back.
    The Chair recognizes the gentleman from Louisiana, Mr. 
Richmond, for 5 minutes.
    Mr. Richmond. Mr. Wolf, representing New Orleans, that has 
been home to many natural disasters. I read this morning the 
tornadoes in Tennessee. Have you, FEMA director reached out to 
the people in Tennessee to offer assistance? Will you all be on 
the ground there?
    Mr. Wolf. Yes, we have. We are monitoring that, not only at 
FEMA, but also our officials at CISA. Obviously, it is a 
primary State. So primary voting is there, as well. So we are 
not only looking at it from a FEMA perspective, but also from 
an election and election security perspective.
    Mr. Richmond. OK. Now, look, I am going to ask you some 
very direct questions, and not aimed to get you in trouble, but 
I just need to know, because it would lead my other 
questioning.
    Is the budget document just a statement of principles, and 
we needed to cut money, so we listed a whole bunch of cuts in 
there?
    I mean, do you believe in those cuts in your budget you 
presented?
    Mr. Wolf. I support the administration's fiscal year 2021 
budget request for the Department. There are trade-offs. It is 
a big budget. But we have a big mission----
    Mr. Richmond. Well, let me ask you this, then, very 
pointedly. If we enacted that budget, as presented to us, would 
Americans be more or less safe?
    Mr. Wolf. I would--I strongly believe they would be more 
safe.
    Mr. Richmond. So you think they would be more safe if we 
eliminated the Chemical Facilities Anti-Terrorism Standards 
Program? Because your budget proposes eliminating CFATS.
    Mr. Wolf. It proposes transferring that to a voluntary 
program, just like CISA operates in a number of other sectors. 
CFATS is the only mandated program that CISA operates. So it 
would transition that from a mandatory program that reaches 
about 3,300 facilities to a voluntary program that we could 
reach up to 40,000 chemical facilities.
    Mr. Richmond. Right. But the 3,000 are the ones that you 
all deemed to be the highest risk in the country. That is why 
we have them follow certain standards.
    In fact, the program was implemented under Secretary 
Chertoff, based on the conclusion from the intelligence 
community that chemical facilities could be weaponized by 
terrorists. And on January 15 of this year, DHS issued an alert 
warning about heightened threats from Iran, specifically for 
the chemical sector. Those chemical facilities are located 
smack dab in people's neighborhoods.
    My district is the home to probably the largest 
petrochemical footprint in the country. Mr. Higgins has 
petrochemical facilities in his. Now there is an increased, 
heightened risk, but we are going to move it from mandatory to 
voluntary, and assume that we are protecting those facilities 
and the people who live around them.
    Mr. Wolf. So, again, the budget request, I wouldn't look at 
it--and I certainly don't view it--as a lessening of an 
interest or a priority of the Department on chemical security.
    Again, the idea here is to move it to a voluntary program, 
so that we can reach more individuals. Right now we have a 
budget of about $75 million dedicated to this, so that is $75 
million looking at 3,300 facilities. What we would like to do 
is to be able to reach more facilities, again, in that 
voluntary manner, just like CISA does with critical 
infrastructure, election security, and a number of other--their 
other missions sets, to transition it to that type of program, 
moving forward.
    Mr. Richmond. Look, you are a great soldier for the 
administration, but I think if you hear what is--people up here 
are kind-of talking about, is there some areas where we can 
keep the mantra ``We need to do more with less.'' But there are 
some areas where that just does not work. When we talk about 
terrorism, you are talking about officers on the ground in New 
York, you are talking about protecting chemical facilities, you 
are talking about response to coronavirus. The answer is not 
``We can do more with less.'' Sometimes you have to have the 
resources to protect the American people.
    I don't want to put you--my goal is not to put you in an 
adversarial position with the administration. But my goal is to 
make sure that we understand that we are talking about 
protecting American lives, whether it is a virus, whether it is 
a terrorist threat. That is real.,
    So let me just switch for a quick second to coronavirus. In 
your written testimony you said the risk to the American public 
remains low, and we are taking measures to keep the threat low 
and prevent viruses from spreading. That is not consistent with 
what the CDC is saying. I would just hope that the 
administration, through HHS, DHS, everybody, can get together 
and give the American people some reassurance that we know this 
is serious, and speak with one message, and that we are going 
to invest the resources to make sure we protect the American 
people.
    There are people that are terrified to send their children 
to school, or their spouses off to work. I just believe that we 
owe it to them. I am not trying to score points, but we owe it 
to them for you all to get one message, one plan, and start to 
implement it.
    With that I yield back, Mr. Chairman.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentleman from Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Secretary, thank you so much for your service in 
difficult times.
    Let me--I want to echo my colleagues across the aisle. I 
stood up and authorized into law the Cyber Infrastructure 
Security Agency. With the threats that I see all over the world 
from--in cyber, I don't think this is the right time to be 
cutting that agency, and I will join the Chairman and Ranking 
Member in their efforts with the appropriators on that issue.
    On coronavirus, let's not forget where this came from. I 
mean, we can do a lot of political finger-pointing here, but it 
came out of China, and it was a very irresponsible move on the 
part of the Chinese Communist Party trying to cover it up, 
detaining 8 prisoners, having them retract statements and give 
apologies for reporting the truth. It just got worse. I would 
put the sole blame on China and the way they handled this 
crisis now that is becoming almost not an epidemic, but 
pandemic.
    When we chaired the Ebola hearings, Chairman Thompson and I 
authorized under the law the chief medical officer within DHS 
to coordinate with HHS. Can you tell me how that is working in 
this crisis?
    Mr. Wolf. So--absolutely. So our chief medical officer is 
doing just that. So they are in daily contact, I believe it is 
twice daily, certain meetings, but obviously in telephonic 
contact with HHS and CDC. Specifically as I mentioned at the 
top of the hearing with DHS facilities, they were on the phone 
last night with CDC professionals addressing that.
    So I would disagree a little bit from a comment made 
earlier. I believe that the administration is talking with one 
voice on this issue. As Secretary Azar has said, and the Vice 
President has said, the threat continues to remain low, and we 
continue to--to Americans. But that is because some of the 
measures that we have put in place early on will continue to 
put in proactive measures, will continue to lean forward, will 
continue to do things, as I mentioned at the top, closing 
facilities if we need to do that, at least from a Departmental 
perspective.
    So I think the administration has been very clear on that. 
Vice President Pence is holding almost daily press conferences 
and news conferences, and pushing information to the public. I 
know that we brief Congress weekly, if not biweekly. So we are 
pushing as much information, being as transparent as possible, 
sharing what we know and what we don't know.
    Then, of course, from the Department's perspective, making 
sure that we work at our land ports of entry, air ports of 
entry, sea ports of entry. Our chief medical officer is, 
obviously, involved with HHS and CDC on trying to make some of 
these medical calls, not only for our work force, but also in 
the mission that we do. S&T and their NBACC facility is also 
involved----
    Mr. McCaul. I am glad to see it is working the way we 
envisioned that. I think we saw this coming back then.
    Mr. Wolf. Right.
    Mr. McCaul. I know that a Governor's task force actually 
recommended the idea that the--a Vice President be put in 
charge of an epidemic or pandemic, which is what is happening 
now.
    In addition, I think the appointment of the Ambassador to 
PEPFAR, which is HIV infectious diseases, was a very wise 
choice, as well.
    Can you tell me about the specific travel bans and 
screening, as it relates to affected areas like China, South 
Korea, and Italy?
    Mr. Wolf. Sure. So we have 2 specific what we call 212(f) 
orders from the President, specifically regarding China and 
Iran. So that is any individual that has been in those affected 
areas in China or Iran in the last 14 days, or have traveled to 
those places. So in some cases, as you know, we see individuals 
coming to the United States with broken travel. So it is not 
necessarily they come directly from China or Iran, but they 
could have had 3 stops in between.
    Again, through the CBP National Targeting Center, working 
with the airlines and others, as we are identifying those 
individuals that may have not come directly from China or Iran, 
but perhaps have that broken travel. So when--again, when they 
arrive at 1 of the 11 funneled airports, the first individual 
they see is a CBP officer. That is a normal immigration officer 
that is going to do that immigration work. They are then 
referred to medical contract staff that our CWMD office stood 
up.
    So, again, all those individuals then go and take--and get 
a screening by that medical staff, and then they are referred 
to CDC, if needed, for additional evaluation. Then a number of 
quarantine decisions are made by CDC professionals. So we are 
doing that at airports of entry. We are also doing similar--
although we see lesser numbers at, obviously, our land ports of 
entry and our maritime ports of entry----
    Mr. McCaul. Now, I think the threat unseen--that it does 
cause a panic and terrifies people, but they want to have 
assurances our Government is protecting them from people--
threats coming into the United States.
    Last question. Border Security Trust Fund. We proposed this 
idea in a bill last Congress that failed. Acting Secretary 
McAleenan supported it last Congress. This would take the fees 
collected at the border and return a greater percentage to the 
border for infrastructure and technology and needs at the 
border.
    Mr. Wolf. Right.
    Mr. McCaul. Travel, trade. Do you agree with this idea?
    Mr. Wolf. I certainly do agree with that concept. I think a 
lot of our ports of entry, the infrastructure down there, not 
only from a security perspective, but just that trade and 
facilitation, is outdated, and certainly needs some additional 
resources.
    Mr. McCaul. Thank you, sir. I yield back.
    Chairman Thompson. The Chair recognizes the gentlelady from 
New York, Miss Rice, for 5 minutes.
    Miss Rice. Thank you, Mr. Chairman.
    Acting Secretary Wolf, just a few days ago, a district 
court judge ruled that Ken Cuccinelli was not lawfully 
appointed to serve as the Acting Secretary of U.S. Citizenship 
and Immigration Services. In light of that ruling, is Mr. 
Cuccinelli still the senior officer performing duties of the 
director at USCIS, as stated on the Department's website 
yesterday?
    Mr. Wolf. He is. Well, I think that he is the first 
assistant. I will say that that case is currently in 
litigation, so I am going to limit what I say. But I would--I 
will say that DOJ and DHS currently looks at--is looking at 
that decision, obviously, to make sure that we fulfill our 
obligations there, but also looking at appealing that decision.
    Now, that decision had to do with certain decisions that he 
made in that position. So we are taking a look at that, as 
well.
    Miss Rice. Is he still the senior official performing the 
duties of the deputy secretary of the Department?
    Mr. Wolf. He is.
    Miss Rice. Which was stated on the Department's website 
yesterday?
    Mr. Wolf. He is.
    Miss Rice. So how--I understand that this is in litigation, 
and you are prophylactically saying you are not really going to 
be able to say anything about this, but how is it that you are 
keeping him in a position that a court found violated--his 
appointment to which violated the Federal Vacancies Reform Act?
    Mr. Wolf. Again, I will limit my comments, but I will say 
that that court decision is on specific decisions that he 
signed out at USCIS, and that is what that litigation is about. 
So we are addressing that.
    Miss Rice. So are you internally reviewing--looking to set 
aside the reduced time to consult, and the prohibition on 
extension directives that Mr. Cuccinelli introduced?
    Mr. Wolf. Yes. So that is what we are taking a look at, 
determining what to do with those limited decisions that he had 
signed out.
    Miss Rice. I would like to turn now to your own--so are you 
precluding him from making any such determinations about any 
other issues, and enacting any kind----
    Mr. Wolf. We will certainly do that with the advice and 
counsel of our attorneys.
    Miss Rice. So have you been advised to stop Mr. Cuccinelli 
from implementing anything like he did with the reduced time to 
consult and the prohibition on extensive----
    Mr. Wolf. Again, he is not making those specific calls at 
USCIS. Like I said at the beginning, we are taking a look, not 
only at our obligations, but our ability to appeal that 
decision. So, yes, we are doing----
    Miss Rice. Given that, are you kind-of putting a halt on 
his decision making?
    Mr. Wolf. Again, at the advice of our counsel, which is--it 
is a very specific focus of that case on specific decisions 
that he made at USCIS--it does not affect his current position 
that he fulfills at the Department.
    Miss Rice. Well, you can't kind-of say he is really not 
doing that stuff when he is actually implementing rules that 
are having an effect on people, real people.
    I would like to turn now to your own appointment, Mr. 
Acting Secretary. On November 8, 2019 you were appointed Acting 
Secretary of Homeland Security after Kevin McAleenan, which 
made you the fifth person to lead the Department of Homeland 
Security in less than 3 years of the Trump administration.
    I want to understand whether that appointment was within 
the law, because at the time you were named Acting Secretary, 
Mr. McAleenan, who was himself Acting Secretary of Homeland 
Security--which, in and of itself, is just a persistent 
problem, there has never been anyone that was confirmed to run 
an agency of such importance--but he, himself, was Acting 
Secretary of Homeland Security at the time. He had to sign an 
order amending the order of succession to name you to the 
position.
    Now, as I am sure you are aware, Mr. McAleenan changed the 
order of succession, despite his testimony before this 
committee just days earlier, sitting in the same chair you are 
in, in response to my question that he had no plans to do so. 
Now it appears as if this change to the order of succession may 
not have been valid, given that Mr. McAleenan issued the 
amendment after his own appointment as Acting Secretary appears 
to have expired.
    So I think it begs the question: Are you legally the Acting 
Secretary of the Department of Homeland Security?
    Mr. Wolf. I am.
    Miss Rice. Is that your own determination?
    Mr. Wolf. No, that is the determination by not only DHS 
attorneys, but other attorneys in the administration.
    Miss Rice. So how can you be the Acting Secretary if Mr. 
McAleenan was no longer Acting Secretary when he changed his 
order of succession?
    Mr. Wolf. Again, I don't believe that that was the case. I 
believe that he altered the order of succession before he left 
that position.
    Miss Rice. If it turns out your appointment is, in fact, 
invalid, what will that mean for all of the actions that you 
have taken as Acting Secretary?
    Mr. Wolf. Well, we will certainly defer to not only DHS 
attorneys, but the Department of Justice to determine what 
actions that we need to take.
    Miss Rice. Last month intelligence officials warned Members 
of Congress that Russia is again interfering in the 2020 
Presidential election. Do you condemn these attacks from the 
Russian Government to interfere in American elections?
    Mr. Wolf. Absolutely. We----
    Miss Rice. Have you----
    Mr. Wolf. Sorry.
    Miss Rice. Sorry?
    Mr. Wolf. We see an on-going influence campaign by Russia. 
We would not be surprised if other adversaries are not also 
looking at what they are doing. So, you know, their ultimate 
design is to sow discourse, distress, you know, the American 
democracy and our institutions of Government.
    So, yes, we continue to see that. From a system 
perspective, making sure that we secure election 
infrastructure, we continue to take a number of actions to 
address that.
    Miss Rice. Have you spoken to the President about these 
recent attacks?
    Mr. Wolf. Yes, we have spoken to him about election 
security on a number of cases.
    Miss Rice. What was his response, specifically to your 
telling--your informing him that the Russian government is 
interfering in----
    Mr. Wolf. Again, I am not going to get into discussions I 
have had with the President, but I will say that he is informed 
of all of the threats, the same information that I see--of 
course, he sees more. But he is aware of the threats to our 
elections, specifically as it relates to foreign interference.
    Miss Rice. So Director Krebs has been wonderful, I think, 
in terms of what he has done regarding election security, I 
just want to be assured that you are doing proactive outreach--
at least now, because the only primary we are having is a 
Democratic primary, 2 Democratic Presidential candidates--to 
share what you know, which is something that Director Krebs 
said was going to happen.
    Mr. Wolf. Absolutely. So, obviously, we are not only 
sharing that information with State and local election 
officials, but, as you indicated, both political parties, but 
also every campaign that asks for it, as well. So I know CISA 
Director Krebs has been in touch with all of the campaigns, 
sharing that information, and sharing the no-cost services that 
I have indicated----
    Chairman Thompson. The gentlelady's time has expired.
    Miss Rice. Thank you.
    Chairman Thompson. Secretary Wolf, will you provide us the 
letters that the attorney certified that you were legitimately 
put in the position?
    Mr. Wolf. I--yes, Chairman, I will take that back and 
provide that information.
    Chairman Thompson. By March?
    Mr. Wolf. Let me take that back. I will get you an exact 
date on when we can--we are able to----
    Chairman Thompson. Well, we would like to have it by the 
15th of March.
    Mr. Wolf. OK.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentleman from North Carolina, Mr Walker.
    Mr. Walker. Thank you, Mr. Chairman. Secretary Wolf, thank 
you for testifying today. I appreciate your work over the last 
4 months to help protect American safety.
    While the turnover in the Department has been frustrating, 
that has no bearing on you. We should be pulling for you, and 
hope you do the very best job. The evidence that we have seen 
so far is certainly to be commended. So thank you very much.
    Mr. Wolf. Thank you.
    Mr. Walker. We have heard a lot about the resources being 
allocated to screen for overseas travelers traveling through 
designated airports. However, there are still 700,000, 
approximate, travelers who arrive daily through land ports, and 
tens of thousands of others on passenger vessels.
    How is DHS, including CBP and the U.S. Coast Guard, working 
with the CDC to detect individuals entering the United States 
through land ports and waterways who may be carrying either 
this virus or something else?
    Mr. Wolf. So it is very similar to the procedures that we 
have at the 11 airports. So again, as you come into a land port 
of entry, or even a maritime port of entry, and you are coming 
into the United States, you are going to see a CBP officer from 
an immigration perspective, and then you are going to go 
through this enhanced medical screening that we do at the 11 
airports. We do a similar procedure at the land ports of entry, 
and then will, again, be referred to the CDC if needed.
    But again, our CBP officers do this on an every-day basis. 
So, outside of coronavirus, you know, going back 2 years, a 
year ago, they look at every individual, not only for 
immigration purposes, but to determine whether or not they may 
or may not be sick, and then, of course, refer them to 
secondary.
    So, again, to answer your question, though, specifically, 
the measures that we have in place at the 11 airports that are 
screening--as I mentioned earlier, over 50,000 passengers--we 
continue to refuse entry to passengers that are on that 212(f) 
order. We have the same procedures in place at our land ports 
of entry. Of course, the Coast Guard is doing that at our 
maritime.
    Mr. Walker. Well, thank you for that. There are strong 
accusations that Iran, certainly China, and maybe other 
countries are covering up the full extent of the coronavirus 
outbreak in their country. The numbers--as well as the numbers 
infected and death tolls are significantly higher than reported 
by their government and health officials.
    In what ways is DHS combating disinformation and cover-ups 
from other countries to ensure both a--U.S. agency officials to 
make sure they have the necessary information to take the 
necessary reactive and proactive measures to ensure the 
outbreak does not occur?
    I guess the second part is to warn U.S. citizens about the 
risk of traveling to these locations.
    Mr. Wolf. Sure. So I will take the second part first. There 
is a number of travel advisories that the administration has 
put in place to a number of countries. So those are just 
advisories at the moment. So those are voluntary, or 
individuals can still travel to those locations, but they are 
being advised not to. Central travel only in some cases, and 
then no travel in other cases.
    We continue to work with CDC and HHS, making sure that the 
medical professionals there understand what is occurring in 
China. So I know CDC--my understanding from the CDC is they 
have several individuals on the ground in China as part of a 
WTO team looking at that. I think there is always a question of 
whether the deaths, the number of deaths, are being under-
reported by China, and the information coming from China is as 
transparent as we would like.
    So, again, I would refer you to the CDC. They are the ones 
that are in constant contact with the medical professionals in 
China, trying to ascertain that information. Again, what we try 
to do is to make sure we support HHS and CDC. If we need to 
change--if they need to change their medical strategy, we 
change as a result of that.
    Mr. Walker. CISA has stated that their team is closely 
monitoring the coronavirus, and is working with critical 
infrastructure partners to prepare for possible disruptions 
that may stem from wide-spread illnesses. In 2017 DHS 
designated systems and networks used to administer elections as 
critical infrastructure, and has since been one of CISA's 
highest priorities. With the elections today, and many more in 
the coming weeks, do you have any plans to prevent any type of 
disruption?
    Mr. Wolf. Well, I think that is currently what we are 
doing. So we are not only doing that through CISA, they 
continue to look at the supply chain, they continue to look at 
the critical infrastructure to see about any slowdowns in that 
supply chain and how it affects. We will continue to look at 
that.
    I would say, as we do across the board, not only with CISA, 
but with CBP, we continue to have all options on the table. So 
we are continuing to look at what we can do, and we will, 
again, proactively take measures where needed.
    Mr. Walker. Last question. Does the fact that areas of the 
United States have seen outbreaks--where those outbreaks have 
occurred changed your strategy in preventing the spread to 
other patients?
    Mr. Wolf. So, again, we converse daily with CDC and HHS. 
Right now we continue with the strategy that is in place. 
Obviously, we have a number of community spread and person-to-
person transmission, as well. So the CDC is on-site, monitoring 
those. Again, from a DHS perspective, we are, obviously, very 
concerned about what is coming into the country.
    Then, of course, at TSA, you know, people are going to 
continue to travel inside the air transportation system. So 
what I will say is there is nothing that we are doing today 
that I am announcing, but I will say that we continue to plan--
the Department continues to plan on all fronts for worst-case 
scenarios. So we continue to look at different procedures that 
we may have to put in place across our transportation system, 
across DHS facilities should this continue to worsen.
    Mr. Walker. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. One question in 
light of that one. You talked about those people who are 
traveling by air. What about our land ports? Do we have that 
same robust capacity at our land ports of entry?
    Mr. Wolf. We do. So I mentioned we have the same screening 
procedures that we have at the 11 airports of entry. We are--
those same procedures are occurring at our land ports of entry. 
Obviously, we have more land POEs than we do the 11 airports. 
So we continue to, I would say, transition that type of care.
    CDC is not on-site at every land port of entry. We have 
phone calls with them, so that is sort-of a telemedicine/
teleconsult that we have with CDC. But we do have medical 
professionals at our largest land ports of entry looking at 
individuals as they come into the country.
    Chairman Thompson. So it might not be as robust as we need. 
I mean, that is--I mean I think that is what I am hearing.
    Mr. Wolf. From DHS's perspective, it is very robust, and we 
will continue to keep it that way. We stood up contracts, 
again, not only in the air ports of entry, but we also have 
medical professionals that we surge from Coast Guard and other 
parts of the Department at our land ports of entry. So we feel 
very confident in the procedures that we have there.
    Chairman Thompson. OK, the gentlemen from California, Mr. 
Correa, for----
    Mr. Correa. Thank you, Chairman Thompson, for holding this 
most important hearing. I want to welcome Acting Secretary 
Wolf. Thank you for being here today.
    I am going to shift a little bit, and, actually, I am going 
to follow up on your question and Mr. Walker's question on 
border security, prevention of coronavirus, and state of the 
state, so to speak.
    You mentioned that--low-level threat right now, Nationally. 
Is that where we are at?
    Mr. Wolf. That is what the CDC continues to communicate 
with the public.
    Mr. Correa. Sunday I was at Mass. The priest said, ``All 
those that are coughing, sneezing, please leave. Go home. Don't 
come until you are better.'' There is concern out there that we 
are talking out of a lot of--messages are being, essentially, 
put out there. We are talking right now about border security, 
checking people that are coming into the country.
    Mr. Wolf. Right.
    Mr. Correa. The last time I went to San Ysidro 2 weeks ago, 
we had a lot of folks coming through that border.
    Mr. Wolf. Yes.
    Mr. Correa. Trying to put your finger--trying to stop 
international travel is probably going to be very difficult, at 
best. Are you coordinating internationally with big trading 
partners, Canada and Mexico, to make sure that their agencies 
are prepared, and they are watching, monitoring?
    Mr. Wolf. Yes.
    Mr. Correa. Holding immigrants at the border and turning 
them back is probably not going to stop this virus, because we 
still don't know how it is spread. Can you give me a little bit 
of information here, so I can take back to my constituents?
    Mr. Wolf. Absolutely, and I would agree with you. Some of 
our busiest land ports of entry, it is going to be a very 
difficult assignment. So, again, we will continue to screen 
those individuals.
    Mr. Correa. So do we have lessons learned? I don't have 
much time, sorry to cut you off. Lessons learned, are we 
coordinating right now actively with other countries----
    Mr. Wolf. Absolutely.
    Mr. Correa [continuing]. To make sure that our border 
security isn't the border, but extends to working with other 
international health care agencies?
    Mr. Wolf. We reached out over a month ago, I would say well 
over a month ago, with not only Canada, but with also Mexico to 
understand the procedures that they were doing, not only on 
their border, but just generally writ large.
    So, yes, we continue to communicate with them. Canada--both 
Canada and Mexico have been a partner trying to understand the 
virus. Obviously, we are also looking at flights in--but--into 
Canada and Mexico from those affected areas, as well. We are 
encouraging similar restrictions. So, yes, we have a robust----
    Mr. Correa. Lessons learned----
    Mr. Wolf [continuing]. Communication plan with them.
    Mr. Correa. Next year, the year after, we will come up with 
another virus. Are we putting together implementing a system 
where we can react a whole lot faster and more coordinated than 
we did this time around?
    Mr. Wolf. Yes. I will say since 2013 the Department has had 
a pandemic response plan that we executed, that we will 
continue to execute. Obviously, not every pandemic is the same, 
and they all affect the Department and the----
    Mr. Correa. They are not the same.
    Mr. Wolf [continuing]. Country differently.
    Mr. Correa. You have a program in place to react. Yet the 
early messages were a little bit confusing, discerning, and not 
clear to a lot of folks that panicked.
    Mr. Wolf. Well, I would say that the Department was on the 
forefront, along with the President, of instituting travel 
restrictions earlier than any other country out there. So we 
continue to that, and we had to enforce that, and we had to 
make that a reality. We had to change our targeting rules. We 
had to do a number of things from a CBP perspective to make 
sure----
    Mr. Correa. If I can I want to interrupt you again. I would 
like to see if we could work with your agency to see what your 
plan is, who you have contacted, who you are working with 
internationally, in terms of coordinating an international 
response to this. I think the----
    Mr. Wolf. OK.
    Mr. Correa. Not only do our constituents--but I think the 
world is looking to us for leadership and coordination.
    We have the best pharmaceutical industry in the world. We 
have the best research and development, and our health care 
system is really good, as well. I just want to see us continue 
to be the leaders when these kinds of pandemics break out.
    Mr. Wolf. I agree, and we will continue to do that.
    Mr. Correa. Thank you. Mr. Chairman I yield the----
    Mr. Green of Tennessee. Mr. Chairman, a point of order, if 
I could. Mr. Chairman, a point of order.
    Chairman Thompson. The gentleman is recognized.
    Mr. Green of Tennessee. I will be brief, and it is about 
the virus.
    Speaking as a physician, I just want to make sure we are 
all speaking the same language. You mentioned, sir, that we 
didn't know how it spread. That is a very specific term, 
terminology. We do know how it is spread. It is respiratory 
droplets. Now they have confirmed that it is fecal-oral spread, 
as well. So we just want to make sure that we are saying 
correct things. We do know how the virus spreads, and I just 
wanted to make that point of order.
    Mr. Correa. Mr. Chairman, my reference was that we have a 
lot of people that are actually infected who we don't--we 
haven't mapped out how they were actually--we have that 
contact, which is still not clear.
    Mr. Wolf. Right.
    Mr. Correa. So, physically, they do spread in the way 
described, but we don't know how these people were infected in 
our communities. People that have not been out internationally, 
have not touched international travelers who are now infected.
    So to say that somebody is safe because you cut off the 
border travel, or because you have quarantined yourself, and 
that community is essentially now, you know, not in danger, I 
think----
    Mr. Green of Tennessee. Your point is well-taken. But the 
language has got to be clear.
    Chairman Thompson. The gentleman is----
    Mr. Correa. Thank you, Mr. Green, for clarifying that 
position.
    Chairman Thompson [continuing]. Recognized.
    Mr. Correa. OK.
    Mr. Green of Tennessee. That is all I wanted to do.
    Thank you, Mr. Chairman.
    Mr. Correa. OK.
    Chairman Thompson. The Chair recognizes the gentleman from 
Louisiana for 5 minutes, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. Secretary Wolf, are 
you here voluntarily today, or under subpoena?
    Mr. Wolf. Voluntarily.
    Mr. Higgins. I commend you for being here voluntarily 
today, sir. I am going to help America understand the title of 
today's hearing scheduled for 10 a.m. in this room, Tuesday, 
March 3, ``A Review of the Fiscal Year 2021 Budget Request for 
the Department of Homeland Security.'' Is that the hearing you 
intended to participate in today?
    Mr. Wolf. Yes, sir.
    Mr. Higgins. My colleagues have used this hearing to launch 
partisan attack after partisan attack against our President and 
the administration across every imaginable spectrum that has 
anything to do with the Department of Homeland Security.
    Earlier the Chairman posted a couple of heavily-redacted 
pages, do you recall that, Mr. Secretary?
    Mr. Wolf. I do.
    Mr. Higgins. The redacting procedures of Federal documents 
that have some level of classifications before you send them to 
Congress, these procedures are common across DHS and under your 
supervision?
    Mr. Wolf. I would say they are not only common across the 
Department, it is across the Government.
    Mr. Higgins. Well, you are quite a gentleman, sir, as you 
responded to those pages, because why do you think those 2 
pages were selected of the over 1,600 pages that was the batch 
of documents that you provided to this committee? Why were 
those 2 pages selected? Because they were more redacted or less 
redacted? What do you think, Mr. Secretary?
    Mr. Wolf. I don't know. I would say----
    Mr. Higgins. The answer is because they were more redacted.
    Mr. Wolf [continuing]. They were probably more redacted.
    Mr. Higgins. I hope America is watching, because this is 
exactly the kind of theater that this town has produced.
    Now, my colleague just said we can't cut the budget. I 
disagree. Are you mission-focused, Mr. Secretary?
    Mr. Wolf. Absolutely.
    Mr. Higgins. This town, under Republican and Democratic 
leadership, the establishment of this realm has accumulated the 
$22 trillion debt to burden our Nation for generations yet 
unborn. If this body were to run a $1 billion surplus--which it 
will not, America, unless forced--this body will never decrease 
deficit spending, will never balance the budget, unless forced. 
If this body were to run a $1 billion surplus, meaning we spent 
$1 billion less in Federal expenditures than we took in in 
revenue, it would require 22,000 years of a $1 billion surplus 
to address a $22 trillion debt. So may I say that, on behalf of 
many Americans, yes, good sir, not only should we decrease our 
budget, but we must, for the future prosperity and 
sustainability of our republic.
    Mr. Secretary, you advised you are mission-focused. You--do 
you stand by that statement?
    Mr. Wolf. I do.
    Mr. Higgins. If you had a mission that called for 100 
agents, and you had 97, would you take the hill?
    Mr. Wolf. We need those agents.
    Mr. Higgins. Damn straight.
    The President's budget, as submitted, is 2.8 percent less 
than last year's fiscal outlay, 2.8 percent. American families 
and businesses from sea to shining sea have to know what it is 
to deal with a 2.8 percent decrease in budget, if they have 
deficit spending that they know is unsustainable.
    So I thank you, Mr. Secretary, for, first of all, being 
courageous enough to appear before this body without a 
subpoena. You are a better man than me.
    We have a duty to secure our border and the sovereignty of 
our Nation. Mr. Wolf, regarding the budget, your budget, do you 
feel confident, as the Secretary of the Department of Homeland 
Security, that the budget, which includes a 2.8 percent 
decrease in fiscal spending, do you feel confident, as the 
Secretary, that you can perform your mission and secure our 
homeland?
    Mr. Wolf. With the President's fiscal year 2021 budget 
request, the Department, across our many missions, can fully 
not only support, but we can excel in our mission space in 
fiscal year 2020 with the budget request, as requested.
    Mr. Higgins. You tell me that, cop to cop, man. You can 
perform your mission?
    Mr. Wolf. Absolutely, because it is not just my opinion, or 
my statement, it is the statement of the entire Department 
leadership. I have had discussions with all of our component 
heads, our operation component heads, as well as our support 
component heads about their budget and their ability to do 
their mission. They all agree that they can do their mission, 
support their mission, and, in some cases, grow their mission 
with the fiscal year 2021 budget request.
    Mr. Higgins. Thank you for your answers.
    Mr. Chairman, I yield.
    Chairman Thompson. Thank you very much. Just for the 
record, those documents that were redacted were not Classified 
documents. You are aware of that, right?
    Mr. Wolf. I am aware that some were not, yes.
    Chairman Thompson. So this notion that they are redacted 
because they were Classified for the sake of my request, we did 
not request Classified documents.
    Mr. Wolf. I understand.
    Chairman Thompson. So we are clear.
    The other issue is for the last 3 years we have had budgets 
way out of balance by this administration. It is not--I don't 
understand the Ranking Member's concern about a balanced 
budget, when we were way out of balance, and those of us who 
came from other units of government, we were mandated to have 
balanced budgets annually. It was the law. So--but the last 
three budgets----
    Mr. Higgins. Will the gentleman yield?
    Chairman Thompson. I will not.
    Mr. Higgins. Since I was named, Chairman----
    Chairman Thompson. I will not.
    Mr. Higgins [continuing]. I ask that you yield.
    Chairman Thompson. I will not yield to the gentleman.
    So the notion is----
    Mr. Higgins. That is very clear.
    Chairman Thompson. Is that we have not had balanced 
budgets.
    So beyond that, the--I want to be sure that we invited you 
to come to present your budget, which is the normal course of 
action, and you accepted. Am I correct?
    Mr. Wolf. I did.
    Chairman Thompson. Were you threatened with a subpoena or 
anything to come?
    Mr. Wolf. I was not.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from New Mexico, Ms.--
well, Mrs. Watson Coleman from New Jersey.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Acting Secretary--sorry. I would like to talk about the 
Trump administration's policy that resulted in the intentional 
separation of thousands of young children from their parents in 
the summer 2018. I am concerned that many of those children 
have not been reunited with their families a year-and-a-half 
later.
    Appallingly, the Department still cannot even accurately 
account for the total number of children separated from their 
parents. Of the 3,014 children DHS was able to identify in 
response to a court order, only 2,155 children have been 
reunited with their parents, according to a November 2019 DHS 
inspector general report. That means 859 children are still 
separated from their parents, or were at that time.
    Have all the remaining 859 children now been reunited with 
their parents?
    Mr. Wolf. So this is an area that we report to the court 
periodically, through the Department of Justice, on where the 
statuses on each of the individual----
    Mrs. Watson Coleman. I am asking you to be--I am asking you 
the question.
    Mr. Wolf. There is a number of children----
    Mrs. Watson Coleman. Specifically----
    Mr. Wolf [continuing]. And a number of parents who have 
refused reunification. There is a number of reasons why not all 
of those children have been reunited. Some are for the health 
and safety of the child. I would say, for the vast majority of 
them, over 2,000 have been reunited.
    Mrs. Watson Coleman. Thanks. Do you have a number beyond 
that, beyond that 2,155? Do you have a number as to how many of 
the 859 children I am asking about? How many of those have been 
reunited? How many of those are still not reunited?
    Mr. Wolf. I can get you----
    Mrs. Watson Coleman. We can talk about the reason for 
that----
    Mr. Wolf. Again, we report through the court to the judge 
on specifically where those individuals in those----
    Mrs. Watson Coleman. OK, when did you last report this----
    Mr. Wolf. I am happy to provide that----
    Mrs. Watson Coleman. When did you last report this to the 
court?
    Mr. Wolf. It would be periodically. I would get you the 
exact date. I don't have the exact date on the last report, or 
the reporting----
    Mrs. Watson Coleman. OK, thank you. I would like to have 
the exact number.
    Mr. Wolf. It is through the Department of Justice that we 
do that.
    Mrs. Watson Coleman. OK, but you have the numbers, and I 
would like to see them.
    Mr. Wolf. Sure, absolutely.
    Mrs. Watson Coleman. If there are children who are not 
reunited for health and safety reasons, I specifically want to 
know how many are in that category.
    Mr. Wolf. We outline where those remaining ones----
    Mrs. Watson Coleman. I want to know.
    The inspector general has also found an additional 1,369 
children that the DHS separated from their parents, and failed 
to accurately record and report to the court. How is it that 
the Department apparently lost track of the fact that it took 
those 1,369 children from their parents?
    Mr. Wolf. Well, we continue--the Department continues, in 
some cases, again, for the health and safety of the child. In a 
number of instances we do separate a child from a parent, 
again, from the health and safety----
    Mrs. Watson Coleman. Yes, this is an issue that really----
    Mr. Wolf. We have done that not only----
    Mrs. Watson Coleman [continuing]. Isn't necessarily 
drilling down into whether or not you are separating children 
for their safety. This is the fact that you all apparently 
lost--either lost track or failed to report to Congress or to 
somebody else 1,369 children who were separated from their 
parents.
    So my question is, how do we lose that many children in the 
system?
    Mr. Wolf. The Department has not lost any children.
    Mrs. Watson Coleman. So then, if you didn't lose them, you 
just--you failed to report them.
    Mr. Wolf. We have not failed to report. We have not lost 
any children. As you know----
    Mrs. Watson Coleman. Well, if you haven't reported any----
    Mr. Wolf [continuing]. No children remain in DHS custody, 
they are all referred and transferred----
    Mrs. Watson Coleman. All right.
    Mr. Wolf [continuing]. To HHS custody.
    Mrs. Watson Coleman. Are you familiar with that number, 
1,369 children?
    Mr. Wolf. I am familiar with a number of numbers.
    Mrs. Watson Coleman. Then I would like to know the status, 
on behalf of this committee, of those 1,369 children who were 
separated from their families, and the information was not 
reported by your Department when asked.
    I would also like to know when do you think these children 
will be reunited, and when will their status be cleared, 
clarified, verified if for some reason they cannot be reunited?
    Then, what will you be doing with them?
    Mr. Wolf. We will get you the status of those 1,369 that 
you referred to. I need to look and see if it is part of that 
court case. Obviously, they expanded the scope of that. So we 
will continue to report to the Congress--or, sorry, to the 
court. But we will provide you an update, as well.
    Mrs. Watson Coleman. So thank you so much. I appreciate 
that.
    Of particular interest to me is that the President's budget 
does increase as it relates to dealing with those things that 
happen on the border. So I would like for us to be able to 
respond in a very timely manner, because then we have to 
respond in a very timely manner in what we think that the 
budget should look like.
    Mr. Wolf. OK.
    Mrs. Watson Coleman. I want to thank you for clarifying 
that the issue with regard to redactions is not just this--what 
this Department does, it is what this administration does to 
every request from this Congress.
    Thank you. With that I yield back.
    Chairman Thompson. Thank you.
    Can you get that information Congresswoman Watson Coleman 
wanted by the 15th, also?
    Mr. Wolf. We will do our very best. I believe we can.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentleman from Pennsylvania, Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman.
    Chairman Thompson. For 5 minutes.
    Mr. Joyce. Thank you, Secretary Wolf, for appearing here 
today, and for your testimony and the work that you and your 
Department do for us at securing our border and enforcing our 
immigration laws. Every day the brave men and women of ICE, 
CBP, and USCIS go to work to defend this Nation from grave 
threats, and are too often criticized or disparaged for doing 
the job that simply keeps us safe.
    The President's budget request again contains a strong 
commitment to border security. While I know that border 
security has not been in the news as much recently, it is still 
so critical that we secure our border, and this remains a 
primary focus area.
    Specifically, the President's budget makes investment in 
staffing levels by hiring an additional 750 Border Patrol 
agents, 300 Border Patrol processing coordinators, and over 
2,800 new law enforcement officers at ICE.
    Also extremely important is the request for nearly $2 
billion for 82 miles of a border wall system.
    Secretary Wolf, can you please speak to how these new 
resources will be deployed?
    Mr. Wolf. Sure. Well, when we talk about securing the 
border, I talk about it in a number of different ways. It is 
not only the physical infrastructure that we need, and the 
capabilities that we have with a new border wall system that we 
are constructing, but it is also additional technology, it is 
also the resources and the people and the staff there to do 
that job.
    So it is--what we talk about is a three-legged stool there. 
So making sure that we have enough border wall system, we have 
that impedance and denial on the Southwest Border. We have 
completed over 130 miles of wall. We have another--over 200 
under construction, and another 400 in the pre-construction 
phase. What that is designed to do is to make areas of that 
border that are difficult for Border Patrol to patrol--put that 
infrastructure up, funnel the illegal flow to areas that Border 
Patrol can better patrol, and use their resources accordingly. 
So there is that piece.
    Obviously, we have a number of technologies outside of the 
border wall system that Border Patrol and CBP uses to secure 
the border that we continue to ask for in the 2021 budget 
request, not only in between ports of entry, but at ports of 
entry with our non-intrusive inspection technology. So we 
continue to do that.
    Of course, we need the resources. So we need the resources 
not only to interdict the number of illegal individuals coming 
into the country, but the illegal narcotics, the contraband, 
and the like.
    But I think what I would emphasize is you not only need 
those individuals to apprehend that information, you need the 
investigators and the other law enforcement officers to 
actually look into if we seize a car at the border with drugs, 
now we need to investigate that. So it is not enough just to 
seize it. We need the additional staff at ICE, Homeland 
Security investigations, and other places that can investigate 
that, that can follow leads, and continue to go down that road.
    Mr. Joyce. Secretary Wolf, with this increased funding, do 
you see a positive effect on the drug crisis that is affecting 
so many counties, States throughout the United States right 
now?
    Mr. Wolf. Absolutely. I would say that that is a whole-of-
Government approach. So certainly DHS is involved in that, and 
there are many others, as well.
    So, when I talk to local law enforcement along the 
Southwest Border, they talk to me about not only the illegal 
flow, but what that means for their communities. Certainly 
narcotics, opioids, and the range of narcotics is a major 
concern for them. Human trafficking is a major concern for 
them. So there is a number of issues that they deal with 
because of that illegal flow on our Southwest Border that we 
are certainly concerned about.
    The--again, the President's budget request continues to get 
at that, not only with the border wall system, with--but the 
additional resources and staffing that we are asking for, as 
well.
    Mr. Joyce. Thank you, Secretary Wolf, for your testimony, 
for your hard work, and for your leadership.
    Mr. Chair, I would like to yield back my remaining time to 
Mr. Higgins from Louisiana.
    Mr. Higgins. I thank the gentleman.
    Chairman Thompson. The Chair recognizes Mr. Higgins.
    Mr. Higgins. I thank the Chairman. I thank the gentleman, 
since my Chairman was unable to yield to my request earlier 
doing our fiscal discussion.
    He expressed some wonderment that I might be concerned 
about a $22 trillion debt. My voting record has clearly 
expressed my concern when we were in the Majority, or when my 
colleagues were in the Majority. Deficit spending is out of 
control.
    But, since my Chairman has expressed his own concern, I ask 
you, good sir, do you support a balanced budget amendment to 
the Constitution?
    I yield.
    Chairman Thompson. The Chair recognizes the gentlelady from 
New York, Ms. Clarke.
    Ms. Clarke. Thank you, Mr. Chairman. I appreciate this 
hearing today.
    Acting Secretary Wolf, I did want to do a follow-up, 
because you mentioned earlier that there were DHS employees at 
a Washington office that had to close, and self-quarantine. You 
said that they would telework.
    Mr. Wolf. Right.
    Ms. Clarke. What happens to those who don't have the 
wherewithal to telework?
    Mr. Wolf. So they won't. I mean they will be self-
quarantined. We ask those that are able to work, that perhaps 
aren't showing symptoms, aren't sick, if they are able to 
telework, please do so. But if those that don't have the 
ability--and, of course, you have to go through a certification 
process----
    Ms. Clarke. Yes, I was going to ask. What--how do you 
account for their time?
    Mr. Wolf. Again, if you are self-quarantined, you are going 
to do that. Again, if you don't have the ability to work, or 
you haven't gone through that certification process through the 
Department, then you are not going to telework. We are not 
going to force you to telework in those cases.
    But again, we would ask those individuals who aren't sick, 
aren't----
    Ms. Clarke. Are they on sick leave? Do they get paid? How 
does that work?
    Mr. Wolf. They would be--they would get paid, but I can get 
back to you specifically on what type of leave----
    Ms. Clarke. Very well.
    Mr. Wolf [continuing]. They would be on.
    Ms. Clarke. You recently announced a massive expansion of 
the Muslim ban, this time banning nearly all Nigerian, 
Eritrean, Kyrgyzstani, Burmese from obtaining permanent visas, 
and ending diversity visa eligibility for Sudanese and 
Tanzanian nationals.
    Last month I led a letter, along with my colleagues, 
Congresswomen Jayapal, Chu, Velazquez demanding a Congressional 
briefing on this new policy by no later than February 28. Today 
is March 3, and I haven't heard a word from you.
    Sixty Members of Congress signed my letter. More 
importantly, approximately 300 million people are banned from 
the United States under this latest ban, including the Rohingya 
flying--fleeing genocide and countless Africans simply seeking 
to connect with family members already here in the United 
States.
    Have you ignored this letter? Have you received this 
letter? When will we be getting this briefing?
    Mr. Wolf. I am happy to take that back. I am happy to 
provide a briefing. I am not aware, specifically, of that 
letter and that request, but I am happy to talk to you.
    I think the Department has a very good new story about what 
we did to institute these measures, and----
    Ms. Clarke. All I need is a response and a date for the 
briefing.
    Mr. Wolf. Sure. We are happy to provide that.
    Ms. Clarke. Very well, thank you.
    This committee, along with the Oversight Committee, wrote 
to you requesting documentation by February 20 regarding the 
Department's justification for barring residents of New York 
State from the Trusted Traveler Program, including Global 
Entry. Along with Representative Rice I also co-led a letter to 
you demanding answers.
    By what date will all of the documents requested by the 
committees, as well as by Representative Rice and myself be 
produced to us?
    Mr. Wolf. I know that production is under way. I can get 
you an exact date. We are happy to provide----
    Ms. Clarke. It seemed like you guys were very quick at 
making this determination, but very slow in giving your 
rationale. There had to be a rationale behind it, right?
    Mr. Wolf. I--absolutely.
    Ms. Clarke. OK, so I just----
    Mr. Wolf. I would disagree, we have been----
    Ms. Clarke [continuing]. Like to get the response.
    Mr. Wolf [continuing]. Up front and very public about why 
we took certain actions.
    Ms. Clarke. I would like to get a response.
    Mr. Wolf. I am happy to do that.
    Ms. Clarke. Very well, I appreciate that.
    In a letter the committees provided an interim response to 
our document request, Secretary Cuccinelli states that the--
excuse me, Secretary Ciccone states that the decision to bar 
residents of New York from the Trusted Travelers Program, 
``involves the Department's primary objective of ensuring that 
our homeland and all of those within it are kept safe and 
secure.''
    Can you please explain how it makes the United States safer 
to allow residents of several foreign countries to enroll in 
the Global Entry program, but to bar residents of New York?
    Mr. Wolf. The specific law that New York enacted prohibits 
information-sharing specifically with ICE and CBP. In this 
case, for our Trusted Traveler Program, when an individual 
applies for the Trusted Traveler or Global Entry, as you 
indicated, we have----
    Ms. Clarke. Those same standards are being given to foreign 
nationals that are on our Global Entry----
    Mr. Wolf. We have a number of agreements with foreign 
nationals----
    Ms. Clarke. Right?
    Mr. Wolf [continuing]. Providing reciprocity.
    Ms. Clarke. We would like to see those documents, as well.
    Mr. Wolf. But what I would say is that the information that 
we require to vet a Trusted Traveler from New York----
    Ms. Clarke. From New York State.
    Mr. Wolf. From New York State, we do not have all of that 
information----
    Ms. Clarke. Right, very well.
    Mr. Wolf [continuing]. Because of information is 
restricted.
    Ms. Clarke. Yes, we understand.
    Mr. Wolf. So I----
    Ms. Clarke. So I would like to just do a comparative 
analysis with all of your foreign folks who are coming in. You 
can provide us with that information, right?
    Mr. Wolf. I am happy to provide----
    Ms. Clarke. Absolutely. Thank you.
    A driver's license is not needed to participate in the 
Trusted Traveler Program. Addresses can also be verified 
through other means, such as passport information, 
fingerprints, background checks, interviews Trusted Traveler 
applicants are required to go through in order to participate 
in the program.
    Prior to your February 5 letter to New York State, what 
outreach efforts did the Department or any of its affected 
components undertake to inform New Yorkers about its perceived 
security concerns?
    Mr. Wolf. Well, obviously, New York passed their law, they 
were very specific--it is a very prescriptive law, so they 
clearly knew what they were doing.
    Ms. Clarke. Yes, what were your efforts?
    Mr. Wolf. We reached out to them. We sent them a letter. We 
indicated that we had concerns, and that we were shutting down 
the program.
    What I had to take into account was making sure that the 
whole Global Entry system was not compromised, but we continued 
to vet and enroll individuals----
    Ms. Clarke. There was no other way of doing that, other 
than banning all New Yorkers?
    Mr. Wolf. Without the information that we have to vet----
    Ms. Clarke. There is no other way of doing it?
    Mr. Wolf. There is not. There is information that----
    Ms. Clarke. OK, very well, I just wanted to have that on 
the record.
    Mr. Wolf. There is information in the DMV database----
    Ms. Clarke. I want to urge you to reverse this decision, 
and to avoid using your authority as the Acting Secretary of 
DHS for other retaliatory actions against States with different 
viewpoints, moving forward.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much. Pursuant to the 
gentlelady's request, can you provide us with whatever 
information you used to cancel the Trusted Traveler Program? I 
think there was a letter sent that you referenced. If there is 
any other documents, please provide those documents, along with 
the letter.
    Mr. Wolf. May I respond?
    Chairman Thompson. Sure.
    Mr. Wolf. I would just say, again, New York law 
specifically prohibits CBP from going into that DMV database. 
They need information contained there that they can only get 
there to vet trusted travelers. They have done that above and 
beyond any other State. There is no other State that prohibits 
that information. So that is specifically why we took that 
action with New York, and for that action alone.
    Chairman Thompson. So I think the question was, when you 
found that out, what kind of engagement did you do with New 
York. Did you call? Did you send emails? Did you text? What did 
you do, once you found that out? I think that is what the 
gentlelady was trying to get.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. You know, Secretary 
Wolf, I am new to Congress. It is an extraordinary thing, I 
think, for someone who is new here to watch what you are going 
through, and the questioning from this panel. We are all, 
presumably, interested in the same objectives, particularly at 
this time, when we face the crisis that we face with 
coronavirus. I would think DHS, in particular, the mission of 
DHS, would warrant all of us striking a more cooperative tone.
    Further, the comments of Mr. Higgins, my friend from 
Louisiana, about the overall fiscal picture, I was struck 
that--so we got that $22 trillion indebtedness that amounts to 
$176,000 per American household, just 2 Federal programs over 
the next 30 years are anticipated to run a deficit of $103 
trillion at this point, which is $824,000 per American 
household.
    So I would say, with respect to the budget submittal that 
we are having this meeting to discuss, I am appreciative of the 
efforts of the administration to identify ways to accomplish 
efficiencies. The gentleman, Mr. Richmond, commented when he 
was still in the hearing that there is--sort-of disparaging the 
idea of efficiencies. But, you know what? We expect American--
the American private sector to accomplish improvements in 
productivity every year. That is key to our private sector's 
growth, so that the public sector can be fed by the revenues 
that come from the private sector.
    So, as a general proposition, do you believe that there 
is--that achieving new efficiencies is a necessary part of 
effective governing of the Department?
    Mr. Wolf. Absolutely. I mean, we have to make sure that we 
are stewards of the taxpayer money, and we are using that 
funding provided by Congress effectively.
    So we continue to look at the threat, we continue to look 
at our programs to see how they evolve, make sure that the 
resources are lined up with that threat, make sure--a variety 
of different considerations going into that budget. There are 
trade-offs. We don't have unlimited resources. So we do have to 
make tough decisions, and we will continue to work with 
Congress. Obviously, Congress has the final say on the 
Department's budget, so we will continue to have those 
discussions, and continue to talk about those trade-offs.
    Mr. Bishop. I wonder if you could speak to the ways in 
which robust border control, which this Congress seems 
sometimes, by some portions of this Congress, to oppose, how 
robust border control contributes to the United States' 
preparedness and capacity to mitigate the harm from the 
coronavirus virus, COVID-19?
    Mr. Wolf. Sure. I think, specifically, probably what you 
are referring to is not only the measures that we have put in 
place at airports of entry, but also at land ports of entry. 
So, when I look specifically at the Southwest Border, and I 
look at today we are seeing anywhere from 1,200 to 1,300 
individuals coming across that border illegally, so as the 
virus continues to grow, that is of concern.
    Because again, those individuals usually are not showing up 
with medical history, or not providing--in most cases, but not 
all, but in most cases--truthful answers to our Border Patrol 
when they are asking them questions. So, whether they are 
trying to hide a particular health history, that is a concern 
as this continues to grow.
    Now, we will continue to talk, regarding another question I 
received with Mexico, to increase their capacity and to 
determine what they are doing to control cases that they have 
in Mexico and--being reported of what they have. So we will 
continue to do that. But I would say the nature of the 
Southwest Border, and the fact that we continue to see over 
1,000 individuals a day cross that border illegally, is 
certainly concerning to me.
    Mr. Bishop. Thank you, Mr. Secretary.
    I want to yield my remaining time to Mrs. Lesko.
    Mrs. Lesko. Thank you, Mr. Bishop, for yielding time, and 
thank you, Mr. Wolf, for your work----
    Chairman Thompson. The gentlelady from Arizona is 
recognized.
    Mrs. Lesko. Thank you, Mr. Chair. Sorry about that.
    I have to go back to Rules, so I am going to ask a quick 
question.
    There is a decrease--I am the Ranking Member on the 
Transportation and Maritime Security Subcommittee, which deals 
with TSA. There is a decrease in funding of $58 million from 
this year's budget to TSA, and there is reduced funding for CT 
scanners and check-baggage screening. That kind-of concerns me. 
Can you tell me why the--you did that?
    Mr. Wolf. So when we talk about the CT scanners in--I 
believe in previous years, but including the fiscal year 2021 
budget request, we will have about 521 new CT systems deployed. 
So we are continuing to look at how do we continue to up that 
number. Obviously, we want to see more CT scanners at our 
Nation's airports. They are detecting the right type of threat 
material that we need them to do. So we will continue to push 
on that front.
    I will say TSA has received a lot of money in 2019 and 2020 
for those systems. So just getting those units out in fiscal 
year 2021 will be a challenge. We will likely see, in future 
budgets, to come back with further funding requests for 
additional CT systems.
    But what we are very cognizant of is making sure that we 
spend the amount of money that Congress has appropriated in a 
timely manner, and pushing those systems out before we come 
back and ask for, again, very large pots of money.
    Chairman Thompson. The gentlelady's time----
    Mrs. Lesko. Thank you very much.
    Chairman Thompson [continuing]. Has expired. The Chair 
recognizes the gentlelady from Florida, Mrs. Demings, for 5 
minutes.
    Mrs. Demings. Thank you so much, Mr. Chairman and Secretary 
Wolf. Thank you for being with us again, and thank you for what 
you do every day to keep our Nation safe.
    I know you know who you are and where you are. I have to be 
reminded that we are the Committee on Homeland Security, and 
that you are the Acting Secretary of the Department of Homeland 
Security. Yes, we should all share a common goal and a common 
purpose, and that is to keep the Nation safe. I believe you 
said that was your mission.
    Mr. Wolf. Absolutely.
    Mrs. Demings. But I am completely disappointed at some of 
the conversation I am hearing today, because it is so laced 
with politics.
    Secretary Wolf, true leaders don't need to be praised every 
day. They don't need Members of Congress to, every time they 
open their mouths, say what a great job the administration is 
doing. I think true leaders are much more interested in results 
that directly benefit the American people.
    I just want to--before I get into what I really want to 
talk about, UASI, I just want to make one thing clear. With the 
coronavirus, I thought we would dominate the time talking about 
your budget and how we can better respond to the coronavirus. 
But doggone it, I have heard quite a bit of talk about the 
wall, and how the wall--and that just simply amazes me.
    You started off your comments earlier, you were talking 
about your employees, and how you had to close an office, and 
particularly looking at travel from China or Iran. Then you 
talked about illegal aliens. That just kind-of took me by 
surprise, because I want to make sure, Secretary Wolf, you were 
not certainly surely suggesting that the problem that we are 
seeing in this country with the coronavirus is the result--or 
it was caused by undocumented immigrants coming across the 
South Border. Is that what you are saying?
    Mr. Wolf. No, I did not say that.
    Mrs. Demings. OK, what did you say? Just for the record. 
Please clear that up for me, because if we stay on that track, 
and what I am hearing from some of my colleagues, we are not 
going to do this correctly. We are going to be--have a screwed-
up response, and we got to get it right.
    Please tell me what your words--why you put the two 
together. What were you saying?
    Mr. Wolf. My point that I made in the opening comments, and 
specifically to the question I just got, was the concerns that 
we continue to see. So we continue to see a number of concerns 
specifically at the Southwest Border in our land ports of 
entry, not only the Southwest Border, but the Northern Border. 
How do we control the illegal immigration that is coming in?
    Oftentimes we--they don't travel with medical history. 
Right? So that is of concern, because the individuals that are 
coming in at our 11 airports that are being funneled, we have 
very good information of their travel history, of their medical 
history. We are not going to have that same set of fidelity for 
the individuals if this continues to grow at the Southwest----
    Mrs. Demings. Did anyone give you any instructions to tie 
the coronavirus to undocumented immigrants coming across the 
Southern Border?
    Mr. Wolf. No.
    Mrs. Demings. No one told you to say that?
    Mr. Wolf. Again, no----
    Mrs. Demings. Let me ask you this. Do you believe that the 
President's obsession with his campaign promise to build a wall 
jeopardizes critical programs to DHS?
    Mr. Wolf. Do I believe that----
    Mrs. Demings. The President's obsession with his campaign 
promise to build a wall----
    Mr. Wolf. No.
    Mrs. Demings. Jeopardizes critical programs at DHS?
    Mr. Wolf. No, it does not.
    Mrs. Demings. OK, let's talk about you UASI because, you 
know, we all represent districts. Doggone it, our first concern 
should not be praising the administration during a crisis, but 
making sure that the men and women that we represent are safe 
and secure, because that is your mission to keep our----
    Mr. Wolf. Right.
    Mrs. Demings. Nation safe. We have seen significant--we 
have seen an increase in public threats, which--that is what 
keeps me up every night, not--but anyway, but I have also 
noticed that funding for UASI has been cut. We know how 
critical it is to local communities. We know how critical it is 
to airports, for example.
    But I know that some of the funding responsibility has been 
shifted to local and State jurisdictions. Could you talk a 
little bit about that, please?
    Mr. Wolf. Sure, and it is the same discussion I had with 
with Congressman King. So we----
    Mrs. Demings. I am sorry I missed it.
    Mr. Wolf [continuing]. Look at--not, that is--we continue 
to look at all of the security grants the Department provides. 
Since the Department's inception, I believe it is about 53 
billion that we provided to State and locals to build up their 
capacity.
    So what we are concerned about is making sure that State 
and locals can build their capacity, but they don't build those 
grants into their baseline budget. So we want to make sure that 
we continue to build capacity, not only in the New York 
Metropolitan Area and others, but for new recipients, as well.
    Mrs. Demings. Do you build capacity by cutting the budget?
    Mr. Wolf. Specifically with the grant program?
    Mrs. Demings. For the UASI funding, yes, for the grant 
funding.
    Mr. Wolf. Well, again, part of that budget proposal is 
cost-sharing, again, between the Federal Government, State and 
locals, and having that shared responsibility. So, yes, that 
is--part of the budget proposal is not only reducing that, but 
it also is that cost sharing part of it.
    Mrs. Demings. Thank you, Mr. Secretary.
    Mr. Chair, I am out of time. I yield back.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from New Jersey, Mr. Van Drew.
    Mr. Van Drew. Good morning, Secretary Wolf, it is good to 
have you here. I am sure you are having a lot of fun.
    I just want to say, from my viewpoint, we maybe shouldn't 
be just saying what a great job the administration or the 
people that work in all the various functions do, but I would 
also like to say we just shouldn't say what a bad job 
everything is, and how wrong everything is, and how terrible 
everything is, because there was a lot of good that was done, 
whether it is at the border--I was there relatively recently. 
Things have improved a lot, but they still need to get better.
    We do need the rule of law, whether it is--and I would like 
to associate my viewpoint with Mr. Joyce, the calm that we need 
to correct during this coronavirus, the fact that we were the 
first to have travel restrictions up, that we were sure to 
work--and we are working with the drug companies to see if 
there are any new vaccines that can be created, and that we 
have isolated folks very immediately that had it.
    If it wasn't for America, if it wasn't for the United 
States of America, this world and this globe in this crisis 
would be in much worse shape. That is largely due to you and 
your people, and the work that you have done. So let's really 
talk about what America does, and what you have done.
    Now, I digressed for a second, because I thought this was 
going to be about the budget, and some of the budget issues. I 
am really interested in the Coast Guard, and I am just going to 
make a statement, and then maybe hopefully have time to ask you 
a few questions.
    You know that Air Station Atlantic City is the largest air 
station in the Coast Guard's fifth district. We also know that 
the Training Center Cape May is the Coast Guard's exclusive 
intake and training facility for folks. The Coast Guard is 
important to my community. It is important to the Nation. It is 
important to everyone, and we need to make sure they have the 
resources that they need.
    While testifying before the Senate Appropriations 
Subcommittee on Homeland Security, you stated that the 
readiness of the Coast Guard continues to be an issue and a 
concern, and that, with the limited budget, you have to focus 
resources. One of the questions, if you can remember them, 
because I just want to go through the whole thing, is the Coast 
Guard adequately funded to perform its missions, which are so 
important? Does it have the resources?
    The second thing is I have been told the Coast Guard has a 
large infrastructure gap. What vulnerabilities does the gap 
create, do you think? Are they serious? What is the Coast 
Guard's strategy for addressing this gap with a limited budget?
    Again, I thought this was about the budget, so I am sorry, 
but that is what I am focusing my issues on.
    Next, I wanted to commend the Trump administration, because 
something we didn't talk--they included an additional $386 
million in the 2021 budget for requests the Coast Guard 
operations and support made. So authorizing the funding request 
will help the Coast Guard address the urgent problems of 
infrastructure gap, which is serious.
    Finally, the Training Center Cape May is, unfortunately, 
falling victim also to the infrastructure gap. There is need to 
authorize and appropriate funds for the renovation of the 
barracks facilities. This project aims to recapitalize the 
barracks to meet the modern standards, and accommodate both 
male and female Coast Guard trainees. It is the most valuable 
part of the organization that make people work. I would like to 
advocate for the project's funding inclusion and authorization 
in this budget so that our Coast Guard men and women can start 
their careers with the facilities and the resources they need.
    As you know, and you deal--these are great men and women--
--
    Mr. Wolf. Right.
    Mr. Van Drew [continuing]. Who serve this country and 
sacrifice for this country. I think that is the conversation we 
should be having.
    Mr. Wolf. Well, I would say I would agree with all of those 
points. I would say that the Coast Guard is, obviously, really 
some of the unsung heroes of the----
    Mr. Van Drew. They are.
    Mr. Wolf [continuing]. Department. They often don't get the 
limelight or the attention that they rightfully deserve.
    When we look at the fiscal year 2021 President's budget 
request, there is a couple of priorities in there for the Coast 
Guard, specifically, that the commandant is very forward 
leaning on. One is the second polar security cutter, so there 
is funding in there for that, but also for their offshore 
patrol cutter program. I believe there is funding in there for 
3 to 4 of their offshore patrol cutters, which will, again, 
sort-of--there is really a push forward. So those are two 
capital assets that they are pushing. The third one, as you 
mentioned, is readiness, making sure that not only their aging 
infrastructure, but also their budget that supports all of 
their capital expenditures--so their operations and support 
budget--continues to match pace.
    What we see with the Coast Guard, because they are in the 
Department of Homeland Security and they are not in DOD, is 
that some of the plus-ups that we continue to see on the DOD 
side, which--rightfully so--we don't often see that----
    Mr. Van Drew. Exactly.
    Mr. Wolf [continuing]. On the Coast Guard side. So, you 
know, over time--and again, not pointing any fingers, but over 
time that that starts to add up.
    So when I talk about readiness, when the commandant talks 
about readiness, we need to make sure that we address that in 
the long term. We start at that in the fiscal year 2021 budget 
request, so there is some assistance and some help that we are 
requesting there, but it is not going to be solved in one 
fiscal year, so we need----
    Mr. Van Drew. I know, but I would like to get on the road. 
I would love to talk, speak with the commandant, and even have 
the President take a look at this, because it is important, as 
well. They are the best men and women that just sacrifice for 
us. As you said, because they are not in DOD, they get the 
short end of the stick.
    Mr. Wolf. Right.
    Mr. Van Drew. So thank you for your service.
    Mr. Wolf. Thank you.
    Chairman Thompson. The gentleman's time has expired.
    The Chair recognizes Ms. Torres Small.
    Ms. Torres Small. Thank you, Mr. Chairman. Thank you, 
Secretary Wolf, for being here today.
    Let's talk about drug seizures at our ports of entry. As 
you know, transnational criminal organizations continue to 
smuggle lethal drugs like heroin, methamphetamine, and 
fentanyl, the primary driver of the opioid crisis, through our 
land ports of entry. However, only about 15 to 16 percent of 
commercial vehicles, and less than 2 percent of passenger 
vehicles that enter the United States through land ports of 
entry are currently scanned with non-intrusive inspection 
technology to detect contraband.
    Now, you know this is a problem. I really appreciate your 
comments about how we need--how our infrastructure at ports of 
entry is outdated, and that we need to invest in them. It is a 
bipartisan issue, and we can--that we would all like CBP to 
prioritize. So when does the DHS intend to reach 100 percent 
deployment of non-intrusive inspection technology at our ports 
of entry?
    Mr. Wolf. Well, what I can tell you is the funding that 
Congress provided in fiscal year 2019, which was about $570 
million, and then additional funding in fiscal year 2020, will 
give us about 660 NII, so that is the large, small, and medium. 
That----
    Ms. Torres Small. My question is about when we are planning 
to get to 100 percent.
    Mr. Wolf. So I am getting there. So by--I hope to have that 
deployed by 2022.
    Ms. Torres Small. 2022? That is great news.
    Mr. Wolf. So that will get, you know----
    Ms. Torres Small. You have a comprehensive plan?
    Mr. Wolf [continuing]. Screening from----
    Ms. Torres Small. I am sorry, that is 2020. That was my--I 
appreciate it. Just--do you have a comprehensive plan for how 
you will get to 100 percent deployment by 2022?
    Mr. Wolf. So we won't--we will not be at 100 percent of 
deployment of those--of that infrastructure, yes, we have a 
deployment plan. When we get deployed by 2023--you mentioned 
passenger vehicles being screened. We hope to go from 1 to 2 
percent up to 40 percent by 2023. On the commercial side, 15 
percent, up to 72 percent, again, utilizing the funding that 
Congress provided for, again, the large, the small, and medium 
NII systems at our ports of entry.
    Ms. Torres Small. That is great. So I am pleased to hear 
that there is a clear plan for getting to 70 percent of 
commercial trucks and 43 percent of passenger vehicles.
    Do you have a longer-term plan for getting to 100 percent 
deployment?
    Mr. Wolf. We do. Obviously, that depends on appropriations 
and support. So we are happy to share that, too.
    Ms. Torres Small. That is fantastic. I would love to get a 
copy of that, and we will add that to--if you can supply it, in 
addition to your testimony later on. Great. Thank you so much.
    I think the reason why it is so important that we have 100 
percent deployment is that, when we get to 73 percent, cartels 
wise up, they shift their routes to less--under-staffed or 
under-utilized ports of entry, where the infrastructure is less 
secure. So I look forward to getting that report for the full 
100 percent.
    So next, just shifting to Border Patrol processing 
coordinators, last year I worked closely with CBP and other 
Members of this committee to draft legislation to authorize the 
hiring of Border Patrol processing coordinators. I am pleased 
that DHS has started the process to hire the first class of 
processing coordinators.
    Mr. Wolf. Right.
    Ms. Torres Small. This position will be particularly 
important. The fiscal year 2020 appropriations bill directed 
the Department to brief Congress on the training requirements 
for processing coordinators.
    Mr. Wolf. Yes.
    Ms. Torres Small. When do you plan to brief us?
    Mr. Wolf. Any time that you would like.
    Ms. Torres Small. OK. Well, wonderful. Do you have the 
information now on what the training is going to look like?
    Mr. Wolf. I don't have the specific training. What I can 
tell you is those--I believe it is 300 processing officers----
    Ms. Torres Small. Two hundred, I believe.
    Mr. Wolf. Two hundred will be on board between May and 
September of this year.
    Ms. Torres Small. So I--we have--I know we have gone 
through a few Secretaries and multiple points of juncture 
where, you know, the--first I requested information about the 
training plans from former Secretary McAleenan and others. We 
all recognize this is a need. We need the information on how 
folks are going to be trained.
    Mr. Wolf. OK.
    Ms. Torres Small. So if you can also supplement your 
testimony with that, I deeply appreciate it.
    Last year's bill appropriations also directs CBP to provide 
humanitarian training to processing coordinators, such as 
emergency medical care and child abuse and neglect. How have 
you ensured that processing coordinators will get that type of 
training?
    Mr. Wolf. Again, I am happy to provide the training that 
they will receive. Obviously, they--we build that training with 
CBP's training program. So I am happy to get that for you.
    Ms. Torres Small. Great. Thank you so much. Continuing on 
the training and the important work that we need for them to 
do, one of the key reasons we needed them is to help transport 
migrants, especially on long rural routes. The transportation 
duties can take Border Patrol agents off the field. But I have 
recently learned that coordinators will contact transportation 
tasks with an agent escort. Can you please confirm that that is 
the current plan?
    Mr. Wolf. I can't, but I will take that back and let you 
know.
    Ms. Torres Small. OK. That is something I am concerned 
about. Because, as we know, if--part of the reason we 
authorized this money was so that we could keep Border Patrol 
agents on the line. So then continuing to use a Border Patrol 
agent----
    Mr. Wolf. Sure.
    Ms. Torres Small [continuing]. To help escort really 
undermines the efficiency of that work.
    Mr. Wolf. Let me discuss with CBP, and we will get you 
those answers.
    Ms. Torres Small. Thank you, Secretary Wolf.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from Tennessee, Mr. Green.
    Mr. Green of Tennessee. Thank you, Mr. Chairman----
    Chairman Thompson. Thank you. You probably need to punch 
your mike on.
    Mr. Green of Tennessee. How is that, sir? Better? Thanks.
    I just want to make everybody aware that TEMA has announced 
19 dead now in Tennessee. So if you could keep Tennesseans in 
your prayers, we would greatly appreciate it.
    Thank you, Mr. Secretary, for being here. You are doing a 
great job. Thank you.
    When we cobbled DHS together at 9/11, we took 22 agencies 
and kind-of put it all together. Unfortunately, we didn't 
change the requirements for reporting mechanisms to Congress. 
So you report to, like, over 100 committees and subcommittees. 
Could you tell me how much of your budget is wasted reporting 
to so many committees?
    Mr. Wolf. I think that is a tough question to answer. There 
is a lot of time that goes into responding to all the different 
requests from the committees and, obviously, different letters. 
Again, it is part of the oversight process. We are happy to do 
that, but it is exponential at the Department----
    Mr. Green of Tennessee. It is arduous, I am sure.
    Mr. Wolf. At headquarters, just alone, we receive anywhere 
between 40 and 50 letters a month. That is just at 
headquarters. Obviously, our individual components receive 
similar amounts. So having to respond to research, it does take 
individuals off the front line of their primary security 
responsibility to produce documents, to go back and make sure 
that that is presentable----
    Mr. Green of Tennessee. Is it----
    Mr. Wolf [continuing]. To various Members of Congress. So 
it is a very, very heavy lift. We are happy to provide that 
oversight, but yes, I would----
    Mr. Green of Tennessee. If you----
    Mr. Wolf. I would certainly encourage trying to shrink down 
the amount of oversight that the Department has.
    Mr. Green of Tennessee. Well, it is not that we want to 
minimize oversight, we want to streamline it.
    You know, if you look at DOD, they report to, like, 40 
committees, and they are 3 or 4 times--probably 4 times the 
size of DHS. So I just want us to try to provide some 
efficiencies for you.
    Also, it is the same with your task organization. It looks 
in the task organization as if you have 22 different agencies 
all reporting to you. Is there some kind of streamlining that 
you could do that would save money, save--make your Department 
more efficient, in terms of your task organization?
    Mr. Wolf. Well, we do. We have a number of operational 
components. They, obviously, report to the front office, so 
they do that not only with the Secretary, but also with the 
Deputy Secretary at DHS.
    As of right now, I would say that the organization of the 
Department is solid.
    Mr. Green of Tennessee. OK.
    Mr. Wolf. I have looked at it. I know previous Secretaries 
have looked at it, have made changes over the years. But where 
it is at now, we can always fine tune, we can always do a 
little bit better. But I don't see any wholesale reorganization 
of the Department, in my view.
    Mr. Green of Tennessee. OK. On those redactions, I assume 
that migrants are eligible for the protections of HIPAA. I know 
there are other medical personnel on the committee, and maybe 
they can comment on this. But I would suggest that that may be 
the reason why--the Health Information Portability Protect Act 
is why there is so much redactions on those medical forms. But 
that is, I am guessing, what your legal counsel is doing.
    Let me go on to something else, too. The Chairman mentioned 
increasing screenings of COVID-19 patients at the border, yet 
others on the committee have beaten you up for mentioning that 
the Southern Border is a risk for COVID. I just want to assert 
that I think that is a little bit hypocritical. I agree with 
the Chairman. I think those screenings need to be increased.
    Could you clarify, too, that--does this budget increase CBP 
positions?
    Mr. Wolf. It does.
    Mr. Green of Tennessee. OK. Do you have CBP vacancies right 
now?
    Mr. Wolf. I am sure we do. What I can tell you is, over the 
last 2 fiscal years, we have been able to hire more Border 
Patrol agents than we have lost.
    Mr. Green of Tennessee. Oh, good.
    Mr. Wolf. So it wasn't----
    Mr. Green of Tennessee. So you are on a net positive for 
the----
    Mr. Wolf. We are. So that wasn't always the case. We have 
historically had a difficult job hiring and bringing those 
individuals on board. So I would say we are on a good 
trajectory over the last----
    Mr. Green of Tennessee. So you are a net positive, and that 
is to be commended, by the way, because I think that is a 
relatively new thing at CBP.
    So my question, then, may not be necessary. My question was 
what are you going to do to ramp up recruiting efforts. It 
sounds like you have done so, and you have got a positive 
response. Now, if you want to elaborate----
    Mr. Wolf. So we do. We have a fairly expansive recruiting 
effort, retention bonuses, we have a whole plan to not only 
bring in new Border Patrol agents, but to make sure that we 
keep those that are there.
    We do that through change of where they operate. Obviously, 
sitting--you know, being on the border year over year, some 
individuals in the Border Patrol want to go to different duty 
locations.
    Mr. Green of Tennessee. Sure.
    Mr. Wolf. So we provide that. We also provide retention 
bonuses, and the like. So we have an aggressive campaign to 
make sure that we hold our best and brightest, but also bring 
in new Border Patrol agents.
    I would just say that I was in Artesia, New Mexico probably 
3 weeks ago, and had the opportunity to preside over a 
graduating class of the Border Patrol. There were 25 or 30 
folks there, just really excited to be part of the Department, 
to be part of Homeland Security, and to be part of securing our 
Nation.
    Mr. Green of Tennessee. Thanks. Good job. I yield.
    Chairman Thompson. Thank you very much. Just for the 
record, HIPAA doesn't apply to Congress. So----
    Mr. Green of Tennessee. Oh, it doesn't?
    Chairman Thompson. No, it doesn't.
    Let me recognize the gentleman from Missouri, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman. If I can, I would 
take 30 seconds to say--because I think sometimes we create 
problems not because we are just mean-spirited or something, 
but maybe we don't know.
    I have been here a while. In fact, if I had not had to 
leave this committee, I would be the third person in seniority 
on this committee. So people--when we have Secretaries, no 
matter what department, Congress Members, Republicans, 
Democrats, San Francisco 49ers, any--I mean everybody asks 
questions about that Department. If they have specific 
questions about the budget, they will ask those questions.
    So I--this may be a fight we don't even need to have. This 
has been going on long before any of us came to Congress, or 
maybe even were born. So you know, we have a lot of this little 
chirp-chirp-chirping today, and any other committee you go to, 
people are going to ask questions that they want to ask the 
Secretary.
    Mr. Secretary, thank you for being here.
    Mr. Wolf. Thank you.
    Mr. Cleaver. From whom do you need approval to make a 
statement, issue a press release, or do whatever about coercive 
monopoly, coercive price gouging, also known as coercive 
monopoly?
    There are reports that hand sanitizers and other products 
that now--that Americans are using are--the price is being 
raised all over the country. I don't know what--it is 
unimaginable to me that a walking, talking, breathing human 
being can do something so nasty at a time like this for money.
    Can--is there a short answer you can give me about what we 
can do?
    Mr. Wolf. I wouldn't--you know, again, from my position, I 
wouldn't specifically--you asked if I could issue a press 
release or a statement. I wouldn't specifically do that. I make 
sure that, when I issue statements or press releases or 
anything else from the Department, it is specifically to our 
mission, to our authorities, and to our budget, making sure 
that we do that.
    So I would work with, obviously, the larger task force. I 
believe you are referring to the coronavirus and----
    Mr. Cleaver. Yes.
    Mr. Wolf [continuing]. Some of the medical issues there, 
and hand sanitizer, and the like. So, obviously, we would work 
with the task force to make sure that we address.
    Mr. Cleaver. All right, thank you. It--we don't have a 
Federal law. There has been an attempt to do it a number of 
times. But a number of States do have those laws, because of--
like Florida, you know, a hurricane hits, and prices go up, 
which I think is just morally obscene.
    The other thing--and I will do this quickly and, if you 
can, answer it quickly--my Congressional district includes 
Kansas City, Missouri. What we find is UASI funding has been 
cut. If you look at the list of the cities that get UASI 
funding, they are, generally, the largest in the State, and--
except when you come to Missouri. I don't know if somebody just 
failed to look--Kansas City is significantly larger than any 
other city in the State of Missouri. We have 116 communities, 
3,800 square miles. We are the second-largest rail hub in the 
country.
    So our UASI funding is zero, and I don't understand it. 
Maybe you could check, or have somebody on your staff to check 
to find--yes, sir?
    Mr. Wolf. Well, what I would offer is to have the 
individuals at FEMA--so there is sort of a complex decision-
making matrices that they go through to identify those 
jurisdictions and those areas that are available for that 
funding. So I am happy to have them come up and walk you 
through, and they will talk to you about different categories, 
and how your specific area, Kansas City, ranks against others, 
and what they are looking for to make that list. So I think 
that is probably going to be the best thing I can do.
    Mr. Cleaver. Thank you. That would be helpful, because I 
can give them--I can answer questions----
    Mr. Wolf. Right.
    Mr. Cleaver [continuing]. From the business community and 
others.
    There are a number of reports that have detailed racist and 
sexist comments posted by CBP personnel on Facebook. I think it 
is called ``I'm 10-15,'' something like that. Then an article 
in the Washington Examiner quoted, you know, some of the Border 
Patrol leaders as making some very nasty statements. One of the 
gentlemen--I mean, the--actually, the Washington Examiner named 
an individual.
    So did CBP or DHS investigate this issue surrounding 
Facebook and 10-15?
    Mr. Wolf. Yes, I believe that would--occurred last year. So 
the investigation has been completed, a number of individuals 
have been removed from office.
    I would say that, obviously, what I saw of that, from my 
position in the Department, is not representative of 99.9 
percent of Border Patrol agents. So I want to say that at the 
outset. The vast majority of those were not involved in there. 
So I want to make sure that--we always have a few bad apples, 
and we will deal with that, and we will address that, we will 
investigate that, and we will take appropriate personnel action 
against that. But it is not--it certainly doesn't reflect on 
the entire Border Patrol.
    Mr. Cleaver. Yes, I didn't suggest that I--I am interested 
about--in this situation. It looks like it has been handled. If 
I could get information on that, that would be helpful.
    Mr. Wolf. OK. There will be some privacy issues, but we 
will share everything that we are able to.
    Mr. Cleaver. OK----
    Mr. Wolf. About specific individuals, obviously.
    Mr. Cleaver. Yes. I mean, that's why I didn't call the name 
of the person.
    Mr. Wolf. Right.
    Mr. Cleaver. I was down on the border 2 weeks--3 weeks ago, 
and I didn't tell them I was a Member of Congress, I didn't 
wear my pin. I went--and they thought I was an attorney. I have 
to say that the security personnel down there were 100 percent 
respectable. I--you know, and I shared that--my thoughts with 
them when I was leaving, because somebody walked in and saw me, 
and said, ``Congressman Cleaver,'' and blew my cover.
    But I think I needed to say----
    Mr. Wolf. Which port of entry were you at?
    Mr. Cleaver. We were in Brownsville.
    Mr. Wolf. OK, I will pass that along to them. Thank you.
    Chairman Thompson. The gentleman from Missouri's time has 
expired.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    Check with your lawyers, Mr. Secretary. I think they will 
tell you the privacy law doesn't apply to Congress, either. So 
try not to get an answer back with a bunch of redactions. I am 
trying to get Mr. Cleaver his information.
    Mr. Wolf. Sure.
    Chairman Thompson. So, Mr. Cleaver, I am sure you will get 
it.
    Can he get it by the 15th?
    Mr. Wolf. I will check. Yes, Chairman. My intention will be 
to get it to you by----
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from Illinois, Ms. 
Underwood, for 5 minutes.
    Ms. Underwood. Thank you, Mr. Chairman. I want to start by 
following up on something that Secretary Wolf just disclosed in 
his opening statement.
    Last night you closed a DHS facility in Washington State in 
response to the coronavirus, sir, and ordered its employees to 
self-quarantine for the next 2 weeks. Then, this morning, the 
Washington Post reported that a DHS employee in Newark reported 
to work on his--on her boss's orders, in violation of a 
coronavirus quarantine.
    DHS personnel have been on the front lines of responding to 
the coronavirus at airports, at the border, in helping to 
prepare, and risk management over at FEMA, and coordinating 
outbreak response with other agencies. In these front-line 
roles, they have also had an elevated risk of exposure.
    As of today, do you expect further closings of DHS 
facilities or facility-wide DHS staff quarantines due to the 
coronavirus?
    Mr. Wolf. We will take that on a case-by-case basis. What I 
can tell you is that we continue to provide our CBP officers, 
our TSA officers all of the information, training----
    Ms. Underwood. Sure.
    Mr. Wolf [continuing]. Their protective equipment that is 
required, as well----
    Ms. Underwood. But certainly you have a scope that exceeds 
ours right now, sir. So I am looking for a yes or no. Do you 
expect to need to make additional closings----
    Mr. Wolf. I am not going to contemplate on what could be 
potential closings. We will take that on a case-by-case basis.
    Ms. Underwood. As a nurse, a public health expert, and a 
former senior advisor at HHS's ASPR, I know that a whole-of-
Government approach is necessary to respond to the coronavirus.
    Last week you were asked about a coordination with CDC. Can 
you please provide a detailed update on exactly how DHS is 
working with the Centers for Disease Control and Prevention and 
State and local public health departments to respond to the 
coronavirus?
    Mr. Wolf. Sure. So we are working with them every day. So 
every single day we have task force meetings, not only at the 
senior level of the task force, but also individually.
    We talked about--earlier about our chief medical officer 
talking with and collaborating not only with HHS, but with CDC. 
We have other individuals collaborating with ASPR, as well. So 
we are fully linked up with both HHS, CDC, and others on making 
sure that, if we need to change our operational tempo, our 
operational requirements, and the decisions that we have taken, 
which I have outlined here, that we do so from making sure that 
the medical strategy, once it changes, as it evolves, that we 
change our operations at our air ports of entry, our land ports 
of entry, maritime, we continue to support in a supporting role 
HHS.
    So, as I talked earlier, our science and technology 
directorate, our NBACC facility is also characterizing the 
virus on behalf of the CDC. So we are providing support to 
them, and will continue to do that. They tell us to change 
direction, we will change direction.
    Ms. Underwood. Great. This weekend, when I was back home in 
Illinois, I heard concerns from families whose kids had been 
studying abroad in countries like Italy and in Korea, with 
active outbreaks. What is your Department's role in 
coordinating with CDC, the Education Department, and other 
Federal entities to bring these kids home safely?
    Mr. Wolf. So we will continue, again, through the task 
force. There has been a number of travel advisories----
    Ms. Underwood. Sure.
    Mr. Wolf [continuing]. That we have put out, and so we are 
part of that process, and that collaborative process to inform 
the administration. Then, certainly, the administration, State 
Department, issues those travel warnings. CDC issues travel 
warnings separately----
    Ms. Underwood. Right.
    Mr. Wolf [continuing]. As well----
    Ms. Underwood. I was speaking about the experience of these 
Americans that are being repatriated. So I just want to see if 
there is anything specifically that you are doing with these 
young people.
    Mr. Wolf. Again, you are talking about specific students 
that are overseas studying, that are then coming back?
    We will continue--as we saw in China, when we repatriated 
individuals from China, specifically, that was mainly through 
the State Department. DHS will, obviously, play a role in that, 
as we process those individuals coming back into the country. 
But that is mainly a State Department role if they--as they 
repatriated a number of individuals from China on specific 
flights.
    Ms. Underwood. OK. So let's return to the DHS employees on 
the front lines of the coronavirus response. Their job is to 
keep us safe. To require them to violate CDC's best practices 
for keeping themselves safe from the coronavirus, not only do 
they interact with thousands of overseas travelers each day, 
but they are conducting screenings and pat-downs in extremely 
close quarters.
    Mr. Wolf. Right.
    Ms. Underwood. So what measures have you put in place to 
minimize the risk to the DHS employees from the coronavirus?
    Mr. Wolf. So I am not sure that I would agree with the--
characterizing that they are not following CDC procedures, 
because that is specifically what we have provided them, that 
is what we provided specifically to CBP, as well as TSA 
officers. We are providing them, again, not only the literature 
from CDC, the training, but also that protective-wear.
    So when we specifically talk about protective wear, we are 
talking about gloves and masks and the like, and we are doing 
that optional. So we don't require them to do that. They can do 
that if they choose to do so. We have several unions at the 
Department that we are working with on that, as well. It is a 
union issue, as well.
    So we continue to work with them, provide them all the 
materials and all the protective gear that they--if they choose 
to use it, they certainly have it there at hand to do so.
    Ms. Underwood. OK. Well, the information that we are 
receiving doesn't suggest that it is in complete alignment. So 
if you would be willing to provide us with a copy of the 
guidance documents that you have offered to your employees, 
that would be really helpful for us to do our oversight work.
    Mr. Wolf. So we can do that through our CWMD office, as 
well as specifically with CBP and TSA.
    Ms. Underwood. Great. I yield back, Mr. Chairman, thank 
you.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from Mississippi, Mr. Guest, for 5 
minutes.
    Mr. Guest. Thank you, Mr. Chairman.
    Mr. Secretary, first I want to thank you for being here. I 
want to thank the men and women that serve under you for their 
service to our country.
    Over the last year you and your Department has--have faced 
a growing and continued crisis of illegal immigration along our 
Southwest Border. Now your Department is providing some of the 
front-line response activities as we are battling the 
coronavirus.
    Mr. Wolf. Right.
    Mr. Guest. So I know that you spoke earlier that the chief 
medical examiner for the Department of Human Services has been 
coordinating with CDC, that you have also been coordinating 
with other partners. What do you see his role continue to be, 
as we move forward, in making sure that we are properly 
screening individuals that enter the country?
    Mr. Wolf. So we use our chief medical officer in a variety 
of different ways, but he is, as his title suggests, our chief 
advisor when it comes to any medical issues, not only with our 
work force, but also how we protect the American public. So he 
is the primary interface with a number of CDC specialists, HHS 
specialists in looking at how this virus spreads, the impact on 
the work force, how to protect the work force.
    So not only this individual, but his staff is intimately 
involved in all of those discussions. He is advising senior 
leadership about that, and is also in tune with what the task 
force is advising, as well.
    Mr. Guest. Could you talk just a little bit about DHS's 
role in coronavirus screening at ports of entry?
    Mr. Wolf. Sure. So, as I mentioned earlier, specifically 
where we see the largest number are at the 11 airports that we 
are funneling passengers to. So CBP, thus far, has referred 
over 50,000 passengers to our medical professionals to screen. 
They have cleared over 21,000 passengers. They have referred 
another 30,000 for self-monitoring. We have refused entry to 14 
passengers at U.S. airports, and refused entry for another 102 
passengers at PreClearance airports. Those are airports 
overseas that we do clearance procedures at.
    So the Department has an everyday role of making sure that 
we keep sick individuals from coming into the country that are 
on these travel restrictions. Those that do come here, 
Americans that do come here, they get the right medical 
screening and they get the right treatment to making sure that 
they--obviously, make sure that they, themselves, are safe, but 
also their communities are safe. So that is just--that is our 
operators.
    Then we have a whole support mechanism that supports them 
through our science and technology directorate. As you 
mentioned, our chief medical officer, as well as others that 
support what they do every day.
    Mr. Guest. Well, and Mr. Secretary, you mentioned earlier 
that you and your agency are taking all the steps possible to 
mitigate any risk to any of our health care providers, any of 
our front-line officers who are involved in the screening 
process.
    My question to you is, do you believe that the use of 
technologies such as telehealth could be helpful as we are 
going to see these screenings increase at ports of entry?
    Mr. Wolf. I do. I think so. I would, obviously, defer on 
the efficacy of that to CDC and HHS. But I think any and all 
options should be on the table.
    As we continue to see--as I mentioned at the outset, we 
have a facility in King County, Washington State, that has shut 
down. We are--we could see more of that, depending on how this 
situation unfolds. So any ability that we are able to not only 
telework, but do the telemedicine, as well, I think would be 
helpful.
    Mr. Guest. Mr. Secretary, would you agree that, just from a 
public health perspective, this--it is important for the United 
States to adequately screen those entering the country, and 
that, if we are screening, whether it be for coronavirus or 
some other contagious health care issue, that we are only able 
to screen those individuals that come through ports of entry.
    So, if you have individuals who are crossing into the 
country illegally, assuming that those individuals are not 
apprehended by Border Patrol or law enforcement after they 
enter the country, that it is at that point impossible for us 
to screen those individuals. Those individuals could then enter 
the country, and they could either intentionally or--in most 
cases--unknowingly impact hundreds, if not thousands, of 
individuals with the coronavirus before they became ill and 
started showing symptoms and were later hospitalized.
    Mr. Wolf. Sure, that is, obviously, a very real concern, 
and one I--we talked about earlier.
    Obviously, at maritime ports of entry and air ports of 
entry it is much easier to corral individuals and funnel 
individuals into the appropriate places. So when we look at our 
land ports of entry, yes, ports of entry is where we would like 
to do that screening. They have the infrastructure, they have 
the staff available.
    As I mentioned earlier, today we are seeing anywhere from 
1,200 to 1,300 individuals continue to cross the border 
illegally. So that is not at a port of entry. Those are 
individuals that Border Patrol is picking up, have to process. 
So, yes, as this expands, the ability for those individuals to 
be screened and screened appropriately is a concern.
    Mr. Guest. Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentleman from Texas for 5 minutes, Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here. I really commend the work of DHS to 
combat human trafficking, and I was pleased to attend your 
human trafficking strategy roundtable in January, and the 
implementation of the Blue Campaign training at FLETC, the 
Federal Law Enforcement Training Center.
    I look forward to consideration and passage of my DHS Blue 
Campaign Enhancement Act, H.R. 5804, and I want to thank my 
friend, Representative Val Demings, Ranking Member Rogers, and 
Representative Sylvia Garcia in joining me on that important 
legislation.
    Secretary Wolf, can you just briefly discuss some of DHS's 
effort to combat human trafficking?
    Mr. Wolf. Yes. So we issued a strategy in the middle of 
January, which was the first time the Department has ever done 
that. It is a strategy--all human trafficking and forced labor, 
or goods produced with forced labor. We continue to be very 
forward-leaning on that.
    And the reason I thought that was important to produce that 
strategy was to send a signal to the rest of the Department 
that, as they continue to prioritize and build their budgets, 
they need to do that with human trafficking in mind, devoting 
the appropriate resources to that.
    So again, the first time the Department has ever done that, 
and made human trafficking a priority, and will continue to do 
that. Inside that strategy there is about 40 different action 
items that we are continuing to put into an implementation 
plan, anything and everything from having to do a full threat 
assessment on human trafficking to continuing to hire victim 
assistance specialists, making sure that we have a victim-
centered approach with our work and with our law enforcement 
officers.
    Science and technology is looking at what they can do, so 
there is a number of actions within that strategy that is 
pushing throughout the Department----
    Mr. Crenshaw. Great. It sounds very cross-functional. Can 
you discuss ICE's role in combating human trafficking?
    Mr. Wolf. Sure. I would say that ICE has probably the 
largest role within the Department. Specifically, their 
Homeland Security Investigations, or HSI.
    Mr. Crenshaw. That is important to note, because everybody 
talks about banning ICE--not everybody, of course, but a lot of 
my colleagues talk about banning ICE. I think it is not always 
pointed out that ICE plays the biggest role in combating the 
scourge of human trafficking, and we should absolutely note 
that.
    I want to move on to disaster relief. That is a big issue 
coming from Houston. My constituents, after a disaster, often 
fail--often face a web of different options on where they can 
get relief from, whether it is FEMA, or HUD, or SBA. It can be 
extremely confusing when you are trying to rebuild your home.
    I want to get your take on this. Rather than having post-
disaster recovery and long-term housing issues split among 
these different agencies--FEMA, HUD, SBA--would it be 
beneficial to consolidate a lot of this under FEMA?
    Mr. Wolf. I think FEMA has started to do that. So I know, 
under the former administrator, Administrator Brock Long, as 
well as--that continue today, is they are actually trying to 
streamline that, and trying to make it easier for individuals 
that are affected by natural disasters.
    So what we have heard over time is if your house is 
destroyed by a natural disaster, you may have 3 or 4 different 
inspectors--1 from DHS, 1 from FEMA, HHS, you know, housing--
all coming out and knocking, asking similar questions. So yes, 
they are currently assessing and putting together a strategy on 
how do you consolidate that, how do you make it easier for that 
individual that has been affected, so perhaps they only get 1, 
maybe 2 visits, instead of the 3, 4, 5.
    So yes, I would agree that any time we consolidate or 
streamline, that is going to be----
    Mr. Crenshaw. Yes, I am sure there would be a lot of 
bipartisan support for such a thing. Disasters don't just 
strike my district, they strike a lot.
    I want to talk about border security. Last year, when we 
did this hearing with Secretary Nielsen, we were in a crisis. 
We were seeing over 100,000 illegal crossings per month, in 
many cases, sometimes much more than that. A lot of that was 
family units, too, which made the problem all the more 
difficult to deal with minors coming across the border.
    Since then, illegal crossings have decreased dramatically. 
It seems that a large part of that is because of migrant 
protection protocols and increased cooperation with the Mexican 
Government. What else can we be doing? What would be your top 
items that you need from Congress to get a handle on our 
Southern Border finally, once and for all?
    Mr. Wolf. Yes. So I would say that we still remain in 
crisis mode along the Southern Border. As you mentioned, the 
numbers have dropped pretty substantially. However, it is not 
only myself, but predecessors of mine would say if you are 
apprehending over 1,000 folks a day, that is a bad day, and you 
are in a crisis.
    So, as I have mentioned earlier, we are apprehending 
between 1,200 and 1,300 a day, still. So the crisis is still 
there. The impacts on CBP, ICE resources are still there.
    As you indicated, the strategy that we put in place over 
the last 4 to 5 months is working--6 months is working. 
Partnerships are vitally important with the Northern Triangle 
and Mexico, but some of the programs like MPP, like ENV and 
some of the other programs that we put in place, are absolutely 
making a difference. They are allowing us to control that 
inflow coming in, allowing us to process individuals quicker, 
providing them immigration hearings quicker for their 
meritorious claims. And those that don't, we are trying to root 
out the fraud there.
    We will continue to talk with Congress on additional 
authorities that we need. We have been doing that for several 
years, trying to address Flores, asylum. So we will--I am happy 
to continue to talk to Congress.
    I did want to thank Congress for, obviously, providing us a 
supplemental last year that addressed the crisis and the surge 
that we had.
    Mr. Crenshaw. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you. The gentleman's time has 
expired.
    A request has been made for a second round of questioning. 
Ranking Member, you have a question you want to ask?
    Mr. Higgins. I do, Mr. Chairman, and thank you.
    To dive in a little deep into your budget, I suspect, Mr. 
Secretary, this is reflective of many isolated sections of the 
total budget request. But you have stated in your statement on 
page 7, about halfway through the page, regarding the need for 
increased detention beds for ICE, and this is due to 
historically high numbers of crossings being processed.
    Mr. Wolf. Right.
    Mr. Higgins. You have a statement here of forecasting 
models reinforce the need for an increase in ICE's detention 
beds to 60,000. You go on to state that the budget includes 
$3.1 billion for this capacity increase.
    Now, if I have calculated this correctly--and perhaps I am 
misunderstanding your statement--that would equate to $51,600 
per bed, if that encompasses the entire 60,000 beds, and the 
$3.1 billion being dedicated for that purpose. Would that 
include the care for the people in the bed, and----
    Mr. Wolf. Yes, there is----
    Mr. Higgins. Please explain.
    Mr. Wolf. There is a lot built into that. I would say our 
single bed daily rate is about $125, $130 a day. The family 
beds are a little bit more expensive than that. But yes, it 
includes not only the beds, but the administration----
    Mr. Higgins. All the personnel that----
    Mr. Wolf. Of all of that, yes.
    Mr. Higgins. To----
    Mr. Wolf. We were at----
    Mr. Higgins. Care for that person----
    Mr. Wolf. I would say that we were at 56,000 beds in August 
of last year, so we continue to look at our modeling, looking 
at, obviously, past events, seasonality, and where we go. So, 
obviously, the 60,000 requests is in the fiscal year 2021 
budget request.
    I will say it hit very real last Friday, when we had the 
MPP decision. It was stayed several hours later. But as I 
indicated in my opening remarks, we had thousands of migrants 
lining up to come into the country. We are going to have to 
detain them as we process them. So making sure that we have 
enough bed space to detain through the pendency of their 
immigration proceedings is absolutely critical.
    The administration, I will say, has done a number of things 
to speed that process up, so that we can give folks that need 
the protections, that need the asylum protections, or any other 
protections that they are seeking, get them that hearing 
quicker, while at the same time rooting out the fraud.
    Mr. Higgins. Thank you for clarifying that.
    I would like to close on a positive note. In your statement 
you have clarified that the United States Citizenship and 
Immigration Services, USCIS, naturalized 833,000 new citizens 
last year, which is an 11-year high.
    Mr. Wolf. Yes.
    Mr. Higgins. Can you confirm that that is an accurate 
number, sir?
    Mr. Wolf. That is accurate.
    Mr. Higgins. So 833,000 new American citizens have sworn an 
oath of citizenship and become naturalized citizens in our 
great country. Is that correct?
    Mr. Wolf. It is. We often say--and it is absolutely 
accurate--that we are one of the most generous countries out 
there, and we continue to process individuals coming in for a 
variety of different benefits. We just ask that you do that the 
legal way and the correct way. So we will continue to----
    Mr. Higgins. Roger that.
    Mr. Wolf [continuing]. Process those individuals.
    Mr. Higgins. We support that. So welcome to the 833,000 new 
American citizens, and thank you, sir, for the job that you are 
doing.
    Mr. Chairman, I yield.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentleman from California for 5 minutes, Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman. Again, I want to thank 
you, Acting Secretary Wolf, for being here today. I want to 
shift gears a little bit and talk about an important issue in 
California, the Real ID.
    Mr. Wolf. Yes.
    Mr. Correa. Two weeks ago I had the honor of spending 3 
hours at the local DMV office to get my Real ID. I got there at 
6:30 in the morning. I get in front of the line, people already 
waiting in line.
    Mr. Wolf. Yes.
    Mr. Correa. Three hours later I had my--completed my Real 
ID process.
    October 1 is the deadline. We probably have--it is 
estimated by DHS--35 percent of Americans don't have Real ID 
yet. In California an estimated 20 million drivers still don't 
have Real ID. So we may be looking at a real train wreck here. 
October 1 people can't fly. They need to fly.
    Mr. Wolf. Right.
    Mr. Correa. Any thoughts how we can move forward on this? 
Are you going to move the deadline? Any suggestions?
    This was a law that was put into place, I think, 2005.
    Mr. Wolf. Right.
    Mr. Correa. We are trying to comply with it by October 1. 
Please.
    Mr. Wolf. So I would say it continues to be a priority for 
the Department. So the Department's main responsibilities in 
this area is to make sure that we continue to educate folks 
about this.
    So individual States produce the Real ID. So they are 
compliant, and then they start issuing those. As you indicated, 
the law passed in 2005, 2006. We think a 14- to 15-year 
implementation plan is sufficient. But the stat that you 
mentioned is an accurate stat: About 35 percent of the IDs in 
circulation we estimate right now are Real ID-compliant. So 
that is one-third. So, as October 2020 looms, we are growing 
concerned.
    What I directed--we issued a request for information, I 
should say, to say to the industry--not only the airline 
industry, but to the tech industry--how can we streamline this 
process?
    So we instituted a measure a couple of weeks ago that 
allows individuals, once their States stand this up, to submit 
their documents electronically to the State DMV. What we hear 
often is that individuals show up and they have the wrong ID, 
they didn't bring a utility bill, or they don't have the right 
passport, they don't have the right underlying documents. So 
they wait in line, you may wait for 2 hours, you are sent home, 
and you have to come back.
    So trying to submit that----
    Mr. Correa. Mr. Wolf, that happened to me. I was asked for 
my original Social Security card.
    Mr. Wolf. Right.
    Mr. Correa. You ask most Americans to go dig up your 
original Social Security card, and it presented challenges. I 
did. But--go ahead, sir.
    Mr. Wolf. Specifically, the law is very prescriptive on 
what documentation is required. So, again, the law was written 
in 2005/2006. I will say that, you know, we did not have 
smartphones at that time, so we have evolved some time.
    What we can do, electronically, I think, is a question 
perhaps that we can talk to the committee about, see if we can 
have some relief under that law, that we can submit documents 
electronically in a secure environment to speed this up.
    But we continue to get information from every State every 
month on their compliance rate, which will make us--will help 
us make a number of informed decisions as that October 2020 
date gets closer.
    Mr. Correa. Mr. Chairman, I would ask that we continue to 
monitor the situation here in the next few weeks, come back and 
ask this committee and Mr. Wolf on progress, because I think we 
are going to have a train wreck October 1. We will make the 
changes, as you said, maybe we submit electronically. Yet, 
knowing what I know, I think we are going to have to re-ask 
this question in a few weeks, after we see what happens, people 
trying to get their information in electronically.
    Mr. Wolf. So we get updated information every month that we 
look at. It is all voluntary by the States. Some States are 
much better than others in providing that information to the 
Department. So we continue to work with States, and 
specifically State DMVs, so that we understand how many 
licenses that they are issuing on a monthly basis.
    Mr. Correa. It is a daunting challenge. I wanted to make an 
appointment at DMV, and I tried calling all my local offices, 
and nobody had a slot open, and that is why I had to wait at 
6:30 in the morning and, again, still was at the end of the 
line. So----
    Mr. Wolf. We continue to also make sure that we push out, 
obviously, a Real ID is probably the best ID that you can have, 
but there are other alternative forms of identification, if you 
choose to travel after that October date on a commercial 
airline. So you can have military ID, you can have a passport. 
There is a whole list of alternative documents. So individuals 
that can't make it in for whatever reason, if they have one of 
the alternative forms of document, they can provide that and 
continue to fly.
    Mr. Correa. Thank you very much, Mr. Wolf.
    Again, Mr. Chairman, I look forward to asking this question 
again in the next few weeks. Thank you.
    Chairman Thompson. Well, and in light of that, do you 
anticipate some kind of directive from DHS before October 1?
    Mr. Wolf. We continue to assess that. As of right now, we 
would--the October 2020 date is the date. We have seen that be 
very successful over the last 2 to 3 years, of getting States 
to comply with the Real ID requirement.
    So the question is, we have almost all States that are 
compliant. The real question is, how many are issuing Real IDs, 
and how many will be in circulation as that October date comes 
to bear?
    So the information I talked about that we receive from the 
States every month will give us some information to make an 
informed decision. So as we get closer into the spring and 
summer, we will probably be talking with you, Chairman, and 
others about that date. Based on the number of ideas that we 
see----
    Chairman Thompson. Let me--thank you. Let me give a 
problem. Some individuals' licenses don't expire or 2, 3, 4, 5 
years.
    Mr. Wolf. Right.
    Chairman Thompson. I am not--there has been no information, 
other than you need to be Real ID-compliant by October 1. So--
--
    Mr. Wolf. So that specific direction should come from the 
State DMVs to their entire ID population. Say, even though you 
may not have a renewal date for 2 years out, or a year-and-a-
half out, to be compliant with Real ID you need to come in and 
get a Real ID.
    Chairman Thompson. Well, I think if you check, it is not 
being pushed out.
    Mr. Correa. Mr. Chairman, on that point, that is what 
motivated me to go get my Real ID.
    Chairman Thompson. Right.
    Mr. Correa. My license that expired. So I had to be there.
    Chairman Thompson. Right. But for those----
    Mr. Correa. But that is a motivator. If you get 2 or 3 
years out----
    Chairman Thompson. Yes----
    Mr. Correa. Versus spending 3 hours at the DMV----
    Mr. Wolf. Again, if you are 2 or 3 years out, and you don't 
have a Real ID, but you have an alternative form, you are OK.
    Mr. Correa. Yes----
    Mr. Wolf. You need that alternative form----
    Chairman Thompson. That is if I know. You know? If I don't 
travel, it is a question.
    So--but it is a good point. If you would, can you tell us 
if all the States are compliant, coming into compliance, under 
this now?
    Mr. Wolf. I believe they are. I would just need to check on 
1 additional State there. I know there are 2 States that have 
not started issuing any of their Real IDs, specifically. So 
they can be compliant, but not issuing IDs. I believe that is 
the case with 2 States. Every other State is compliant and has, 
in one phase or another, started issuing their Real IDs.
    Chairman Thompson. Thank you. I have just a couple of 
questions.
    The President made reference to a redemption fund paying 
for the wall. Have you--are you familiar with any of this?
    Mr. Wolf. I am sorry, a redemption fund?
    Chairman Thompson. He referenced at a speech in New 
Hampshire this month a redemption fund paying for the wall.
    Mr. Wolf. Well, I know the administration looks at a 
variety of different sourcing--funding sources for the wall. I 
know what we are appropriated for, and, obviously, funding that 
we are--that DoD is providing for wall construction, as well. 
So that is what I am familiar with.
    Chairman Thompson. So you are not familiar with a 
redemption----
    Mr. Wolf. I am just familiar with our appropriated funding 
and, again, the DOD funding.
    Chairman Thompson. So it is not under DHS.
    Mr. Wolf. It is not under DHS.
    Chairman Thompson. Thank you. Thank you very much.
    I thank the Acting Secretary for his testimony--oh. The 
gentleman from Texas.
    Mr. Crenshaw. Thank you, Mr. Chairman. I just want to 
continue on that last line of questioning. We ran out of time 
as we were talking about what more Congress could do to secure 
the border. We talked about--you spoke about more than 1,000 
illegal crossings a day, and how that still constitutes a 
crisis. Of course, that is true.
    But there is another metric that, I believe, is just as 
important, maybe more important, which is how we process those 
people after they have crossed.
    Mr. Wolf. Right.
    Mr. Crenshaw. You can't control who decides to walk across 
the border and turn themselves in. We will actually never be 
able to control that. Only the Mexican Government can control 
that.
    But we can control our--the catch-and-release, you know, I 
dare say, policy that has been occurring for the last couple of 
decades. So I want to get your statement on what we have done 
to better combat the catch-and-release process that has really 
been happening. Are we adequately enforcing our laws?
    Mr. Wolf. I think that is an important point. CBP, as we 
have said, has all but ended catch-and-release. The individuals 
that are coming across our border today, if you were to go back 
to May and June of last year, huge numbers coming across the 
border, and some months over 100,000, as we have indicated. We 
were releasing those individuals, large amounts, over 80 
percent, 85 percent of those individuals.
    Today what we see is any individual coming across the 
border illegally is--over 90 to 95 percent of them are in an 
immigration pathway. So when we talk about MPP or we talk about 
ENV or we talk about PACR, HARP, or a number of other 
initiatives that we put in place to speed up that processing, 
of course we do that at the Department with CBP, ICE, USCIS, 
but also with our partners at DOJ to speed that process up, so 
that individuals, again, that are seeking protection, get their 
protection sooner in the process. So today it looks extremely 
different, almost night and day, to what we saw in May and June 
of that--of last year.
    I would say, as far as what Congress can do, obviously, the 
President's budget request is supportive of that process. We 
need to make sure that we have the right number of Border 
Patrol agents, but also the right number of ICE agents, as 
well, making sure that we are not just apprehending people, 
but, as we apprehend people, and we find criminals, and we find 
others, that we are investigating those folks.
    So CBP doesn't do that investigation, ICE does that. As we 
continue to increase prosecutions and do a number of things, 
ICE attorneys help that process. So it is the--I think you have 
to look at the full immigration continuum to, not only what 
occurs at the border, but also what is occurring as folks come 
into the interior, and either fall out of status or the like.
    So the President's budget request is--outlines the 
resources we need to do that.
    Mr. Crenshaw. That is excellent to hear. I would also point 
out I introduced the H.R. 1609, the Anti-Border Corruption 
Improvement Act, which would allow CBP to waive the polygraph 
requirement for certain law enforcement and military veterans 
who have already established that public trust.
    You know, we had some good news earlier where you talked 
about a net increase in hiring. But would a bill like that also 
help in the hiring process to get----
    Mr. Wolf. It will, it will.
    Mr. Crenshaw. That would be excellent.
    Mr. Wolf. We have had some authority from Congress several 
years ago to speed that up, and to exempt certain----
    Mr. Crenshaw. I would note that bill passed out of this 
committee unanimously the last Congress, I believe, and I would 
love it if we took it up again.
    I want to talk about, in my limited time here, CISA. I know 
you have been asked about this already, but I want to hear it 
from you again, that our cybersecurity defense will still be 
upheld with the President's budget.
    Mr. Wolf. Absolutely. Again, the President's 2021 budget 
request for CISA fully funds all of their initiatives, all of 
their priorities.
    As we look across the board, obviously they do 
cybersecurity for the dot.gov sector, but also election 
security, soft target security, supply chain security, 5G 
security. Across their sector, the 2021 budget request built 
with CISA, CISA leadership, is what they need to sustain their 
activities.
    Mr. Crenshaw. Are we able to hire the cyber experts that we 
need? Have there been any changes in hiring rules and practice 
that would allow better recruitment of the right personnel? 
This is a very specific type of person that we----
    Mr. Wolf. Yes, so CISA does have a number of unique 
authorities to hire those cyber individuals. They are 
beginning--I would say there is on-going hiring. It is a 
challenge. These individuals, obviously, can make a lot more 
money in the private sector.
    Mr. Crenshaw. Right.
    Mr. Wolf. But they are bringing on new individuals. There 
is 500 in the 2021 budget request, not just in CISA, but across 
the Department. We need cyber capabilities across the 
Department. CISA is the largest repository of that, but TSA has 
cyber needs and capabilities, as well as the Coast Guard.
    Mr. Crenshaw. You know, there is a lot of other 
organizations in U.S. Government that deal with cybersecurity: 
The NSA, CYBERCOM. Do you think that the lanes are--that there 
is adequate understanding of who is in what lane, with respect 
to cybersecurity?
    Mr. Wolf. There certainly is, I believe, you know, from the 
Federal Government perspective. It may not be as clear to an 
individual in the American public looking at it, but 
specifically, we all have different, individual roles and 
responsibilities, and we all talk about how do we, you know, 
address a specific issue or a specific threat within those 
roles and responsibilities.
    So, again, CISA is looking at Federal networks, making 
sure--and we are the primary interface in sharing a lot of that 
threat information, intel information, with our private-sector 
partners. So all of the, you know, individuals and companies 
out there that are, you know, in the financial sector, and a 
variety of other sectors that are very vulnerable to cyber 
attacks.
    So I believe that the lanes in the road are quite clear, at 
least from a Government perspective. We could probably do a 
better job in explaining it to the American people who is 
specifically doing what.
    Mr. Crenshaw. Great, thank you, and I yield back.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. I would like to 
enter into the record a statement from Anthony Reardon, 
national president of the National Treasury Employees Union.
    Without objection.
    [The information follows:]
Statement of Anthony M. Reardon, National President, National Treasury 
                            Employees Union
                             March 3, 2020
    Chairman Thompson, Ranking Member Rogers, and distinguished Members 
of the committee, thank you for the opportunity to submit this 
statement for the record. As president of the National Treasury 
Employees Union (NTEU), I have the honor of leading a union that 
represents over 27,000 Customs and Border Protection (CBP) officers, 
agriculture specialists, and trade enforcement personnel stationed at 
328 land, sea, and air ports of entry across the United States (U.S.) 
and 16 PreClearance stations currently at airports in Ireland, the 
Caribbean, Canada, and the United Arab Emirates. CBP's Office of Field 
Operations (OFO) pursues a dual mission of safeguarding American ports 
by protecting the public from dangerous people and materials, while 
enhancing the Nation's global and economic competitiveness by enabling 
legitimate trade and travel. In addition to CBP's trade and travel 
security, processing and facilitation missions, CBP OFO employees at 
the ports of entry are the second-largest source of revenue collection 
for the U.S. Government. In 2019, CBP processed more than $2.8 trillion 
in imports and collected approximately $72 billion in duties, taxes, 
and other fees.
    CBP OFO is also the largest component of the Department of Homeland 
Security (DHS) responsible for border security--including anti-
terrorism, immigration, anti-smuggling, trade compliance, and 
agriculture protection--while simultaneously facilitating lawful trade 
and travel at U.S. ports of entry that are critical to our Nation's 
economy. Yet, the President's fiscal year 2021 budget requests no new 
funding for the hiring much-needed CBP officers, agriculture 
specialists, trade operations specialists, and mission support 
positions. The final fiscal year 2020 funding agreement provided $104 
million to fund the hiring 800 new OFO positions, including 610 CBP 
officer and CBP agriculture specialist new hires.
    For years, NTEU has advocated for the hiring of thousands of new 
CBP officers and hundreds of new agriculture specialists based on the 
agency's own Workload Staffing Model (WSM) and Agriculture Resource 
Allocation Model (AgRAM). According to CBP's January 2020 on-board 
staffing data, CBP has 24,606 CBP officers on-board, but the fiscal 
year 2019 WSM states a need for 26,837--a gap of 2,231. For CBP 
agriculture specialists, the January 2020 data shows 2,477 on-board, 
and the fiscal year 2019 AgRAM shows a need for 3,148--a gap of 671.
    This staffing gap results in ports operating well below 100 percent 
of capacity. For example, the mayor of El Paso recently stated that 
``we need at least 200 more officers.'' And according to El Paso 
commercial truckers, there are at least 8 commercial lanes at the 
Ysleta land port, and only 4 are open on a regular basis. There are 6 
lanes at the Bridge of the Americas, and only 3 are regularly open. 
(Border Wait Times Hinder Flow of Commerce, Hurting American Companies, 
Texas Tribune, February 20, 2020.)
    NTEU appreciates the funding level for CBP OFO employees in the 
fiscal year 2020 DHS final funding agreement and urges Congress to add 
to these new hire numbers in fiscal year 2021 to address on-going 
staffing shortages at the ports of entry. NTEU is requesting committee 
Members seek from Senate Appropriators a minimum $160 million in direct 
appropriated funding for CBP ``Operations and Support'' in fiscal year 
2021 to fund the hiring of at least 600 CBP officers, 240 CBP 
agriculture specialists, 200 CBP agriculture technicians, 20 
agriculture canine teams, and 50 non-uniformed trade enforcement 
specialists and associated operational support personnel.
    NTEU commends Ranking Member Peters and Senator John Cornyn for 
introducing and favorably reporting S. 1004, the Safeguarding American 
Ports Act, stand-alone legislation that would authorize the hiring of 
600 additional CBP officers annually until the staffing gaps in CBP's 
WSM is met. NTEU strongly supports this CBP officer staffing 
authorization bill that is awaiting Senate floor action and urges every 
Member of the Senate to support this bill.
    NTEU is not alone in seeking increased funding to hire new CBP 
officers at the ports. A diverse group of business, industry, and union 
leaders have joined forces in support of legislation and funding to 
hire more CBP personnel and alleviate staffing shortages at the 
Nation's ports of entry. The coalition--which includes leading voices 
from dozens of leading shipping, tourism, travel, trade, law 
enforcement, and employee groups--testified and sent letters urging 
Senators to cosponsor S. 1004 and asking appropriators to provide the 
funding necessary to hire at least 600 new CBP officers annually.
    As stated above, in addition to the shortage of CBP officers there 
is a current shortage of approximately 671 funded agriculture 
specialists Nation-wide according to CBP's own data-driven and vetted 
Workload Staffing Model. Last month, the House followed the Senate in 
unanimously passing the NTEU endorsed bill, S. 2107, the Protecting 
America's Food and Agriculture Act of 2019. The new law authorizes CBP 
to hire 240 CBP agriculture specialists, 200 CBP agriculture 
technicians and 20 agriculture canine teams per year until the staffing 
shortage that threatens the U.S. agriculture sector is met. NTEU asks 
the committee to support a fiscal year 2021 funding request of $160 
million that includes $74.5 million to hire the first wave of CBP 
agriculture inspection personnel authorized by the newly-enacted 
statute.
    CBP Officer Overtime.--Due to the on-going current staffing 
shortage of 2,477 CBP officers, CBP officers Nation-wide are working 
excessive overtime to maintain basic port staffing. Currently, CBP 
officer overtime pay is entirely funded through user fees and is 
statutorily capped at $45,000 per year. All CBP officers are aware that 
overtime assignments are an aspect of their jobs. However, long periods 
of overtime hours can severely disrupt an officer's family life, 
morale, and ultimately their job performance protecting our Nation.
    Because CBP officers can be required to regularly work overtime, 
many individual officers hit the overtime cap very early in the fiscal 
year. This leaves no overtime funding available for peak season travel, 
resulting in critical staffing shortages in the third and fourth 
quarter that coincides with holiday travel at the ports.
    To address this issue, at many ports, CBP has granted overtime cap 
exemptions to over one-half of the workforce to allow managers to 
assign overtime to officers that have already reached the statutory 
overtime cap, but cap waivers only force CBP officers already working 
long daily shifts to continue working these shifts for more days. 
Officers are required to come in hours before their regular shifts, to 
stay an indeterminate number of hours after their shifts (on the same 
day) and are often compelled to come in for more overtime hours on 
their regular days off. Involuntary overtime resulting in 12- to 16-
hour shifts, day after day, for months on end significantly disrupts 
CBP officers' family life and erodes morale. As NTEU has repeatedly 
stated, this is not a long-term solution for staffing shortages at the 
ports and has gone on for far too long.
    Temporary Duty Assignments at Southwest Land Ports of Entry.--Due 
to CBP's on-going staffing shortage, since 2015, CBP has been diverting 
hundreds of CBP officers from other air, sea, and land ports to 
severely short-staffed Southwest land ports for Temporary Duty 
Assignments (TDYs). CBP recently ended the most recent round of CBP 
officer TDYs to Border Patrol sectors across the Southwest Border. From 
May through September 2019, CBP deployed a total of 731 CBP officers to 
designated Border Patrol Sectors. In this latest deployment, 245 
officers were sent from the SW Border Field Offices with the remaining 
486 officers coming from the other Field Offices.
    According to a newly-released study, ``The Economic Costs of the 
U.S.-Mexico Slowdown,'' this most recent TDY has resulted in a 
significant slowdown at the U.S.-Mexico border leading to substantial 
economic harms. Millions of trucks carry goods across the border every 
year and delays at land ports cause cascading logistical problems. The 
current slowing on the U.S.-Mexico border is reducing efficiency and 
costing the U.S. economy billions in output and hundreds of thousands 
of jobs. If the diversion of CBP officers from the Southwest Border 
international land ports continues, the State of Texas alone could lose 
more than $32 billion in gross domestic product in just over 3 months. 
If there is a one-third reduction in trade between the United States 
and Mexico over a 3-month period, the cost to the U.S. economy would be 
over ``$69 billion in gross product and 620,236 job-years (when 
multiplier effects are considered). Almost half of these losses occur 
in Texas.''
    NTEU urges Congress to require CBP to allocate personnel and 
resources appropriately to ensure timely processing of people at ports 
of entry and better manage the changing demographic flows at our 
Southern Border. To end all these TDYs, CBP must fill existing CBP 
officer vacancies and Congress must fund the hiring of the additional 
CBP officers called for in CBP's own WSM. Without addressing the 2,477 
CBP officer shortfall, allocating adequate staffing at all ports will 
remain a challenge.
    CBP Funding Sources.--CBP collects Customs User Fees (CUFs), 
including those under the Consolidated Omnibus Budget Reconciliation 
Act of 1985 (COBRA), to recover certain costs incurred for processing 
air and sea passengers and various private and commercial land, sea, 
air, and rail carriers and shipments. The source of these user fees are 
commercial vessels, commercial vehicles, rail cars, private aircraft, 
private vessels, air passengers, sea passengers, cruise vessel 
passengers, dutiable mail, customs brokers, and barge/bulk carriers.
    COBRA fees are deposited into the Customs User Fee Account and are 
designated by statute to pay for services provided to the user, such as 
100 percent of inspectional overtime for passenger and commercial 
vehicle inspection during overtime shift hours. Of the CBP officers 
currently funded, CUFs fund 2,538 full-time equivalent (FTEs) CBP 
officers. Further, Immigration Inspection User Fees (IIUF) fund 4,179 
CBPO FTEs. Together CUF and IIUF fund nearly one-third of the entire 
CBP officer workforce at the ports of entry.
    As in the past, the administration's budget proposes increases in 
user fees collected by CBP. Currently, over 36 percent of CBP OFO is 
funded with a combination of user fees, reimbursable service 
agreements, and trust funds. It is gratifying to see that the CBP 
officer staffing numbers in the President's budget are not dependent on 
Congress first enacting changes to statutes that determine the amounts 
and disbursement of these user fee collections.
    The fiscal year 2021 budget again proposes fee increases to the 
Immigration Inspection and Consolidated Omnibus Budget Reconciliation 
Act of 1985 user fees; however, these user fees cannot be increased 
without Congress first enacting legislation. Legislative proposals to 
increase user fees have been part of the administration's annual budget 
submission since fiscal year 2024. These user fee increase proposals 
are again in the fiscal year 2021 budget request, even though the 
committees with jurisdiction have never held hearings on these long-
standing legislative proposals and the administration has not pressed 
upon these committee chairs to do so.
    NTEU strongly opposes any diversion of CUFs.--Any increases to the 
CUF Account should be properly used for much-needed CBP staffing and 
not diverted to unrelated projects. Unfortunately, while section 52202 
of the FAST ACT indexed CUFs to inflation, it diverted this funding 
from CBP to pay for unrelated infrastructure projects. Indexing COBRA 
CUFs to inflation would have raised $1.4 billion over 10 years--a 
potential $140 million per year funding stream to help pay for the 
hiring of additional CBP officers to perform CBP's border security, law 
enforcement, and trade and travel facilitation missions. Diverting 
these funds has cost CBP funding to hire over 900 new CBP officers per 
year since the FAST Act went into effect. These new hires would have 
significantly alleviated the current CBP officer staffing shortage.
    Reimbursable Service Agreements.--In order to find alternative 
sources of funding to address serious staffing shortages, CBP received 
authorization for and has entered into Reimbursable Service Agreements 
(RSAs) with the private sector, as well as with State and local 
governmental entities. These stakeholders, who are already paying CUFs 
and IIUFs for CBP OFO employee positions and overtime, reimburse CBP 
for additional inspection services, including overtime pay and the 
hiring of new CBP officer and agriculture specialist personnel that in 
the past have been paid for entirely by user fees or appropriated 
funding. Since the program began in 2013, CBP has entered into 
agreements with over 211 stakeholders providing more than 793,000 
additional processing hours for incoming commercial and cargo traffic 
(GAO-20-255R).
    NTEU believes that the RSA program is a Band-Aid approach and 
cannot replace the need for Congress to either appropriate new funding 
or authorize an increase in customs and immigration user fees to 
adequately address CBP staffing needs at the ports. RSAs simply cannot 
replace the need for an increase in CBP appropriated or user fee 
funding--and make CBP a ``pay to play'' agency. NTEU also remains 
concerned with CBP's new PreClearance expansion program that also 
relies heavily on ``pay to play.'' Further, NTEU believes that the use 
of RSAs to fund CBP staffing shortages raises significant equity issues 
between larger and/or wealthier ports and smaller ports.
    Opioid Interdiction.--CBP OFO is the premier DHS component tasked 
with stemming the Nation's opioid epidemic--a crisis that is continuing 
to get worse. According to a May 2018 report released by the Senate 
Homeland Security and Governmental Affairs Committee Minority titled 
Combatting the Opioid Epidemic: Intercepting Illicit Opioids at Ports 
of Entry, ``between 2013 and 2017, approximately 25,405 pounds, or 88 
percent of all opioids seized by CBP, were seized at ports of entry. 
The amount of fentanyl seized at the ports of entry increased by 159 
percent from 459 pounds in 2016 to 1,189 pounds in 2017.''
    On January 26, 2019, CBP OFO made their biggest fentanyl seizure 
ever, capturing nearly 254 pounds of the deadly synthetic opioid at the 
Nogales port of entry. According to the Drug Enforcement 
Administration, just 2 milligrams of fentanyl is considered a lethal 
dose. From the January 26, 2019 seizure alone, it is estimated that CBP 
officers seized enough fentanyl to kill 57 million people. That's more 
than the combined population of the States of Illinois, New York, and 
Pennsylvania. The street value for the fentanyl was over $102 million. 
CBP officers also seized an additional 2.2 pounds of fentanyl pills and 
a large cache of methamphetamine.
    Most fentanyl is manufactured in other countries such as China and 
is smuggled primarily through the ports of entry along the Southwest 
Border and through international mail and Private Express Carrier 
Facilities, e.g. FedEx and UPS. Over the past 5 years, CBP has seen 
nearly 50 percent increase in express consignment shipments from 76 
million to 110 million express bills and a 200 percent increase in 
international mail shipments from approximately 150 million to more 
than 500 million.
    Prior to the enactment of fiscal year 2019 funding agreement, there 
were only 181 CBP employees assigned to the 5 Postal Service 
International Service Centers and 208 CBP employees assigned to the 
Private Express Carrier Facilities. Additional funding from Congress 
for new hires in the past 2 cycles has increased the number of CBP 
officers assigned to these inspection facilities. NTEU's funding 
request would allow for further increases in CBP OFO staffing at these 
facilities. Noting the positive impact of hiring additional CBP 
officers, it is troubling that the President's 2017 Border Security 
Executive Order and his subsequent budget requests did not ask for one 
additional CBP officer new hire. In 2019, CBP officer seized a total of 
2,560 pounds of fentanyl, an increase of 46.6 percent from fiscal year 
2018. Imagine what CBP OFO could do with adequate staffing and 
resources.
    CBP Trade Operations Staffing.--In addition to safeguarding our 
Nation's borders and ports, CBP is tasked with regulating and 
facilitating international trade. CBP employees at the ports of entry 
are critical in protecting our Nation's economic growth and security 
and are the second-largest source of revenue collection for the U.S. 
Government--$72 billion in 2019. For every dollar invested in CBP trade 
personnel, we return $87 to the U.S. economy, either through lowering 
the costs of trade, ensuring a level playing field for domestic 
industry or protecting innovative intellectual property. Since CBP was 
established in March 2003, however, there has been no increase in non-
uniformed CBP trade enforcement and compliance personnel. Additionally, 
CBP trade operations staffing has fallen below the statutory floor set 
forth in the Homeland Security Act of 2002 and stipulated in the fiscal 
year 2019 CBP Resource Optimization Model for Trade Positions. NTEU 
strongly supports proposed appropriated funding in the fiscal year 2021 
budget request for 50 additional Trade Agreement, Remedies, and 
Enforcement personnel and ensure compliance with laws that govern 
priority trade issues, such as Intellectual Property Rights.
    On-going Morale Issues at DHS.--Adequate staffing at CBP ports of 
entry is critical to our Nation's economic vitality. In order to 
attract talented applicants, however, Federal agencies must also 
recognize the importance of employee engagement and fair treatment in 
their workplace. Unfortunately, low morale has been a consistent 
challenge at DHS. For 6 consecutive years the Partnership for Public 
Service (PPS) Best Places to Work in the Federal Government ranked DHS 
last among large agencies surveyed. In 2019, PPS ranked CBP as 380th 
out of 420 component agencies surveyed with a drop of 2.1 percent from 
51.6 percent in 2018 to 49.5 percent in 2019.
    The Best Places to Work results raise serious questions about the 
Department's ability to recruit and retain the topnotch personnel 
necessary to accomplish the critical missions that keep our country 
safe. If the agency's goal is to build a workforce that feels both 
valued and respected, these results show that the agency needs to make 
major changes in its treatment of employees. Wide-spread 
dissatisfaction with DHS management and leadership creates a morale 
problem that affects the safety of this Nation.
    Of particular concern to NTEU is the increase in suicides as the 
reported cause of death of Federal employees. New data released by the 
U.S. Bureau of Labor Statistics (BLS) in the past month shows that 
Federal employee suicides are at their highest level in at least 15 
years, with suicides accounting for 28 percent of the 124 Federal 
employee job-related deaths in 2018. BLS records the event as a job-
related suicide if the suicide occurred at work or if it occurred 
elsewhere but can be definitively linked back to work. Since 2011, the 
number of self-inflicted intentional fatalities among Federal workers 
has more than doubled to 35, although the Federal workforce has 
remained approximately the same size.
    Most suicides continue to involve Federal employees in work related 
to law enforcement, such as CBP. In 2016, 15 of the 16 reported 
suicides were by Federal workers employed at a National security-
related agency. At CBP, more than 100 employees died by suicide between 
2007 and 2018, according to the agency itself. NTEU applauds CBP for 
seeking additional funding for their Employee Assistance Program (EAP). 
We also appreciate that CBP agreed to add NTEU representatives to a CBP 
workgroup that is working to address the unacceptably high rate of 
suicides among CBP personnel and develop a ``Suicide Prevention 
Strategy.'' It is vital that this workgroup continue to include rank-
and-file members' input as it develops a strategy to reduce the number 
of job-related suicides at CBP.
    NTEU also strongly supports H.R. 1433, the DHS Morale, Recognition, 
Learning and Engagement Act or the DHS MORALE Act. The MORALE Act was 
approved by the full House last year and is awaiting action by the 
Senate. The bill directs the chief human capital officer (CHCO) to 
analyze Government-wide Federal workforce satisfaction surveys to 
inform efforts to improve morale, maintain a catalogue of available 
employee development opportunities and authorize the designation of a 
chief learning and engagement officer to assist the CHCO on employee 
development.
    H.R. 1433 also authorizes the establishment of an Employee 
Engagement Steering Committee comprised of representatives from across 
the Department, as well as individuals from employee labor 
organizations that represent DHS employees. Last, the bill authorizes 
the Secretary to establish an annual employee awards program to 
recognize non-supervisory DHS employees who have made a significant 
contribution to the Department. In our collective bargaining agreement 
with CBP, NTEU negotiated an extremely popular employee joint awards 
program. The agency retains the discretion to determine how much of its 
budget will be allocated for awards, but 85 percent of the total awards 
budgeted are recommended by a joint union/management awards committee 
to be distributed proportionately among bargaining unit employees. NTEU 
recommends that DHS look at the negotiated CBP joint awards program as 
a model for an agency-wide program.
    While a major factor contributing to low morale at CBP is 
insufficient staffing and resources at the ports of entry, the 
provisions in the DHS MORALE Act will help to address non-staffing 
issues that affect employee morale by improving front-line employee 
engagement and establishing a statutory annual employee award program. 
NTEU commends the Chairman and the House for approving the DHS MORALE 
Act and urges the Senate to expeditiously do the same.
                          nteu recommendations
    To address CBP's workforce challenges, it is clearly in the 
Nation's economic and security interest for Congress to authorize and 
fund an increase in the number of CBP officers, CBP agriculture 
specialists, and other CBP employees at the air, sea, and land ports of 
entry.
    In order to achieve the long-term goal of securing the proper 
staffing at CBP and end disruptive TDYs and excessive involuntary 
overtime shifts, NTEU recommends that Congress take the following 
actions:
  <bullet> Support funding for 600 new CBP officers in fiscal year 2021 
        DHS appropriations;
  <bullet> Support fiscal year 2021 funding for new CBP agriculture 
        inspection personnel, as authorized by S. 2107.
  <bullet> Support funding for needed trade operations specialists and 
        other OFO support staff;
  <bullet> Introduce and enact legislation to authorize the funding of 
        CBP officer new hires up to the number specified in CBP's own 
        CBP Officer Workload Staffing Model; and
  <bullet> Fully fund and utilize recruitment, relocation, and 
        retention incentives.
    Congress should also redirect the increase in customs user fees in 
the FAST Act from offsetting transportation spending to its original 
purpose of providing funding for CBP officer staffing and overtime and 
oppose any legislation to divert additional fees collected to other 
uses or projects.
    The employees I represent are frustrated and their morale is low. 
These employees work hard and care deeply about their jobs and their 
country. These men and women are deserving of more staffing and 
resources to perform their jobs better and more efficiently.
    Thank you for the opportunity to submit this statement for the 
record.

    Chairman Thompson. I want to thank Acting Secretary for his 
testimony, and the Members for their questions.
    The Members of the committee may have additional questions, 
and we ask that you respond expeditiously in writing to those 
questions.
    Without objection, the committee's record shall be kept 
open for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:47 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

     Questions From Honorable Torres Small for Honorable Chad Wolf
    Question 1. I'm pleased the administration is pursuing deployment 
of cost-effective autonomous surveillance towers along the Southern 
Border. These systems use commercial off-the-shelf sensors combined 
with artificial intelligence and machine learning to provide fully 
autonomous situational awareness without any additional manpower. 
According to industry, the autonomous surveillance towers are also 
relocatable, solar-powered, and cost less than $100,000 per mile of 
coverage.
    Please provide the committee with your deployment plan, including 
the number of autonomous surveillance towers you plan to acquire and 
anticipated costs and schedule for their deployment along the Southern 
Border.
    Answer. The U.S. Customs and Border Protection (CBP) Innovation 
Team has procured a total of 60 autonomous surveillance towers 
(formerly known as innovative towers) in fiscal year 2018 and fiscal 
year 2019. CBP is establishing a new program of record, the autonomous 
surveillance tower (AST) program, to purchase, field, and test an 
additional 140 autonomous surveillance land towers for a total of 200 
towers. We plan on using $55 million in procurement, construction, and 
improvements (PC&I) funding in fiscal year 2020 and $28 million 
requested in fiscal year 2021 to deploy towers. A total of $12.4 
million was included in the fiscal year 2021 President's budget for the 
operations and sustainment (O&S) of the first 60 innovative towers. O&S 
cost estimates in the out years will be developed to support the 
planned deployment schedule.
    Question 1b. To what extent will the procurement and deployment of 
autonomous surveillance towers impact CBP's legacy surveillance tower 
systems?
    Answer. ASTs are not expected to impact CBP's legacy surveillance 
tower systems. ASTs are complementary to the legacy systems and are 
ideal for areas where less range is needed, where power or 
communications infrastructure are unavailable, where towers may be 
relocated, or when manpower to operate surveillance systems is limited.
    Question 1c. I am concerned our acquisition process remains slow 
and outdated. What alternative procurement strategies to purchasing 
equipment, such as a lease or subscription model, has the Department 
considered for rapidly fielding commercial solutions for border 
security?
    Answer. For CBP's acquisition of the initial ASTs, we used a 
combination of procurement strategies. A limited number of ASTs were 
acquired under a partnership with another Government agency. This 
strategy provided an avenue to demonstrate the capability in the field, 
with incremental deployments, which not only demonstrated that the 
technology was technically viable in various environments, but that it 
was operationally effective and widely accepted by users. Subsequently, 
CBP used traditional methods to acquire additional systems under 
General Services Administration contract vehicles.
    Going forward, CBP intends to use the flexibilities of the Small 
Business Innovative Research (SBIR) program to acquire production-level 
quantities. By leveraging other Government agencies' existing SBIR 
capabilities, we can contract directly with the original equipment 
manufacturer for ASTs that can be deployed in the near future. CBP 
first used SBIR Phase III contracts to facilitate the deployment of new 
technologies in fiscal year and we have found them to be an effective 
component of our strategy.
    Beyond ASTs, CBP has used alternative procurement strategies to 
acquire small unmanned aerial systems and Linear Ground Detection 
Systems. For these procurements, CBP used Section 880 of the fiscal 
year 2017 National Defense Authorization Act (NDAA), which provides for 
streamlined purchases of commercial and innovative solutions. This 
authority provides U.S. Department of Homeland Security (DHS) and CBP 
the ability to better engage with industry and select one or more 
solutions that can be fielded for demonstration purposes. If the 
technology proves effective, CBP will be able to exercise options for 
production-level quantities that can be quickly deployed to the field. 
We plan to use Section 880 authority for additional commercial and 
innovative solutions.
    With respect to acquisition program oversight, CBP has streamlined 
decision making into fewer reviews and by tailoring requirements to 
simplify documentation preparation. As a result, we expect the AST 
program to meet its targeted contract award date in June 2020.
     Questions From Honorable Michael Guest for Honorable Chad Wolf
    Question 1a. Given that the aircraft that the USCG currently owns 
will be over 20 years old (date of manufacture--2001) and will have 
logged over 10,500 flying hours by the time your new LRCCA aircraft 
will be delivered, which a conservative estimate would be at earliest 
2023, do you believe it would be prudent to replace the older asset 
first, given that maintenance and flight-hour costs increase along with 
age? It seems to me that this strategy would ensure better performance 
and reduce maintenance costs to the Government.
    Answer. The U.S. Coast Guard is monitoring the operational 
availability and sustainment cost of our owned aircraft (CG-01), and we 
are working closely with the U.S. Air Force who is also operating 
several C-37As that are a similar age. The Coast Guard intends to 
utilize the $70 million received for Long Range Command and Control 
Aircraft (LRCCA) in fiscal year 2020 to recapitalize the currently-
leased aircraft, as stated in the report language of H.R. 3931. 
Transitioning from long-term leasing to an owned aircraft will provide 
significant cost savings over the service life of the aircraft.
    Question 1b. Can you provide a copy of Analysis of Alternatives or 
other data that drove the decision to purchase vs. lease at this time?
    Answer. The analysis that supported the Coast Guard's request to 
purchase a new LRCCA indicates that there is a significant cost savings 
associated with owning the aircraft. The current lease cost is $9 
million per year, which includes 500 annual flight hours and depot 
level maintenance for the aircraft. The Coast Guard estimates that 
approximately half of the lease costs ($4.5 million) is for 
maintenance and upkeep. This means the remaining $4.5 million of the 
lease cost is for access to the aircraft (time and flight hours). The 
costs for fuel, unit-level maintenance, and aircrew personnel are not 
included in the lease, and therefore will be the same for the leased 
and owned aircraft. Assuming a 20-year life cycle, the cost associated 
with $4.5 million/year lease totals to $90 million. This is comparable 
to the acquisition cost of a new C-37, which is estimated at less than 
$70 million. Based on a 20-year life cycle, leasing of an aircraft is 
approximately 30 percent more expensive than owning and maintaining the 
aircraft. In addition to the annual lease cost, the Coast Guard pays 
one-time costs at the start and end of the lease period to install/
remove Coast Guard-specific communications equipment, which takes the 
aircraft out of service for up to 6 months. Finally, if an owned 
aircraft is operated past 20 years, the savings associated with owning 
the aircraft increases.
    Question 1c. What were the annual maintenance costs for the GV vs 
G550 this past year?
    Answer. The 2019 costs for maintaining the GV was $4.2 million, 
which included a one-time upgrade to the avionics systems. The 3-year 
average maintenance cost for the GV is $3.2 million per year. The Coast 
Guard does not have the actual maintenance cost for the G550 since the 
maintenance costs are included as part of the lease costs.
    Question 1d. Wouldn't it also be better for USCG pilots to maintain 
currency on one type plane and not two?
    Answer. The GV and G550 are very compatible and similar in terms of 
capability and support requirements. GV and G550 aircraft have the same 
type rating; therefore CG LRCCA pilots can attend the same training to 
maintain currency on both aircraft.
    Question 1e. From a capability and cost perspective, wouldn't 
operating and maintaining two newer G550's be better than a G550 and a 
GV?
    Answer. The GV and G550 are very compatible and similar in terms of 
capability and support requirements. Although it would be ideal to 
operate two new aircraft, there is a significant cost savings 
associated with replacing the leased aircraft. Scheduled maintenance, 
unscheduled maintenance, and obsolescence mitigation costs affect both 
the GV and G550 aircraft.
    Question 2a. The FBI recently found itself in a similar situation 
and chose to replace its older aircraft first while also continuing to 
lease a newer asset.
    Have you reviewed the FBI's strategy?
    Answer. Yes, the Coast Guard reached out to the Federal Bureau of 
Investigation (FBI) about their recent purchase of a G550.
    Question 2b. Would you be willing to analyze this approach and 
share your findings? It seems to me that by replacing the GV first, the 
USCG will save taxpayer dollars and ensure there is no break in 
operational capability as the new G550 is being built and modified.
    Answer. It is the Coast Guard's understanding that the FBI's 
decision to recapitalize their GV was based on operational 
considerations. The FBI's GV experienced frequent unscheduled 
maintenance that was impacting their mission performance. The impact of 
the unscheduled maintenance was exacerbated by the fact that a high 
percentage of the FBI's travel is to foreign countries which have 
limited availability of maintenance support. In addition, it is 
understood that the FBI has fewer organic operational support personnel 
than the Coast Guard, and relies more heavily on contracted operational 
support, which can make it difficult to quickly execute unplanned 
maintenance evolutions. The Coast Guard's GV is not causing operational 
impacts similar to the FBI's aircraft.

                                 <all>
</pre></body></html>
